<html>
<title> - PUBLIC ACCESS WITHIN THE NATIONAL WILDLIFE REFUGE SYSTEM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
       PUBLIC ACCESS WITHIN THE NATIONAL WILDLIFE REFUGE SYSTEM

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, May 26, 2005

                               __________

                           Serial No. 109-16

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov









                 U.S. GOVERNMENT PRINTING OFFICE

21-449                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001
















                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                  SUBCOMMITTEE ON FISHERIES AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Walter B. Jones, Jr., North          Neil Abercrombie, Hawaii
    Carolina                         Solomon P. Ortiz, Texas
Thelma Drake, Virginia               Ron Kind, Wisconsin
Luis G. Fortuno, Puerto Rico         Madeleine Z. Bordallo, Guam
Bobby Jindal, Louisiana              Nick J. Rahall II, West Virginia, 
Marilyn N. Musgrave, Colorado            ex officio
Richard W. Pombo, California, ex 
    officio
                                 ------                                
























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 26, 2005...........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from 
      Guam, Prepared statement of................................    87
        Letter from David T. Lotz, President, Guam Boonie 
          Stompers, submitted for the record.....................    89
    Duncan, Hon. John J., Jr., a Representative in Congress from 
      the State of Tennessee.....................................     4
        Prepared statement of....................................     5
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin...............................................     6
        Prepared statement of....................................     7
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     3
        Prepared statement of....................................     3
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California, Statement submitted for the record....    94
        List of National Wildlife Refuge System units closed to 
          the public submitted for the record....................    95
        Letter to Steven Williams, Director, U.S. Fish and 
          Wildlife Service, submitted for the record.............   106
        Response to letter from Steven Williams submitted for the 
          record.................................................   107
        Letter to Steve Thompson, Operations Manager, California/
          Nevada Operations Office, U.S. Fish and Wildlife 
          Service, submitted for the record......................   111
        Response from Steve Thompson submitted for the record....   112

Statement of Witnesses:
    Allphin, Robert C., Jr., Fair Access to Island Refuges.......    35
        Prepared statement of....................................    39
    D'Angelo, James M., M.D., President and Chairman, 
      International Midway Memorial Foundation...................    14
        Prepared statement of....................................    16
    Dudley, Dr. William S., Immediate Past Director of Naval 
      History, U.S. Department of the Navy, representing the 
      International Midway Memorial Foundation...................     9
        Prepared statement of....................................    11
    Farrell, Bradley A., Fair Access to Island Refuges...........    27
        Prepared statement of....................................    31
    Hartwig, William, Assistant Director for the National 
      Wildlife Refuge System, U.S. Fish and Wildlife Service, 
      U.S. Department of the Interior............................    57
        Prepared statement of....................................    60
        Response to questions submitted for the record...........    62
    Hilding, Eric, Project NA-178, Statement submitted for the 
      record.....................................................    97
        Letters submitted for the record.........................   100
    Langelius, Robert, Sr., President, Eastern U.S. Free Flight 
      Conference.................................................    45
        Prepared statement of....................................    48
    Mathewson, Dave, District 2 Vice President, Academy of Model 
      Aeronautics................................................    42
        Prepared statement of....................................    43

Additional materials supplied:
    Hirsche, Evan, President, National Wildlife Refuge 
      Association, Statement submitted for the record............   103
    List of documents retained in the Committee's official files.   118































OVERSIGHT HEARING ON PUBLIC ACCESS WITHIN THE NATIONAL WILDLIFE REFUGE 
                                 SYSTEM

                              ----------                              


                         Thursday, May 26, 2005

                     U.S. House of Representatives

                  Subcommittee on Fisheries and Oceans

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest, Pallone, Duncan, Drake, 
Kind, and Bordallo.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The hearing will come to order.
    I ask unanimous consent that my full statement be submitted 
to the record.
    We look forward to the testimony this morning on access to 
U.S. wildlife refuges. We are here to understand those of you 
who feel that access is not readily accessible. We are here to 
understand what activities you feel are compatible with 
wildlife in those refuges. We are also here to try to 
understand the role of Fish and Wildlife in adhering to and 
implementing the statutes that we pass here in Congress. We 
want to blend all this information, to understand and know how 
much money needs to be appropriated to accommodate all of these 
activities.
    I had a fascinating discussion last night with a Mike 
Johnson on Sand Island at Midway. I had a discussion with one 
of the Chugach employees who is a contractor on Sand Island. I 
had to say they were a little surprised, and wondered whether 
it was a crank call.
    [Laughter.]
    Mr. Gilchrest. I also talked to a Barbara Maxwell and a 
Jerry Leneky, in Honolulu, to have some understanding of what 
is going on in Midway, the access that people have. There are 
cruises, I understand, that go to Midway from Honolulu. There 
is one that will dock there June the 1st, mostly World War II 
veterans, to take tours of the battle area; to take tours of 
Sand Island and Eastern Island; to look at the some 700,000 to 
1 million albatross there and other wildlife.
    So what we are going to try to do here this morning is to 
ensure that the refuges, whether they are in New York or the 
Caribbean or Midway or some other place in the United States, 
are protected, restored to bring back the prodigious bounty of 
nature that once abounded there; and to do as much as we can 
for the taxpayer, for individuals--whether you are flying an 
airplane, or whether you want to visit a national historic site 
because you visited that site when you were 50 or 60 years 
younger than you are today--and have access to that, because it 
is your tax dollars that have created and maintained and 
sustained all of these refuges.
    So we are going to look into this deeply. This will be our 
first hearing, but we will continue to pursue information so 
that whatever is appropriate, we have the appropriate amount of 
information to facilitate those activities.
    And I want to thank all of the witnesses for coming this 
morning. We look forward to your testimony. I will yield now to 
the gentleman from New Jersey, Mr. Pallone.
    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
                  Subcommittee on Fisheries and Oceans

    Good morning, Today, the Subcommittee will conduct an oversight 
hearing on public access within the unique network of Federal lands 
known as the National Wildlife Refuge System.
    It is now 102 years since President Theodore Roosevelt established 
the first wildlife refuge at Pelican Island, Florida. Since that time, 
the Refuge System has grown to 545 units that comprise 97 million acres 
of land and are located in every state and U.S. Territory.
    Eight years ago, Congress enacted an historic organic act for the 
Refuge System. One of the fundamental features of that law was the 
establishment of six priority, but not exclusive, wildlife-dependent 
recreational uses.
    By all reports, the Refuge System is widely popular with the 
American people. In fact, more than 39 million people visited one or 
more refuges last year.
    Nevertheless, over the past five years, this Subcommittee has heard 
from a number of taxpayers who have been denied the opportunity to 
visit or engage in a recreational activity that is not one of the six 
priority uses.
    The purpose of today's hearing is twofold. First, we want to get a 
better idea why 88 National Wildlife Refuge units, which represent 16 
percent of the System's total, are entirely closed to the public. In my 
own district, the rapidly disappearing Susquehanna River National 
Wildlife Refuge is off limits to visitors. And, secondly, why have 
certain recreational activities been banned from units within the 
System?
    From my perspective, the most troubling closure is at the Midway 
Atoll National Wildlife Refuge. Later this year, we will celebrate the 
60th anniversary of the end of the Second World War in the Pacific. 
There was no battle more important in that conflict than the Battle of 
Midway. It was clearly the turning point of the war, and the last time 
the Japanese were able to mount an offensive operation. In fact, in 
testimony before this Committee in 1998, Admiral Thomas Moorer referred 
to Midway as our battle of Trafalgar.
    Yet, since January 2002, the visitors program at Midway Atoll has 
been closed and it is now virtually impossible for World War II 
veterans, naval historians and wildlife enthusiasts to visit the 
island. There have been many questions raised about the Fish and 
Wildlife Service's enthusiasm for visitors on Midway. I am looking 
forward to being assured by the Service that once the airport 
management issue has been resolved, every effort will be made to resume 
the visitors program. This is the least we can do for those who 
sacrificed so much for this great country.
    I now recognize the Ranking Democratic Member, the Gentleman from 
New Jersey, Congressman Frank Pallone.
                                 ______
                                 

   STATEMENT OF THE HON. FRANK PALLONE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. And I want to say 
good morning to our witnesses assembled here. I am eager to 
begin this hearing, so that my comments, hopefully, will be 
brief.
    Not long ago, the National Wildlife Refuge System, our only 
system of Federal lands dedicated exclusively for fish and 
wildlife conservation, was commonly referred to as a hidden 
jewel. But after reading through the background material and 
testimony for today's hearing, I am afraid that this system may 
be a victim of its own success.
    Today, the refuge system faces public demand for expanded 
opportunities to observe and enjoy the fish and wildlife 
resources. This demand is perhaps best expressed by annual 
public visitation that is close to 40 million visitors. And 
while we should celebrate that our refuges are no longer 
anonymous, increased public interest brings with it new 
challenges and new conflicts.
    To a certain extent, Congress anticipated this paradox 
when, in 1997, it passed the National Wildlife Refuge 
Improvement Act and established a clear ``wildlife first'' 
mission for the refuge system. The Congress also specified that 
wildlife-dependent recreational activities were to be the 
priority, but not exclusive, public uses allowed within the 
system.
    It is also clear, however, that Congress intended the 
refuge system to remain accessible for other types of outdoor 
recreation, as required under the Refuge Recreation Act. 
Otherwise, Congress would have repealed the requirements of 
that Act.
    Now, today we will hear described circumstances of three 
unrelated situations at separate refuges. At each of these, 
different proposals for non-wildlife-dependent recreation 
activities were denied permits or access by the Fish and 
Wildlife Service. These situations all raise legitimate policy 
questions about access to remote areas, compatible use, health 
and safety concerns, and management constraints caused by 
shrinking operating budgets.
    And we need to examine these circumstances carefully. While 
we want our refuges to be open and accessible for recreational 
use, these places must remain as safe havens for our Nation's 
fish, birds, and other wildlife. The ``wildlife first'' mission 
must remain the bedrock foundation to guide refuge management 
now and in the future.
    And in closing, just let me say that I am sympathetic to 
the dilemma confronting refuge managers. Many managers do their 
best to provide opportunities for public access. And if the 
Congress can clarify policy to make their jobs easier, we 
should consider doing so.
    So thank you again, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

  Statement of The Honorable Frank Pallone, Jr., a Representative in 
                 Congress from the State of New Jersey

    Thank you Mr. Chairman. Good morning to you and good morning to our 
witnesses assembled here today. I am eager to begin this hearing so my 
comments will be brief.
    Not too long ago the National Wildlife Refuge System B our only 
system of Federal lands dedicated exclusively for fish and wildlife 
conservation B was commonly referred to as a ``hidden jewel.'' But 
after reading through the background memo and testimony for today's 
hearing, I am afraid that the System may be a victim of its own 
success.
    Today the Refuge System faces public demand for expanded 
opportunities to observe and enjoy fish and wildlife resources. This 
demand is perhaps best expressed by annual public visitation that is 
close to 40 million visitors. And while we should celebrate that our 
refuges are no longer anonymous, increased public interest brings with 
it new challenges and new conflicts.
    To a certain extent Congress anticipated this paradox when in 1997 
it passed the National Wildlife Refuge Improvement Act and established 
a clear ``Wildlife First'' mission for the Refuge System. The Congress 
also specified that wildlife-dependent recreational activities were to 
be the priority B but not exclusive B public uses allowed within the 
System.
    It is also clear, however, that Congress intended the Refuge System 
to remain accessible for other types of outdoor recreation as required 
under the Refuge Recreation Act. Otherwise, Congress would have 
repealed the requirements of that Act.
    Today, we will hear described circumstances of three unrelated 
situations at separate refuges. At each refuge, different proposals for 
non-wildlife dependent recreation activities were denied permits or 
access by the Fish and Wildlife Service. These situations all raise 
legitimate policy questions about access to remote areas, compatible 
use, health and safety concerns, and management constraints caused by 
shrinking operating budgets.
    We need to examine these circumstances carefully. While we want our 
refuges to be open and accessible for recreational use, these places 
must remain as safe havens for our nation's fish, birds, and other 
wildlife. The wildlife first mission must remain the bedrock foundation 
to guide refuge management now and in the future.
    In closing, allow me to say that I am sympathetic to the dilemma 
confronting refuge managers. Many managers do their best to provide 
opportunities for public access, and if the Congress can clarify policy 
to make their jobs easier, we should consider doing so. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Pallone.
    And I ask unanimous consent that the gentleman from 
Tennessee, Mr. Duncan, can sit on the dais. And I will yield to 
Mr. Duncan. Any opening statement?

STATEMENT OF THE HON. JOHN J. DUNCAN, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Duncan. Well, thank you very much, Mr. Chairman. I do 
appreciate your letting me be here briefly today. I have a 
markup in another committee and I have to leave shortly, but I 
mainly wanted to come here today to commend Dr. Jim D'Angelo, 
the President of the International Midway Memorial Foundation, 
who has worked on this issue for many, many years. I don't 
think there is anyone in this country who knows more about the 
history, the significance, the importance of Midway, and the 
strong feeling that many World War II veterans and others have 
about this particular part of our world.
    My office, particularly my Deputy Chief of Staff, Don 
Walker, has worked with Dr. D'Angelo for many years. And we 
introduced legislation to designate the Midway Atoll as a 
national memorial over ten years ago. We worked for several 
years with Senator Jesse Helms of North Carolina, who was also 
very interested in this legislation.
    In 2000, both the House and Senate included language in the 
Interior Appropriations Bill which designated Midway as a 
national memorial. It took several years to do this and to come 
up with this designation, because the Fish and Wildlife Service 
apparently did not want to accommodate the additional visitors 
that they felt they would have to deal with if that legislation 
went through. There were some in the Fish and Wildlife Service 
who apparently wanted to keep Midway as some sort of private 
preserve for them and their employees.
    In 2002, Midway Phoenix, which provided commercial air 
service to the island, left, due to what they felt were 
ridiculous environmental demands made by the Fish and Wildlife 
Service. Since that time, there has not been regular commercial 
air service to the island.
    In March of 2002, the Washington Times ran a story with a 
headline that said, ``Historic Midway Shuts Down: Fish and 
Wildlife Discourages Visits to World War II Site.'' Later that 
year, the Times reported, ``The government refused to allow the 
International Midway Memorial Foundation permission to erect a 
flagpole because it was considered a strike hazard for birds.'' 
Placement of a memorial was also denied. Really, very 
ridiculous rulings, in my opinion.
    In February 2003, the contractor hired to manage the fuel 
facilities at the island allowed 100,000 gallons of fuel to 
spill. But then, unbelievably, the Fish and Wildlife Service 
hired the same contractor to clean up its own spill; paying out 
an exorbitant amount of money to have that done, especially 
considering that it was paid to the company that did the spill.
    Today, if you go to the Fish and Wildlife's website, there 
is a statement which says, ``The Service is involved in the 
consideration of legislation that would designate all or part 
of the refuge as a national memorial to the Battle of Midway,'' 
as if they supported this all along, instead of opposing it.
    If you go to another section of their website on Midway, 
there is a detailed chronology of events dating back to 1859. 
It is detailed enough to state that on June 30, 1997, the last 
Navy personnel departed the island. However, this detailed 
chronology of events fails to mention that Congress passed 
legislation designating the island as a national memorial in 
2000. This looks to me like they still have problems accepting 
the designation of the island as a national memorial.
    Beyond all this, the island services and emergency landing 
strip for both commercial aviation and for our armed services. 
So it is very important that we keep this air strip open.
    I am looking forward to the hearing today. And I hope that 
the Fish and Wildlife Service has a plan to keep this national 
memorial open and accessible to the public. And I hope the 
Subcommittee will pay great attention to the testimony of Dr. 
D'Angelo, who has really made his life's mission to work on 
this particular issue. And I thank you very much for letting me 
give this statement.
    [The prepared statement of Mr. Duncan follows:]

Statement of The Honorable John J. Duncan, a Representative in Congress 
                      from the State of Tennessee

    We have worked with Dr. Jim D'Angelo, the President of the 
International Midway Memorial Foundation, on this issue for many years.
    In 1994 or 1995, my office was originally approached about 
introducing legislation to designate the Midway Atoll as a National 
Memorial.
    We worked with Senator Helms for a number of years on this bill.
    In 2000, language was included in the Interior Appropriations bill 
which designated Midway as a National Memorial.
    It took approximately 5 or 6 years to designate one of, if not the 
most important, battlefields as a national memorial because the Fish 
and Wildlife Service did not want to accommodate the additional 
visitors that they might have to deal with.
    In 2002, Midway-Phoenix, which provided commercial air service to 
the Island, left due to ridiculous environmental demands made by the 
Fish and Wildlife Service. Since that time there has not been regular 
commercial air service to the Island.
    In March of 2002, the Washington Times ran a story with the 
headline: ``Historic Midway shuts down--Fish and Wildlife discourages 
visits to WW II site.''
    Later that year, the Washington Times reported:
        ``The government refused to allow the International Midway 
        Memorial Foundation permission to erect a flagpole because it 
        was considered a strike hazard for birds. Placement of a 
        memorial was also denied.''
    In February 2003, the contractor hired to manage the fuel 
facilities at the Island allowed 100,000 gallons of fuel to spill. We 
were then told by the Fish and Wildlife Service in a meeting that they 
paid that same contractor to clean up its own spill.
    Today, if you go to the Fish and Wildlife's Website, there is part 
of it which states:
        ``Legislation: The Service is involved in the consideration of 
        legislation that would designate all or part of the refuge as a 
        national memorial to the Battle of Midway.''
    If you go to another section of their website on Midway there is a 
detailed chronology of events dating back to 1859. It is so detailed it 
states that on June 30, 1997 the last Navy personnel departed the 
Island.
    However, this detailed chronology of events fails to mention that 
Congress passed legislation designating the Island as a National 
Memorial in 2000.
    This looks to me like they still have problems accepting the 
designation of the Island as a National Memorial.
    Beyond all this, the Island serves as an emergency landing strip 
both for commercial aviation and for our Armed Services. So it is very 
important that we keep this airstrip open.
    I am looking forward to this hearing today, and I hope that the 
Fish and Wildlife service has a plan to keep this National Memorial 
open and accessible to the public.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Duncan. That is why we are 
holding this hearing, because there is a mix of different 
pieces of information. There is misinformation, from my 
perspective, on what is going on in Midway. And we will try to 
get through that today.
    I do know, Jimmy, that there is a cruise ship that goes 
from Honolulu. And the one docking near Midway is ``Pacific 
Princess,'' with 600 people which will be offloaded and have a 
tour of the Midway battlefield, and also have a tour of both 
islands on the atoll.
    The gentlelady from Virginia.
    Mrs. Drake. I have no statement, Mr. Chairman.
    Mr. Gilchrest. Mr. Kind, any opening statement?
    Mr. Kind. I will just be brief.

 STATEMENT OF THE HON. RON KIND, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Kind. Thank you again, Mr. Chairman, for holding this 
very important, and very timely hearing, I might add. We are 
blessed in Wisconsin to have five of the national wildlife 
refuges located in our state, two in my congressional district. 
And right now, we are all going through the Comprehensive 
Conservation Plan process for these refuges. And they have just 
embarked on the public hearing and public comment period back 
home; having numerous public meetings, getting feedback from my 
constituents and those interested in the refuge, and especially 
the access issues in those refuges.
    And right now, given a couple of the proposals that are out 
there, there is some controversy surrounding the CCP in their 
original version. But we are hoping that over the 120-day 
period, with the comment from the people, that we will, 
hopefully, end up with a good result. Because the key to any of 
these comprehensive conservation plans will be community buy-in 
and community acceptance, in order for it to ultimately work.
    So I think it is a very timely hearing, very important. I 
thank all the witnesses for coming and look forward to your 
testimony, and yield back. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kind follows:]

Statement of The Honorable Ron Kind, a Representative in Congress from 
                         the State of Wisconsin

    Mr. Chairman, I want to thank you for holding this hearing today so 
this Subcommittee can explore the questions on why certain refuges are 
closed to the public and why certain activities are not permitted 
within our National Wildlife Refuge.
    Public access to our refuge system is of particular importance to 
me. Since the first refuge was established in my home state in 1912, 
the Wisconsin refuges have become an integral part of life for our 
citizens. Our five wildlife refuges and two wetlands management 
districts attract millions of visitors each year. They provide critical 
habitat for our state's world-renowned wildlife resources as well as 
opportunities for recreation and ground-breaking research.
    In addition to the Necedah Wildlife Refuge, my district is also 
home to the Upper Mississippi River National Wildlife and Fish Refuge, 
whose 240,000 acres extend 261 miles southwards from Wabasha, Minnesota 
to just north of Rock Island, Illinois.
    The Upper Mississippi Refuge lies at the heart of an area that 
serves as a major migratory flyway for 40% of North America's 
waterfowl. It provides habitat for some 292 species of birds, 57 
species of mammals, 37 species of amphibians and reptiles, and 118 
species of fish. Moreover, it is the most popular of all our National 
Wildlife Refuges, attracting roughly 3.7 million visitors a year--more, 
I am proud to note, than Yellowstone National Park. The Refuge provides 
important social, cultural, and economic benefits to the people of our 
region. Without question, the Upper Mississippi River Refuge is truly a 
beautiful Refuge to visit and I commend my colleagues on this panel to 
read the Sunday, May 22, 2005 Washington Post article entitled, Lolling 
on the River: Following the Upper Mississippi by Land, which paints a 
wonderful portrait of its beauty.
    This hearing, and the question of the appropriate level of public 
access in refuges, is particularly timely in that my constituents are 
currently weighing in on a draft Comprehensive Conservation Plan for 
the Upper Mississippi River Refuge.
    As members of this Subcommittee know, the CCP is meant to establish 
new planning requirements for each refuge and clarify the standards and 
process used to regulate recreational and commercial uses. It requires 
that the ``biological integrity, diversity and environmental health of 
the system is maintained for the benefit of present and future 
generations of Americans.''
    The U.S. Fish and Wildlife Service has begun a series of 16 public 
meetings on the draft CCP designed to help people understand what is in 
the plan and weigh in on a preferred alternative. While it is early in 
the process, one alternative currently identified as the Service's 
preferred plan for the Upper Mississippi Refuge, does seek to limit 
some public access and use, as a means to protect wildlife populations 
and habitat.
    For example, the preferred alternative would add six new no-hunting 
zones, bringing the total to 13. The number of areas closed to 
waterfowl hunting would go from 15 to 21; and overnight camping and 
mooring of boats would be limited to islands and shorelines bordering 
the Mississippi's main channel.
    The proposed CCP, especially the preferred alternative that would 
reduce some of these traditional and cherished activities in the Upper 
Mississippi River Refuge, has created a strong turnout by the public 
offering their feedback.
    While developing the final CCP rule, every effort must be made to 
maintain public access, while balancing the future viability of 
wildlife and their habitat. As a sportsmen and avid user, I am a strong 
proponent of the landmark National Wildlife Refuge Improvement Act of 
1997. As this Subcommittee knows, the Improvement Act reinforced the 
importance of wildlife-dependent recreation in our Refuge system to 
include hunting, fishing, wildlife observation and photography, and 
environmental education and interpretation.
    These have been commonly referred to as the ``Big Six'' uses of our 
refuges. This law further stated that these uses are to be given 
priority consideration over other uses under new requirements for 
comprehensive planning and determinations of compatibility. In 
addition, this Subcommittee has heard complaints where individuals have 
been denied the opportunity to undertake a certain activity in a Refuge 
that is allowed on similar federal lands without any apparent adverse 
impacts on existing wildlife resources. So, while we must act to ensure 
the future viability of healthy populations of wildlife and their 
habitat, we must be careful to balance those actions with unwarranted 
restriction on the public's use.
    Mr. Chairman and Ranking Member Pallone, I appreciate the 
opportunity to hear from our distinguished panel of witnesses today. I 
look forward to hearing their thoughts on these important issues.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Kind.
    Ms. Barbara Maxwell and Mr. Jerry Leneky, who are listening 
to the hearing from Honolulu--it is about quarter after 5:00 in 
the morning there--they said they would be up listening, with 
doughnuts and coffee. We would like to accommodate everybody in 
the room with doughnuts and coffee, but we didn't buy any this 
morning.
    But thank you all for coming. We look forward to your 
testimony. The first two witnesses are Dr. William Dudley, 
Immediate Past Director of Naval History, U.S. Department of 
the Navy. Welcome, sir. And Dr. James M. D'Angelo, President 
and Chairman, International Midway Memorial Foundation.
    Dr. Dudley, you may begin, sir.
    Dr. Dudley. Thank you, Mr. Chairman, for this opportunity 
to testify on behalf of the----
    Mr. Gilchrest. I apologize, but if we could just have a 
very short interruption, I understand in the anteroom there is 
a red-tailed hawk that would like to see the witnesses.
    Mr. Kind. Mr. Chairman, if I may, I was just with--is it 
``Keisha''?--``Keisha,'' just a moment ago. And this is Linda 
Moore from the National Zoo. And ``Keisha'' is 14 years old. It 
had a broken wing, and it was taken in; and doing remarkably 
well right now. It hasn't had its breakfast yet, Mr. Chairman--
--
    Mr. Gilchrest. Oh!
    [Laughter.]
    Mr. Kind. So you may want to keep a close eye on it.
    Mr. Gilchrest. So that's why we don't have doughnuts.
    Mr. Kind. What a beautiful bird; isn't it?
    Mr. Gilchrest. Yes. Magnificent. Do you want to tell us 
anything else about your red-tailed hawk?
    Ms. Moore. Well, coffee and doughnuts definitely is not her 
idea of a meal.
    Mr. Gilchrest. Coffee and doughnuts, not her idea. I guess, 
rodents.
    Ms. Moore. Right. But this particular bird is a bird that 
was injured in the wild. Red-tailed hawks as a species are 
doing very well across the country. But unfortunately, there 
are other species that aren't quite as adaptable and that need 
some help. So refuges certainly are an important part of giving 
those animals habitat.
    Mr. Gilchrest. Are they in competition with eagles or 
osprey for territory?
    Ms. Moore. The red-tails really aren't. They are a 
completely different type of bird. During a lot of time, 
spending time out doing banding and things like that, I see 
eagles and red-tailed hawks flying around together quite a bit.
    Mr. Gilchrest. Wow.
    Ms. Moore. And it's obviously like a play type of thing.
    Mr. Gilchrest. Yes.
    Ms. Moore. But red-tails are a little more maneuverable 
than those big eagles, so they can get away faster.
    Mr. Gilchrest. Are the red-tails in any danger? I know they 
are not endangered or anything, but do, let's say, turkey 
buzzards or black vultures eat their eggs or the young chicks? 
Is there any problem with that?
    Ms. Moore. Not usually. Red-tails are pretty protective 
around their nests. This particular female is a good sized red-
tail, and you can see she is pretty formidable in size.
    Mr. Gilchrest. Yes.
    Ms. Moore. She has got nice, big feet. And so, not too many 
things are going to actually try to mess around with her at the 
nest.
    Mr. Gilchrest. Great.
    Ms. Moore. She can be very territorial about her area.
    Mr. Gilchrest. Any other questions from anybody while we 
are here, about red-tailed hawks?
    [Laughter.]
    Mr. Gilchrest. Well, thank you very, very much for coming 
in.
    Ms. Moore. Thank you. Thank you for having me.
    Mr. Gilchrest. Tell Steve we said ``Hi.''
    Ms. Moore. OK.
    Mr. Gilchrest. Wow. I think now we can take the rest of the 
day off.
    [Laughter.]
    Mr. Gilchrest. OK. Dr. Dudley, thank you so much, sir, for 
your patience. You may begin, sir.

  STATEMENT OF WILLIAM S. DUDLEY, IMMEDIATE PAST DIRECTOR OF 
           NAVAL HISTORY, U.S. DEPARTMENT OF THE NAVY

    Dr. Dudley. Mr. Chairman, thank you very much for the 
opportunity to give testimony on behalf of the International 
Midway Memorial Foundation.
    Within approximately two years, the United States will 
commemorate the 65th anniversary of the Battle of Midway. This 
was a crucial battle for the U.S. Navy. It was a showdown 
between the triumphant aggressor, the Japanese Imperial Navy, 
and the U.S. Pacific Fleet. If Japan won this battle, the 
United States could lose its control of the Hawaiian Islands, 
probably the Aleutians, and the fleet would have to retreat to 
the West Coast. The Panama Canal would be threatened, and so 
would our western-most sates.
    But there was even more at stake. If the United States were 
unable to gain this victory over Japan in the Pacific, what 
would happen in Europe? The Battle of Midway, as events were to 
prove, would become the linchpin for Allied victory over the 
Axis in World War II.
    Less than four months after attacking Pearl Harbor, Admiral 
Yamamoto, commander in chief of the combined fleet, decided to 
lure the American fleet into battle in the Central Pacific, and 
destroy it. The Japanese admiral planned to attack the 
strategically located Midway Atoll by air, and seize it with 
amphibious forces; thereby inducing a counter-move by Admiral 
Nimitz's U.S. Pacific fleet. Yamamoto was convinced that he 
could destroy the fighting power of the U.S. Navy in the 
Pacific, attack the Hawaiian Islands again, and then resume the 
South Pacific offensive.
    On Midway Atoll, our thin defenses included the U.S. 
Marines' Sixth Defense Battalion, a Marine air group of 22 
long-range patrol planes. In addition, there were six Navy 
torpedo planes, 11 PT boats, four torpedo-equipped B-26s, and 
15 B-17s. For shore defense, the atoll had five tanks, eight 
mortars, 14 surface guns, 32 anti-aircraft guns, and 3,632 
defenders.
    A key factor here was the Japanese commander was obsessed 
with the need to destroy Midway's defenses before taking on the 
United States fleet.
    Thanks to American intelligence gathering, our weaker 
forces gave a splendid account of themselves. We ambushed the 
Japanese striking force at sea. Attackers from Midway kept the 
Japanese ships constantly maneuvering to avoid hits. The 
torpedo planes sacrificed themselves in head-on attacks. And 
our carrier-based dive-bombers sank all four of the Japanese 
carriers.
    This so disheartened Admiral Yamamoto that he called off 
the invasion and headed for home. By the end of the battle, 
Japan suffered, in addition, one cruiser sunk, 325 aircraft 
destroyed, and 2,500 men killed or missing.
    American losses included one carrier, one destroyer, 163 
aircraft, 307 men killed or missing. From this point on, 
American forces went on the offensive.
    How do we, as Americans, commemorate such a victory? It is 
for this reason that I appear before you, to ask your 
consideration of the reopening of Midway Atoll to public 
visitation. Citizens of the United States should be welcome to 
visit the ground where fellow American sailors and Marines gave 
their lives for their country.
    Congress has declared the atoll to be a U.S. national 
memorial to the Battle of Midway. But the air strip is now all 
but closed, and facing ruin. The historic buildings have been 
allowed to decay, and may have been removed.
    Under the Fish and Wildlife Service, almost all traces of 
our once-proud presence have been eliminated. I say ``almost,'' 
because there is still, I hope, a remnant of the work 
contributed by the International Midway Memorial Foundation 
remaining on Midway, dating from 1995. It is a granite monument 
dedicated to the personnel of all services who served in the 
Battle of Midway. Its engravings and names record the great 
military victory that was won there.
    But what is a monument without visitors? And where is the 
historical interpretation of the once-efficient airfield that 
launched planes to attack the imperial fleet? Where are the 
wayside markers to indicate where the dugouts, gun 
emplacements, and communications buildings once stood? There is 
little left of historic value. But this is not the way it 
should be.
    And I would urge this committee to think of how it could be 
handled differently, by another agency, committed to both 
wildlife conservation and preservation of a noble historic 
tradition.
    The Navy Department commemorates nationally only two events 
each year. One is the Navy's birthday, October 13th, 1775. The 
other is the Battle of Midway, June 4th, 1942. In a speech 
given two years ago, former Secretary of Defense James 
Schlesinger provided the most eloquent reason for why we should 
commemorate the Battle of Midway: ``Midway was far more than a 
decisive naval victory. It was far more than the turning of the 
tide in the Pacific war. In a strategic sense, Midway 
represents one of the great turning points of world history.''
    I leave you with this thought. If this event can be 
considered so important, Americans should be able to recognize 
and to commemorate it at the Battle of Midway National Memorial 
on Midway Atoll.
    Thank you for your kind attention and consideration.
    [The prepared statement of Dr. Dudley follows:]

   Statement of William S. Dudley, Immediate Past Director of Naval 
 History, U.S. Department of the Navy, representing the International 
                       Midway Memorial Foundation

              the battle of midway: a global turning point
    Within approximately two years, the United States will commemorate 
the 65th anniversary of the Battle of Midway. This was a crucial battle 
for the U.S. Navy; it was a showdown between the triumphant aggressor, 
the Japanese Imperial Navy and the U.S. Pacific Fleet. This struggle 
would determine the course of World War II. If Japan won this battle 
and followed up its victory, the U.S. could lose its control of the 
Hawaiian Islands, probably the Aleutians, and the fleet would have to 
retreat to the West Coast. Not only that. The Panama Canal would be 
threatened and so would our westernmost states. But, there was even 
more at stake. If the United States were unable to gain this victory 
over Japan in the Pacific, what would happen in Europe? The Battle of 
Midway, as events were to prove, would become the lynchpin for Allied 
victory over the Axis in World War II.
    Two days after Japan attacked Pearl Harbor, Nazi Germany declared 
war on the United States. German armies had already over-run the 
Poland, France, Belgium, and Holland. The British expeditionary army 
might have been exterminated had not their evacuation from Dunkirk 
enabled it to fight another day. During the Battle of Britain, the 
Royal Air Force had beaten back the savage German air attacks that were 
a premonition of invasion. In those dark days, the Anglo-American 
alliance was just gathering steam. President Roosevelt, his 
congressional allies, and the Joint Chiefs of Staff had created a 
``Europe First'' strategy that would deal with German military threat 
across the Atlantic while defensively holding Japan at bay. Thus, the 
onset of the Battle of Midway raised a global crisis.
    The Pearl Harbor attack of 7 December 1941 awakened the United 
States not only to the ruthlessness of the Japanese Empire but also to 
the importance of carrier aviation in mid-20th century warfare. The 
capital ship of World War II was to be the aircraft carrier, not the 
battleship. A less heralded weapon was the American submarine, which 
would also change the nature of warfare in the Pacific. Operating 
independently for the most part, these dark, silent vessels would 
eventually cut off Japan from its sources of supply.
    The naval strategy pursued by Admirals Ernest King, Chief of Naval 
Operations and COMINCH (Commander in Chief, U.S. Fleet), and Chester W. 
Nimitz, Commander in Chief Pacific Fleet, after Pearl Harbor was to 
shove the Japanese off balance. At the same time, American naval 
leaders worked to strengthen their forces on the line of communications 
between the West Coast and Hawaii-Midway and that between California 
and Australia via the island groups of the South Pacific. Japan had 
fortified bases reaching into the Caroline, Marshall, and Gilbert 
Islands, but not yet so far as the Solomons.
    To protect U.S.-Australia line of communication, Nimitz established 
a carrier covering and raiding strategy. By January Rear Admiral Frank 
Jack Fletcher's Task Force 17, centered on the carrier Yorktown, sailed 
into the southwest Pacific, escorting transports carrying troops 
ordered to American Samoa. On 1 February carrier units raided the 
islands of Wotje, Roi-Namur, and Kwajalein. Soon afterward, other task 
forces launched raids against Lae and Salamaua, on the northern New 
Guinea coast. This was a rude intrusion into the area that the Japanese 
thought they controlled. Meanwhile, Rear Admiral William F. Halsey's 
carrier group hit Wake and Marcus Islands, both located about 1,000 
miles from Japan. This hit and run strategy reached its climax with the 
dramatic and innovative Halsey-Doolittle raid.
    In late March, sixteen B-25s were lifted on the flight deck of the 
carrier Hornet in San Francisco. Departing in complete secrecy, this 
unit rendezvoused with Halsey's battle group in the North Pacific. On 
18 April, Halsey launched Doolittle's bombers launched Doolittle's 
bombers, when Japanese vessels reported sighting the task force. While 
the raid on Tokyo did little damage, it did cause embarrassment to the 
Japanese high command, diverted Japanese defense forces into search 
activity, and boosted American morale at a critical time. It also 
hardened the Japanese decision to strike at Midway Atoll.
    Meanwhile, Admiral King's cryptographers learned by deciphering the 
Japanese naval code that the enemy was planning a major fleet 
penetration of the Coral Sea and an attack on New Guinea's Port 
Moresby. These forces would pose a grave threat to American bases at 
Samoa and New Caledonia and the U.S. Australia line of communication. 
U.S. intelligence also learned that the Japanese planned to establish 
airfields at Tulagi in the Solomons. In response, Admiral Fletcher led 
the Yorktown and Lexington carrier groups into the Coral Sea in search 
of the enemy. On the morning of 7 May, the American and Japanese sent 
their air units out. Each side made contact with and sank or damaged a 
few ships. The following day, however, the Japanese put two bombs and 
two torpedoes into Lexington, mortally wounding her, while hitting 
Yorktown with one bomb. The U.S. lost 43 planes and the Japanese, 77, 
in the Battle of the Coral Sea.
    As a result, the Japanese did not press their naval advance toward 
Australia. Even before the Coral Sea fight, Admiral Isoroku Yamamoto, 
Commander in Chief of the Combined Fleet, decided to lure Nimitz's 
fleet into battle in the Central Pacific and destroy it. This was to be 
a major fleet battle in the Mahanian sense. The Japanese admiral 
planned to attack Midway Atoll by air and seize it with amphibious 
forces, thereby inducing a counter-move by Nimitz in force. 
Simultaneously, other Japanese units attempted to divert American 
attention by thrusting toward the Aleutian Islands in the North 
Pacific. Thinking that Yorktown as well as Lexington had been sunk in 
the Coral Sea battle, Yamamoto was convinced that he could destroy the 
fighting power of the U.S. Navy in the Pacific, attack the Hawaiian 
Islands again, and then resume the South Pacific offensive that 
Fletcher had so rudely interrupted.
    The U.S. fleet was outnumbered before Midway, but American 
intelligence and the element of surprise evened the odds. Initially, 
however, Nimitz's and King's cryptographers differed in their analysis 
of Japanese moves. King's analysts thought the enemy planned to attack 
south toward the American-Australian sea line of communications while 
Nimitz's staff believed the Japanese intended to strike at Midway. 
Fortunately for the Pacific Fleet, the latter interpretation held sway. 
Anticipating when and where the Japanese fleet would arrive off Midway, 
and in what strength, Nimitz sent three carriers under the overall 
command of Admiral Fletcher to intercept. To command the Enterprise 
task group, the hospitalized Halsey recommended Rear Admiral Raymond 
Spruance, a ``black shoe'' sailor who had never served on board a 
carrier but whose other qualities recommended him highly.
    Yamamoto's fleet was truly formidable. It consisted of Vice Admiral 
Nagumo's carrier striking force with four carriers, and 350 miles 
behind, the Main Force centered on the battleship Yamato, five smaller 
battleships, ten cruisers, twenty destroyers and two light carriers for 
air defense. The Midway Occupation Force, made up of troop transports 
(containing some 4,600 infantry), steamed in parallel hundreds of miles 
south of the Main Body. To meet the Japanese, the American fleet was 
comprised of two task forces, Task Force 16, under Rear Admiral 
Spruance, including the carriers Enterprise and Hornet, screened by six 
cruisers and eight destroyers, and accompanied by two oilers and their 
two destroyer escorts. When Task Force 17, commanded by Fletcher in 
Yorktown, sortied it had a screen of but two cruisers and five 
destroyers. Fletcher, the senior and more battle-tested admiral, was in 
overall command. The imbalance of these combatants was significant: 
Japan had 86 surface fighting ships as compared with the American 
force's 28, and as for aircraft, the Japanese carriers had 325 planes 
as against the American carriers' 233. If one adds the Midway-based 
aircraft, the American total swells to 348.
    On Midway Atoll, our thin defenses included the Marine 6th Defense 
Battalion and a Marine Air Group, armed with seven Grumman F4Fs, 16 
obsolete Brewster Buffaloes, and 18 SBD bombers. For reconnaissance, 
Midway had 22 PBY long-range patrol planes. In addition, there were six 
Navy torpedo planes that had arrived too late at Pearl Harbor to depart 
with USS Hornet. Eleven PT boats were ready in case the Japanese 
invasion force came in close, and the Army Air Forces contributed four 
torpedo-equipped B-26s and fifteen B-17s. For shore defense, the atoll 
had five tanks, eight mortars, 14 surface guns, 32 anti-aircraft guns, 
and 3,632 defenders. The Midway communications station was equipped 
with underwater cable for secure message contact with headquarters at 
Pearl Harbor.
    After Navy cryptographers at Pearl Harbor had identified Midway as 
the Japanese target and the intended attack date as 4 June, Nimitz's 
planners prepared an ambush for Nagumo's carriers. The admiral paid a 
visit to Midway on 2 May; he inspected the entire area, and interviewed 
the Navy and Marine Corps commanders. During the next month he poured 
reinforcements into Midway Atoll. It paid off. Between 0530 and 0545 on 
4 June, Navy patrol planes reported contact with Admiral Nagumo's 
carriers. As Japanese planes headed for Midway, Army, Marine Corps, and 
Navy planes operating from Midway Atoll took off to strike at Nagumo's 
carrier task force. While these attacks did not hurt the enemy, they 
upset the timing of Nagumo's attack and caused him to order an 
additional bombing strike against Midway. For the Japanese, it was the 
land-based striking power of the forces on Midway that gave them pause. 
Admiral Nagumo was obsessed with the need to obliterate the airfield on 
Eastern Island and other defenses before the invasion of the atoll 
could take place. He was initially unaware that the U.S. Pacific Fleet 
carriers were within striking distance.
    Enterprise and Hornet launched their aircraft, followed about an 
hour later by Yorktown's. The torpedo planes from Hornet, Enterprise, 
and Yorktown, flying low and under constant attack from ships and 
planes, failed to hit any carriers while taking heavy losses. Their 
attack, however, had drawn enemy fighters down virtually to sea level, 
so when dive-bombers from Enterprise and Yorktown appeared over the 
Japanese carriers and they faced little opposition from Japanese air 
defense. Akagi, Kaga and Soryu soon were ablaze amid fuel and ordnance 
explosions and all three would sink within 24 hours. Planes from Hiryu, 
the last operative Japanese carrier, followed the American bombers back 
to Yorktown and severely damaged her. A Japanese submarine later sank 
her. The U.S. pilots soon found the sub and sent her to the bottom. The 
only U.S. submarine near the battle was Nautilus whose tactics and 
torpedo firings made its presence known. Despite a lack of hits, 
Nautilus's presence distracted the enemy and contributed to his 
confusion. By the end of the battle, Japanese suffered four carriers 
sunk and one heavy cruiser sunk, 325 aircraft destroyed, and 2,500 men 
killed or missing. Among these casualties, the Japanese Navy lost some 
of its best naval aviators. Japanese industry could not easily replace 
the carriers lost at Midway. American losses included one carrier, one 
destroyer, 163 aircraft, and 307 men killed or missing.
    The ``what-ifs'' of history stand out when one considers the 
alternatives: what if Nimitz's intelligence appraisals had not been 
followed; what if superb navigation had not brought the American 
bombers over the Japanese task force simultaneously? What if, despite 
having sunk the enemy carriers, Spruance had pursued westward into the 
big guns of Yamamoto's Main Force battleships? What if we had lost our 
carriers and the Japanese and had occupied Midway? Would it have put 
the Hawaiian Islands in jeopardy and forced the American defense 
perimeter back to the West coast? How would this have affected Allied 
forces in Australia and Europe? To be sure, the war would have been 
lengthened, and America's will to win would have been put to the test.
    Fortunately, a combination of intelligence, skill, bravery, and 
luck turned the tide. Although much vicious fighting remained ahead, 
the Battle of Midway marked not only the major turning point in the 
Pacific War, it was a watershed event for World War II because it freed 
the United States from shifting to a ``Pacific First'' strategy in 
order to protect the West Coast and our nearby Pacific Territories, 
Alaska and the Hawaiian Islands. This, in turn, allowed what historian 
Samuel Eliot Morison called the ``Two-Ocean War'' to go forward. The 
invasion of North Africa, the first stepping-stone for Allied landings 
on the European mainland, was soon thereafter scheduled for November 
1942.
    Had we lost the Battle of Midway, despite Anglo-American entente 
and sentimental attachment to England, the real threat to American 
life, liberty, and property would have been seen as Japanese military 
power close to our shores. Nothing less than a complete harnessing of 
national will, blood, and treasure would have been mobilized to defeat 
that threat. England would have been thrown back on the diminishing 
resources of the British Empire; plans for a Second Front would have 
been postponed, as well as our invasions of Africa, Sicily, and Italy. 
The American victory at Midway made a huge difference in the way World 
War II was fought, globally.
    It is for these reasons that I appear before you, representing the 
International Midway Memorial Foundation, to ask your consideration of 
the reopening of Midway atoll to public visitation. Citizens of the 
United States should be welcome to visit the ground where fellow 
American Sailors and Marines gave their lives for their country. I 
would also ask that you consider replacing Fish and Wildlife management 
with that of another agency. For a while in the 1990s, Midway was open 
to a limited number of visitors under the partnership of the Midway 
Phoenix Corporation and the U.S. Fish and Wildlife Service. While 
Midway Phoenix was operating the Atoll, Midway Atoll was not a great 
burden on the American taxpayers. But the Fish and Wildlife Service 
reversed itself and made life and work difficult for Midway Phoenix, 
discouraging visitors and effectively forcing Midway Phoenix out of 
business on Midway. The airstrip is now all but closed and facing ruin 
despite its strategic value for U.S. airline carriers. The historic 
buildings have been allowed to decay and many have been removed.
    Almost all traces of a once proud presence have been eliminated. I 
say almost, because, there is still, I hope, a remnant of the work 
contributed by IMMF remaining on Midway, dating from 1995. It is a 
granite monument dedicated to the personnel of all services who worked 
here during World War II. Its engravings and names record the great 
work done was done there. But what is a monument without visitors, and 
where is the historical interpretation of the once efficient airfield 
that launched flights of U.S. Army Air Force B-17s, Marine Corps 
fighters and bombers, and Navy torpedo planes and bombers? Where are 
the wayside markers to indicate where the dugouts, gun emplacements, 
and communications buildings once stood? There is almost nothing left 
of historic value, and that has been, we believe, the intention of Fish 
and Wildlife staffers since Midway Phoenix departed. This is not the 
way it should be, and I would urge this committee to think of how it 
could be handled differently by another agency, committed to both 
wildlife conservation and the preservation of a noble historic 
tradition. It could, I submit, with the right philosophy and the right 
people under the direction of the Department of Interior.
    The Navy Department today commemorates nationally only two events 
each year. One is the Navy's Birthday, October 13, 1775. The other is 
the Battle of Midway, on June 4, 1942. In a speech given two years ago, 
former Secretary of Defense James Schlesinger provided the most 
eloquent reason for why we should commemorate the Battle of Midway: 
``Midway was far more than a decisive naval victory. It was far more 
than the turning of the tide in the Pacific war. In a strategic sense, 
Midway represents one of the great turning points of world history.'' I 
leave you with this thought. If this event can be considered so 
important, Americans should be able to recognize and commemorate it at 
the Battle of Midway National Memorial on Midway Atoll. Thank you for 
your kind attention and consideration.
                                 ______
                                 
    Mr. Gilchrest. Sir, thank you very much.
    Dr. D'Angelo.

 STATEMENT OF JAMES M. D'ANGELO, M.D., PRESIDENT AND CHAIRMAN, 
            INTERNATIONAL MIDWAY MEMORIAL FOUNDATION

    Dr. D'Angelo. Thank you very much, Mr. Chairman, for this 
opportunity. I would like to introduce Jim Noon, our legal 
counsel.
    I am honored to be here today to represent the brave men 
who fought in the Battle of Midway. And I feel that we are 
again at the crossroads regarding the outcome of a new Battle 
of Midway. The questions of the debate about public access to 
Midway are these: one, whether a national memorial should be on 
an equal footing with the wildlife refuge; and two, should the 
Federal agency having jurisdiction over this memorial be 
committed to it, as it is to the wildlife refuge? I believe the 
answer----
    Mr. Gilchrest. Excuse me. I didn't get that last sentence.
    Dr. D'Angelo. Sure.
    Mr. Gilchrest. Committed to--?
    Dr. D'Angelo. And, two, should the Federal agency having 
jurisdiction over the memorial be as committed to it as it is 
to the wildlife refuge? And the word ``it'' obviously refers to 
the memorial.
    I believe the answer to both of these questions is ``Yes.'' 
Therefore, the problem of public access to the Midway memorial 
can be resolved only when jurisdiction over Midway is shifted 
to an agency with an inherent ability to equalize its treatment 
of both historic and natural resources.
    Despite attempts to show its interest in the memorial, Fish 
and Wildlife Service consistently, as would be expected, 
activated policies that put the needs of the refuge above that 
of the memorial. Concerns about the fate of Midway's historic 
sites are closely tied to the issue of public access to the 
atoll.
    In 1994, Fish and Wildlife wanted to bury the historic air 
strip on Eastern Island, to return Midway to a pristine state. 
The Service planned for the demolition of 24 Category 1 and 2 
historic structures, and opposed the designation of the 
historic air strip as a national historic landmark. The 
National Park Service's history department maintained a map of 
Eastern Island on which the air strip was crossed out and 
marked ``Do not consider for historic landmark status.''
    In 1996, President Clinton signed an Executive Order 
affirming public access for Midway. In that same year, Fish and 
Wildlife Service signed a cooperative agreement with the Midway 
Phoenix Corporation to facilitate all the operations on Midway, 
including eco-tourism, at no taxpayers' expense. Indeed, this 
corporation donated $15 million to improve the infrastructure 
of Midway. However, it became apparent that Fish and Wildlife 
Service's continuing policies were detrimental to the success 
of eco-tourism.
    Finally, when the Midway Phoenix Corporation refused to pay 
$2 million to Fish and Wildlife for fuel that the Service did 
not pay for, Fish and Wildlife claimed breach of contract, and 
the corporation was asked to leave Midway. The Midway Phoenix 
Corporation closed operations on Midway on May 1st, 2002.
    On November 17th, 1999, H.R. 3194 was passed, directing the 
Secretary of Interior to designate the Midway Atoll a national 
memorial, and to consult with the International Midway Memorial 
Foundation on a regular basis. Two years later, these meetings 
had not occurred, and the Fish and Wildlife Service resisted 
attempts by the Foundation to host a ceremony on Midway for the 
60th anniversary of the Battle of Midway.
    Since Midway Phoenix Corporation departed, there was no 
real attempt by the Service to restore eco-tourism. I presented 
to the Department of Interior a plan based on Midway Phoenix's 
records in operating Midway and in providing public access. 
This plan provided a sound fiscal basis for all of the 
operations on Midway, making it imperative that all of the 
operations be under one cooperator. Its goal was to minimize 
taxpayers' expense, while covering all of the multiple 
operations of Midway, including eco-tourism. This plan was 
rejected by the DOI.
    My conclusion that Fish and Wildlife was not really 
interested in the national memorial, nor public access, 
resulted in the Foundation's efforts to encourage legislation 
to direct the DOI to remove Fish and Wildlife's jurisdiction 
over Midway. In 2003, bills were introduced in the House and 
Senate to that end.
    In summary, it is our position that the public should have 
access to Midway, simply because it has been designated a 
national memorial. Therefore, the Fish and Wildlife Service 
should be replaced by an agency that has the capability of 
giving equal importance to the needs of the national memorial 
and the wildlife refuge. This viewpoint is the linchpin for any 
successful policy of public access.
    Thank you for affording me the opportunity to express the 
Foundation's position on the issues involving the Midway Atoll.
    [The prepared statement of Dr. D'Angelo follows:]

 Statement of James M. D'Angelo, M.D., Founder, President and Chairman 
  of the Board of Directors, International Midway Memorial Foundation

    I am honored today to represent the brave men who fought in the 
Battle of Midway. It was their courage and blood that helped turn the 
tide of World War II. Sixty-three years ago, the Japanese naval 
juggernaut was leaving the waters of Japan and heading toward Midway. 
Then, against overwhelming odds the U.S. Navy won the most decisive 
naval battle in its history. It was a conflict that forever changed the 
course of the war in the Pacific. Today, I feel that we are again at a 
crossroads regarding the outcome of a new Battle of Midway.
    Midway is much more than a wildlife refuge. The Midway Islands 
represent America's and the U.S. Navy's finest hour of sacrifice for 
liberty. It is a sacred place where Americans died in defense of their 
country and in so doing helped save democracy for the Western world. 
However, It is exactly the lack of appreciation of the significance of 
the Battle of Midway that has created many of the problems on Midway. 
(See Attachment A ``Under-appreciated Victory'' by former Secretary of 
Defense, James R. Schlesinger in the U.S. Naval Institute Proceedings, 
October 2003.)
    The issue of public access to Midway Atoll has a more profound 
meaning than that which first meets the eye. The central questions of 
this debate should be whether the Midway National Memorial should be on 
an equal footing with a wildlife refuge; and should the federal agency 
having jurisdiction over the Memorial be as committed to a national 
memorial as it is to a wildlife refuge? If the answer to these 
questions is yes, as I believe it should be, then the problems facing 
Midway---including that of public access---will be resolved only when 
jurisdiction over Midway is given to an agency with an inherent ability 
to equalize its treatment of both historic and natural resources.
    To validate the veracity of this statement, one must observe what I 
perceive to be a conflict of interest that is created when a federal 
agency, whose primary interest is wildlife, is asked to care for one of 
America's greatest National Memorials. Despite attempts to show its 
interest in the Memorial, the USFWS consistently, as it would be 
expected to, activated policies that put the needs of the Refuge above 
that of the Memorial.
    The story begins in 1993 when the IMMF visited Midway Atoll with 
Midway veterans. We were all anxious to visit the famous airstrip on 
Eastern Island, which played such a prominent role in the outcome of 
the Battle of Midway. Still under Navy jurisdiction, LCDR Michael 
Driggers, USN was kind enough to take us there in his private boat. As 
we disembarked, representatives of the USFWS, traveling in two 
motorized rafts, angrily approached, shouting expletives, until they 
discovered we were with the LCDR Driggers. After that they continued to 
follow us as we toured the tiny island. This was my first experience 
with the USFWS. During that visit, it became apparent to me that the 
USFWS did not have the kind of interest that is necessary to preserve 
the rich history of Midway.
    Upon returning to the states, my concern was that the Navy's 
departure would leave the historic sites on Midway vulnerable to 
destruction. These concerns were validated when I learned from the 
Acting Director of the USFWS that, if funds were available, the USFWS 
would destroy the historic airstrip on Eastern Island with dynamite and 
return Midway Atoll to a ``pristine state''. Equally as troubling was 
my observation that while going across Midway documents in the National 
Park Service's (NPS) History Department, I discovered a map of Eastern 
Island on which the airstrip was crossed out and the words ``DO NOT 
CONSIDER FOR HISTORIC LANDMARK STATUS (HLS)'' were written. I brought 
this discovery to the attention of National Park Service but no 
explanation was ever given to me. I was deeply troubled by the fact one 
of the most significant historic sites on the Midway Atoll was being 
excluded from Historic Landmark status.
    This observation is further supported by a letter I received in 
January 1994, in which the Acting Director of the USFWS (See Attachment 
B) states that ``the subject airstrip, although cited in the NPS report 
supporting designation of several sites, was not included as part of 
the report.'' In fact, the four structures nominated for HLS by the NPS 
were all on Sand Island and never did receive HLS.
    In February 1994, the IMMF received the full support for from 
Hawaii's State Historic Preservation Administrator to preserve all of 
Midway's World War II sites, including the airfield on Eastern Island 
(See Attachment C).
    Further, in a letter dated August 1994 (See Attachment D), the 
Acting Director of the USFWS stated ``...the Service opposes the 
designation of the area as a National Historic Park because of the 
presence of significant endangered, threatened and migratory species 
resources [sic] and our responsibilities for protection and management 
under the Endangered Species Act and other environmental mandates 
[sic].''
    In a return letter to the Acting Director by the IMMF dated 
September 1994 (See Attachment E), I wrote ``The only endangered 
species of terrestrial or bird life recorded at Midway Atoll are the 
Short-tailed Albatross and Peregrine Falcon. One, perhaps two, of the 
former have been annually observed using Sand Island. The latter is an 
occasional `straggler' on the Atoll. Nothing planned by the IMMF would 
interfere with their habitat. Further, there is no data to suggest that 
Midway Atoll is the sole or primary habitat with regard to any 
endangered or threatened species, whether they be marine, terrestrial 
or bird...The IMMF fully supports the protection of these and any other 
endangered or threatened species utilizing the Midway Atoll...In 
conclusion then, IMMF does not support the proposal of USFWS to utilize 
the Midway Atoll solely as a wildlife refuge administered by the 
USFWS.''
    In April 1994, the IMMF became a member of the U.S. Navy's NAF 
Midway Reuse Committee and attended its first meeting in Pearl Harbor. 
There we presented a requested proposal entitled ``Project NAS Midway'' 
(See Attachment F). The proposal was rejected by USFWS. The Foundation 
was not asked to its next meeting until this turn of events came to the 
attention of Senator Jesse Helms, at which point I was asked to the 
Committee's third meeting.
    Also in April 1994, the Foundation could not receive permission 
from General Kicklighter (of the World War II Commemorative Committee) 
to place and dedicate its Midway Memorial Monument on Midway. It was 
only after the IMMF turned to an official in CincPacFleet that 
permission was given to the IMMF to hold a ceremony on Midway in August 
1995. That year, while under the jurisdiction of the U.S. Navy, the 
Foundation dedicated a significant Midway Memorial Monument, which was 
erected and dedicated by the IMMF on Sand Island with many Midway 
veterans in attendance. The keynote speaker at this ceremony was 
Admiral Jeremy M. Boorda, USN, Chief of Naval Operations.
    In May 1994, a document published by the USFWS revealed their 
intention to totally subjugate Midway's great historic value to their 
primary mission of caring for the wildlife refuge. In their Cultural 
Resources Management Draft Plan Table 3: ``Historic Resources 
Considered Physical Hazards to Wildlife Sand and Eastern Islands, 
Midway Atoll'', USFWS listed 24 historic Category I and II structures 
that were planned for demolition, including the historic Cable 
Buildings, the Seaplane Hangar and Ramp and the Command Post. In 
addition, the USFWS recommended plans for acceptance to bury the 
airstrip on Eastern Island (See Attachments G and H). Upon receiving 
this information, letters of protest were immediately sent by Senator 
Jesse Helms and the IMMF (See Attachment I). Our concerns appeared to 
be heeded at the time as many (but not all) of the historic structures 
recommended for demolition by the USFWS were in the1996 edition of 
their Cultural Resources Plan listed as ``secure or use'' (See 
Attachment J).
    During this time, the IMMF made every effort to work with the 
USFWS. The Foundation had frequent meetings with the USFWS in Virginia. 
Attempts were also made on Capitol Hill in 1996 to resolve the issue 
without legislation. Discussions were held by all interested parties 
and their legislative staffs on Capitol Hill regarding the designation 
of the Midway Islands as an Historic Landmark and the creation of an 
Advisory Committee for the historic aspects of the Islands.
    However, a draft letter sent to Senator Helms in September 1996 by 
the Acting Director of the USFWS made no mention of designating the 
Midway Atoll as a National Historic Landmark (NHL) as had been 
previously agreed to in our meetings. This letter prompted Senator 
Helms to respond by stating in his return letter that in order to avoid 
remedying this omission by legislation, he strongly urged the Director 
to specifically commit to on making the Midway Islands a National 
Historic Landmark (See Attachment K).
    This request was not acted on by the USFWS. After more than one 
year's time, Senate Bill S.940 was introduced by Senator Helms and was 
unanimously passed in the Senate in November 1997.
    In 1996, President Clinton signed an Executive Order affirming 
public use for Midway (see attachment L (1). That same year, the 
regional USFWS on Midway had signed a cooperative agreement with the 
Midway Phoenix Corporation (MPC) regarding Midway beginning in August 
1, 1996. In the cooperative agreement between the two parties, it is 
stated,--In recognition of the outstanding wildlife and historic 
resources of Midway Atoll and the existing infrastructure on the Atoll, 
the Service determined that the resources should be made open to the 
public.'' (See Attachment L).
    This corporation had responsibility for all operations and 
maintenance of the infrastructure, including those related to eco-
tourism. A Public Access Plan was developed by the USFWS. The plan 
permitted up to 100 persons to visit the Atoll at one time. This number 
was in addition to the 170 staff living on Midway (See Attachment M). 
To its credit, MPC volunteered over 15 million dollars of its own funds 
to upgrade the infrastructure of the Atoll, including the construction 
of a new restaurant and beach pavilion. This infusion of funds for new 
construction and upgrading went a long way to attract new visitors to 
the Atoll. Indeed, they began to make a profit for the first time in 
July 2001. However, it was becoming increasingly apparent to the MPC 
that the USFWS' actions, such as lowering street signs and poisoning 
the ironwood trees on Eastern Island, were not enhancing Midway Atoll's 
image as a tourist destination. To make matters worse, the USFWS billed 
MPC for two million dollars worth of fuel that was GIVEN to the USFWS 
by the Department of Defense (See Attachment M).
    At this point, the MPC decided that the $200,000 a year in the 
cooperative agreement that MPC was asked to donate to the Service ``for 
the sole purpose of supporting the Service's responsibilities under 
this Agreement'' (See Attachment N) was not fair. When this amount was 
not paid, the USFWS charged the MPC with a breach of contract and asked 
the corporation to leave. The MPC departure occurred on May 1, 2002.
    It is of interest that, stated in the June 1999 USFWS Midway Atoll 
National Wildlife Refuge Historic Plan, was that ``At some point in the 
future, it is possible that MPC will withdraw from the agreement. If 
this occurs, and there is no other party interested in continuing the 
services provided by MPC, then public use program would likely be 
curtailed...Closing the refuge to public access and reducing staff to a 
caretaker status would have an adverse effect on historic properties, 
because the current program of reusing (maintaining) and securing 
(preserving) Midway's historic properties would no longer be 
economically feasible'' (See Attachment O).
    In the meantime, and, after 5 years of effort, H.R. 3194 was passed 
on November 17, 1999 directing the Secretary of Interior (DOI) to 
designate the Midway Atoll a National Memorial and to consult with the 
IMMF on a regular basis (See Attachment P (2)). President William 
Clinton signed the bill into law in 2000. Later that year, Secretary of 
Interior, Bruce Babbitt signed a Secretary's Order designating Midway 
Atoll a National Memorial and directing the USFWS to establish a 
planning committee to address its management. In addition, he stated in 
a letter to the IMMF that the Service would continue to consult with 
the IMMF on a regular basis regarding the interpretation and management 
of the National Memorial, which is a part of the Midway Atoll National 
Wildlife Refuge (See Attachment P (1))
    Over the next year, I repeatedly requested that the USFWS work 
together in planning the 60th anniversary of Battle of Midway. I 
stressed that an event of this magnitude required that we start 
planning early. However, my recommendations were rejected, in spite of 
the fact that without the Service's permission and commitment, the IMMF 
could not formulate a plan that included Midway Atoll. During this time 
there was no Midway Planning Committee nor did the Service consult with 
the IMMF on a regular basis regarding the interpretation and management 
of the National Memorial.
    In January 2002, I was appointed by Secretary of Interior, Gale A. 
Norton to be a member of the Battle of Midway National Memorial 
Planning Committee (See Attachment Q). By April of 2002, the USFWS 
still had not held a single meeting with the IMMF regarding a 
commemoration ceremony on Midway for the 60th anniversary of the Battle 
of Midway and denied us permission to hold the ceremony on Midway 
because of the lack of time (See Attachment R). Phone conversations 
revealed that USFWS refused to grant the IMMF permission to place a 
flag pole on Midway which would fly the newly designed Midway National 
Memorial flag; nor would the Service permit a complimentary 5x3 foot 
National Memorial Monument at the site of the Foundation's present 
monument. To my knowledge, there is no sign provided by the USFWS that 
states that Midway is a National Memorial as there is that the Atoll is 
a National Wildlife Refuge.
    Just before I was leaving for Hawaii to commemorate the 60th 
anniversary of the Battle of Midway in late May 2002, I learned that 
the first meeting of the Battle of Midway Planning Committee would be 
conducted by telephone conference. Those recent events and those of the 
past by the Service led me to resign my position on the Battle of 
Midway Committee. I concluded that the goals of the Foundation would be 
better served by acting as an advisor to the Secretary or Assistant 
Secretary of Interior regarding Midway, as directed by Congress. I 
stated so in my letter to the Secretary of Interior. No response to my 
letter from the DOI was forth coming (See Attachment S (1)).
    The newly appointed Assistant Secretary of Interior, Judge Craig 
Manson felt it appropriate, even at this late date to hold a 60th 
anniversary Battle of Midway commemoration ceremony on the Midway. I 
was honored and accepted the invitation by Judge Manson to be a guest 
speaker at this event.
    Since MPC departed, there was no real attempt by the USFWS to 
restore eco-tourism. The corporations that followed were only charged 
with operations of the airport and the necessary infrastructure to 
maintain that responsibility. As a result, I met with DOI and presented 
a plan and analysis of sound fiscal policy for Midway, (see Attachment 
S (2)), based on the records of the successful months of operation of 
MPC's tenure. <SUP>1</SUP> This plan outlined a sound fiscal policy for 
all the operations on Midway. The key to its success was the imperative 
that ALL of the operations be under one cooperator, otherwise failure 
would be ensured. It was my feeling, and that of Congressman John J. 
Duncan (See Attachment S (3)), that this solution was well worth 
trying. Its goal was to minimize taxpayers' expense and, at the same 
time, cover all of the multiple operations of Midway, including eco-
tourism. Interestingly enough, though this plan would require far less 
funding by the government for TOTAL operational service, it was 
rejected by the DOI.
---------------------------------------------------------------------------
    \1\ The IMMF wishes to stress that it has no financial relationship 
with the MPC, nor has it ever received any donations from this 
corporation.
---------------------------------------------------------------------------
    It was becoming increasingly clear to me that the USFWS' attitude 
toward eco-tourism was not dissimilar to its attitude toward Midway's 
historic significance. With this conclusion in mind, the only realistic 
solution to the problems confronting Midway is to remove the underlying 
source of the conflict, namely the USFWS. The IMMF has encouraged 
Congress to pass legislation to direct the DOI to remove the USFWS' 
jurisdiction over Midway and replace it with an agency from within the 
DOI. Subsequently, on February 26, 2003, H.R. 924 was introduced in the 
House by Congressman John J. Duncan, Jr. Later that year, Senator 
Richard G. Lugar introduced S. 1574 (See Attachment T). Both of these 
bills were supported by the Navy League, the Marine Corps Aviation 
Association and Dr. William S. Dudley, then--Director of the Naval 
Historic Center. In addition, the Veterans of Foreign Wars, and the 
Association of Naval Aviation support public access to Midway (See 
Attachment U).
    In conclusion, it is the position of the International Midway 
Memorial Foundation that the only long term solution to Midway's 
problems is for the DOI to replace the USFWS with another agency: one 
that has the capability of giving equal importance to the needs of the 
National Memorial as it does to the Wildlife Refuge. This viewpoint is 
the linchpin for any successful policy toward public access.
    Thank you for affording me the opportunity to express the 
Foundation's position on the issues involving Midway.
    Midway Photographs: (See Attachment V)
    NOTE: Attachments to Dr. D'Angelo's statement have been retained in 
the Committee's official files.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much.
    Dr. D'Angelo. Thank you very much, Mr. Chairman.
    Mr. Gilchrest. First of all, have either one of you been to 
Midway?
    Dr. D'Angelo. I have been there numerous times, 
Congressman.
    Mr. Gilchrest. And Dr. Dudley?
    Dr. Dudley. I have been there once, in 1995.
    Mr. Gilchrest. And how did you get to Midway in 1995?
    Dr. Dudley. Well, in 1995, they had arranged a special 
occasion for Midway veterans to visit immediately before--I 
think it was one week before--the 50th anniversary of the 
surrender. I was part of the party that went out there from the 
IMMF.
    Mr. Gilchrest. And who arranged the trip?
    Dr. D'Angelo. We did.
    Dr. Dudley. Dr. D'Angelo's foundation did. I was there as a 
speaker.
    Mr. Gilchrest. How did you get to Midway?
    Dr. Dudley. We flew out on a charter jet.
    Mr. Gilchrest. A charter jet to Hawaii?
    Dr. Dudley. No, from Hawaii to Midway.
    Mr. Gilchrest. I see. And was the charter jet by Midway 
Phoenix? Whose jet?
    Dr. Dudley. It was Aloha Airlines.
    Mr. Gilchrest. Aloha Airlines.
    Dr. D'Angelo. The cooperative agreement, Congressman, had 
not yet been signed between the Service and Midway Phoenix 
Corporation.
    Mr. Gilchrest. And how long did you stay on Midway? A 
couple of days, or just one day?
    Dr. Dudley. Just one day, sir.
    Mr. Gilchrest. I see. At that time, in 1995, did the Navy 
still operate Midway?
    Dr. D'Angelo. Yes.
    Mr. Gilchrest. They did?
    Dr. D'Angelo. Yes.
    Mr. Gilchrest. And were there tours out there at that time?
    Dr. D'Angelo. No.
    Mr. Gilchrest. There wasn't? So the veterans, or people who 
wanted to see Midway, basically didn't have access to Midway 
while the Navy operated the facility there?
    Dr. D'Angelo. Yes, that is true, Mr. Congressman. But I 
think it is also fair to say that at that time Midway was not 
designated a national memorial.
    Mr. Gilchrest. I see. But did the Navy have visits 
occasionally there for people that wanted to see Midway, 
whether they wanted to see it for eco-tourism or whether they 
wanted to see it for the sense of the memorial for the battle 
during World War II?
    Dr. D'Angelo. Based on our own experience, we came back 
from Japan and were filming for a documentary film. And we had 
access to Midway, with permission granted by the Navy.
    Mr. Gilchrest. Now, when was Midway turned over to Fish and 
Wildlife Service?
    Dr. D'Angelo. I believe that was in 1997. I do have that in 
my testimony. I believe it is 1997.
    Mr. Gilchrest. So that in 1997, the Fish and Wildlife 
Service basically took over jurisdiction of that atoll, of the 
Marshall Islands. And then at that point, I guess Midway 
Phoenix contracted with the Navy to take out, would you say, 
regular sightseeing tours, or memorial tours to the island?
    Dr. D'Angelo. The way it worked was that Midway Phoenix 
signed the cooperative agreement with Fish and Wildlife in 
1996. It basically wasn't until the Navy left, which I believe 
was 1997--1996 that the Navy left? OK. Well, the first year 
there was no air transportation. In 1997, Midway Phoenix began 
to fly out their own Gulfstream jets.
    Mr. Gilchrest. How many people were on that jet?
    Dr. D'Angelo. Probably, no more than 20 at a time.
    Mr. Gilchrest. What would the cost of that be, to anyone 
that wanted to visit, if they were flying on the Gulfstream?
    Dr. D'Angelo. Oh, well, we, I think, paid about $400, $450.
    Mr. Gilchrest. Four hundred dollars round-trip?
    Dr. D'Angelo. Something like that, Congressman. Yes, 
Chairman--Mr. Chairman.
    Mr. Gilchrest. You can call me, you know, ``congressman,'' 
``Wayne,'' whatever.
    [Laughter.]
    Dr. D'Angelo. You can call me ``Jim.''
    Mr. Gilchrest. OK, Jim.
    Dr. D'Angelo. All right.
    Mr. Gilchrest. Would they stay one day? Was there any 
accommodation to stay more than one day?
    Dr. D'Angelo. There was beginning to. I think it really 
began to flourish as Midway Phoenix began to put their $15 
million in and built this beautiful restaurant that cost over a 
million dollars, when they began the jet flights of their own. 
And then finally, they got permission to have regular service 
by Aloha Airlines. And that started in 1998.
    Mr. Gilchrest. And when you say regular service, was that 
once a week?
    Dr. D'Angelo. I believe it was twice a week, Mr. Chairman.
    Mr. Gilchrest. Twice a week.
    Dr. D'Angelo. Yes, sir.
    Mr. Gilchrest. And twice a week, there would be a plane of 
about 20 people?
    Dr. D'Angelo. No. The 737s could hold----
    Mr. Gilchrest. Oh, 737s?
    Dr. D'Angelo. Yes. See, that was the benefit; that the 
Gulfstreams carried fewer people, but the 737s obviously 
carried more.
    Mr. Gilchrest. So how many people would be on the 737s?
    Dr. D'Angelo. I would say over a hundred, would be my 
guess, with the 737.
    Mr. Gilchrest. A hundred people. And there were enough 
people that there would be how many flights a week?
    Dr. D'Angelo. It would vary per season, but I have facts 
that originally the cooperative agreement, which is 30 people 
at any one time--then Fish and Wildlife changed it to 100. So 
the average maximum on the island at one time of visitors were 
a hundred.
    Mr. Gilchrest. I see.
    Dr. D'Angelo. I believe they also had 170-people staff.
    Mr. Gilchrest. Well, who had the 170-people staff?
    Dr. D'Angelo. That was between Fish and Wildlife, and 
Midway Phoenix, who was performing the functions out there.
    Mr. Gilchrest. I see. Dr. Dudley, so you have been out 
there one time?
    Dr. Dudley. Yes, sir, one time in 1995.
    Mr. Gilchrest. And were you a part of the Battle of Midway?
    Dr. Dudley. Oh, no, sir. I'm not quite that old.
    Mr. Gilchrest. Oh.
    [Laughter.]
    Dr. Dudley. No, sir.
    Mr. Gilchrest. I was a part of the Battle of Midway. At 
least, I have some jeans that were left over.
    Dr. Dudley. Yes. Well, I wasn't there. But I think, like 
General Patton, I was virtually there.
    Mr. Gilchrest. Virtually there.
    Dr. Dudley. Yes, sir. I am a historian, and I worked for 
the Naval Historical Center for many years. And as soon as 1992 
rolled around for the 50th anniversary of the Battle of Midway, 
I met Jim D'Angelo and others who actually were there at the 
Battle of Midway. And that stimulated my interest.
    And so I have spoken several times at Midway commemorative 
events, Midway dinners, and so forth. But I continue to have 
this interest, even though I am not a veteran of that 
particular combat.
    Mr. Gilchrest. Well, thank you very much, Dr. Dudley.
    Dr. Dudley. Sure.
    Mr. Gilchrest. I will yield to the gentleman from New 
Jersey.
    Mr. Pallone. I just have to comment, Mr. Chairman. I 
learned a long time ago in politics not to suggest anything 
about anybody's age.
    Mr. Gilchrest. Well, Dr. Dudley looks so distinguished.
    Dr. Dudley. Thank you.
    [Laughter.]
    Mr. Pallone. I know that every one of the wildlife refuges 
is different, and every circumstance is different. And in my 
opening statement I made reference to how we are dealing with 
conflicting interests here; which is obviously going to be the 
case with Midway and so many of these cases.
    I know it is not the same, but I couldn't help but think of 
my own district, where we have a national recreation center, 
national park, called Sandy Hook. And we literally have 
millions of visitors. I mean, starting this Memorial Day 
weekend, you won't even be able to get into the place, because 
there are millions of people.
    But we have Fort Hancock, which is a historic site. And 
there is a big controversy now about whether or not we should 
spend money to fix that up, and what kind of access should be 
available.
    And I just can't help but think that every one of these is 
not only weighing of interest, but also a money problem. In 
other words, at Sandy Hook we have an effort to privatize the 
reconstruction, or the restoration I should say, of historic 
Sandy Hook. And it is going to cost about $60 million, and it 
is being privatized. And most people don't want it, because 
they are afraid of the impact and they don't know how many 
visitors there are going to be.
    And it just seems to me that this is, to some extent, a 
question of money. First of all, I assume that the agency that 
could possibly replace Fish and Wildlife would be the National 
Park Service. You are not saying that, but I suppose that is 
one possibility. And, you know, they are running out of money. 
I mean, they just don't have that much money.
    So I guess I will ask a couple of questions. Would you 
suggest that the Park Service replace the Fish and Wildlife 
Service? And then, what kind of costs would there be? I mean, 
would you want daily visitation? Would people be able to come 
in every day? How would we maintain this, given limited 
resources? And if you went back to some private concessionaire, 
how would they make money?
    Was Midway making money? It seemed like it is a lot of 
money that we are sinking into it, but not that many people 
were using it. So if you could just comment on some of these 
things.
    Dr. D'Angelo. Sure, I would be happy to comment. I think 
the key point is one of the questions you raised is certainly 
very legitimate. But that is one of the points of my testimony, 
and that is while Midway Phoenix Corporation was out there, it 
was virtually at no taxpayers' expense.
    Now, at the moment, the month--and this is in my 
attachments; most of the statements that I made in my oral 
statement are backed up by documents--but the moment that 
Midway Phoenix Corporation made a profit, then the rules began 
to change. Then the conflicts increased; leading Midway Phoenix 
Corporation to leave. For example, I was very pleased to hear 
about the tour ship. But they would not allow a tour ship at 
the time that Midway Phoenix was----
    Mr. Pallone. But Dr. D'Angelo, even though they may have 
been making a profit--and I don't doubt your facts--if it is 
opened up to either daily visitation or eco-tourism, whatever 
you have suggested, there has to be some maintenance.
    Let's assume the Park Service took over. They are going to 
have to have some staff. They are going to have to maintain 
things. You are not going to totally turn it over to the 
private sector.
    Dr. D'Angelo. No. But again, what I am alluding to is that 
when Midway Phoenix Corporation was there, it wasn't turned 
over to the private sector in terms of the jurisdiction. The 
corporation's responsibilities were for operation, which 
included eco-tourism. Originally, they tried to get a separate 
entity for eco-tourism, and that just didn't work.
    And the point is that my personal opinion, based on the 
records, is that if there was a policy of equal footing, so 
that there was a reason for the people who want to remember the 
Battle of Midway, or if they don't, they want to go out there, 
that there is attention given to the national memorial. Of all 
the visitors that came out to Midway, 97 percent of them were 
environmentalists, which is great, but a lot of this----
    Mr. Pallone. But I guess you just----
    Dr. D'Angelo. Well, let me get back to your point.
    Mr. Pallone. Yes, please, just answer it.
    Dr. D'Angelo. I wanted to look, but I apologize for that.
    Mr. Pallone. What would you want? Would you want the Park 
Service?
    Dr. D'Angelo. What I offered to the Department of Interior 
was, when Midway Phoenix was out there, OK, it was virtually at 
no taxpayers' dollars. They were paying roughly $6 million, 
when there was none. I understand they paid over $10 million to 
clean up the fuel spill, which is another issue, OK, which we 
believe is due to negligence.
    And in any event, the point is that this certainly could 
have been used as a trial basis. The money that Midway Phoenix, 
for example, wanted to go out there at one time was only $2 
million, to do everything. Instead, they were denied an 
opportunity to renegotiate. And as a result, we went up to $6 
million.
    So the bottom line is that the private sector, based on a 
track record that has already been proven, if it is not 
hindered by the Wildlife Service, can cost minimal taxpayers' 
dollars. And I would argue that, if it turns out that this is 
incorrect, if we had tried it for two years, already the money 
that was spent would have been better served. And I personally 
feel, if that happened, we wouldn't be here today.
    I have told Fish and Wildlife all along, this was a perfect 
opportunity for that agency to become a role model for the rest 
of the Federal Government; that they could show that the 
private sector and a Federal agency working together could be 
at minimal taxpayers' dollars, and be very efficient. And if I 
am not incorrect, I think this is the President's opinion, as 
well.
    So I wanted that. I wanted everything to go the way it 
should. But for the reasons that are in the record, they did 
not.
    Mr. Pallone. I am not going to keep pursuing it, Mr. 
Chairman. I guess my concern is that, if you turned it over to 
a different agency, like the Park Service, there has to be some 
cost. And we would need to get some analysis of what it would 
cost the Park Service.
    I understand you are talking about the private sector, but 
there has to be some cost associated with the Park Service, or 
whoever would replace it, to allow the private operation to 
take place. But we are not going to get to that today.
    Dr. D'Angelo. Well, I didn't mean to avoid it, but what I 
am telling you is that the Midway Phoenix Corporation, as it 
did once before where it donated $15 million of its own money, 
was ready to contract once again with Fish and Wildlife for all 
the operations, at no cost to Fish and Wildlife. And initially, 
there may have been a startup where, I agree with you, there 
might have been some funding. But they were willing to do 
everything for $2 million.
    So even if you make the point, after looking at my analysis 
and the data I gave you, you will see that it certainly is not 
going to be $4 million more. Yet, we are spending today $6 
million a year on a single operation, and that is the airport. 
To me, it is pretty clear. And to do that for two years, one 
could certainly see if that would succeed.
    So you can look at the data I sent you, but if you have the 
private sector saying, ``We are responsible,'' let everybody do 
an analysis. And if you need two or three million to upstart 
it, because the infrastructure is not being maintained the way 
it was when that corporation was out there, that is the 
solution. Any other solution, in my opinion, will fail.
    Mr. Pallone. All right. Thank you.
    Dr. D'Angelo. Right.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I have one 
question. Midway Atoll is included with several other remote 
islands in the Hawaiian Islands National Wildlife Refuge. And 
this refuge was created by President Roosevelt way back in 
1909, and is one of our oldest.
    Now, my question is, considering this heritage, and the 
fact that Midway Atoll provides extremely valuable sea bird 
habitat, why should the Fish and Wildlife Service 
responsibility for the refuge be terminated? We know about the 
BRAC closures, but what about the termination for Fish and 
Wildlife Service?
    Dr. D'Angelo. Well, the reason for that termination is in 
more detail in my testimony; but a simple answer would be they 
don't recognize the fact that it is a national memorial to one 
of the most significant naval battles in this country's 
history. And so, as I pointed out, the question of the debate 
should be, should a national memorial, particularly of that 
significance, be given equal footing, or, as it is now, it is 
subservient to the policies of Fish and Wildlife?
    And I think we can also state that Fish and Wildlife itself 
agreed to increasing visitors from 30 to a hundred. So the 
bottom line is, if it does no harm, and we are all in favor--I 
love wildlife. I am a big environmentalist. But I believe in 
fair play. If there is a history there, and Congress has 
designated it, President Clinton himself signed an Executive 
Order for public access, what is wrong with sharing the rich 
historical heritage?
    The cable buildings--talking about President Roosevelt--
were completed in 1903. And they connected the trans-Pacific 
underwater telephone line from Honolulu all the way to the 
Philippines. And those cable buildings are still out there, and 
they are decaying. President Nixon during Vietnam met there. 
There is rich historical significance in Midway.
    We are not saying by any means we don't treasure the 
wildlife. I don't want to see anything happen to the wildlife 
or the environment. But I believe in fair play. We can't ignore 
that it is a national memorial that was designated by Congress 
and the former Secretary of Interior under President Clinton.
    Ms. Bordallo. What is the condition of the facilities right 
now? I mean, today.
    Dr. D'Angelo. There are photographs I attach now. When we 
first went out there, again, the corporation repainted, they 
revised, all at their expense, a beautiful restaurant. It is a 
gorgeous place.
    Since that time, Fish and Wildlife has lowered all the 
street signs, so the birds don't run into them; but you worry 
about somebody hitting the pole, OK? They have poisoned the 
ironwood trees, and that has caused erosion. All right? Now, I 
am confident that if Midway Phoenix was out there, or any one 
of us were doing that, there would be a tremendous outcry.
    And again, I come down to fair play between the historic 
sites--and what is Fish and Wildlife doing? There are a lot of 
people that are calling me that are environmentalists and 
lovers of wildlife, that are upset with Fish and Wildlife. So 
it is not just the historic value. Midway----
    Ms. Bordallo. Mr. Chairman----
    Dr. D'Angelo. Yes, go ahead. Sorry.
    Ms. Bordallo.--I think you made reference in your opening 
comments about how many refuges have been closed?
    Dr. D'Angelo. No, I didn't. No.
    Ms. Bordallo. Did you make reference to that in your 
opening? I thought I read that.
    Dr. D'Angelo. No.
    Ms. Bordallo. Have there been any other closures?
    Mr. Gilchrest. Oh, you mean limited access to visitors?
    Ms. Bordallo. That's right. Yes.
    Mr. Gilchrest. Oh, yes.
    Dr. D'Angelo. Oh, yes.
    Mr. Gilchrest. Yes.
    Dr. D'Angelo. Yes, I didn't comment on that.
    Ms. Bordallo. He did. The Chairman made mention.
    Dr. D'Angelo. Yes, the Congressman, yes, the Chairman.
    Ms. Bordallo. How many of those are with limited access?
    Mr. Gilchrest. Out of about 535, there are 88 with limited 
access.
    Ms. Bordallo. Eighty-eight. Yes. All right. I have no 
further questions, Mr. Chairman.
    Mr. Gilchrest. Thank you, Ms. Bordallo.
    I would like to say to both of you gentleman that, having 
gone back to Vietnam in 1991, after serving there in 1966-1967, 
it was really an extraordinary experience. I don't want to 
overstate that, but the sensitivity to history in order to 
remember the events of the past and pass that on to the present 
and future generations is really a way of sustaining the 
democratic process. So that is an extraordinary undertaking 
that we will seriously pursue.
    And Dr. D'Angelo, you made a comment about that historic 
significance, and is it subservient to other things like 
wildlife. We don't want to take the view that either/or is 
subservient. They are both significant, and both important.
    The historic significance of Midway: those people who are 
lucky enough to make that long-distance travel to get there and 
talk about those things with other people, and be able to have 
yourselves and history teachers talk about Midway not as 
something that used to be a memorial but the buildings are 
decaying, but as something that Americans can be proud of, that 
their grandparents and great grandparents participated in.
    I think we can also strike a significant balance, though, 
between that and the sea turtles, the green sea turtles that 
are returning; the monk seals, that are endangered, that are 
now beginning to give birth on Midway; the dolphins, that had 
disappeared virtually for decades and are now back. The healthy 
wildlife that is coming back is a natural part of our natural 
history.
    And so when we talk about sustaining our sense of the 
future, it is both the struggles of battles that we fought, but 
it is also the historic significance of the natural ecological 
integrity that we are smart enough to sustain and restore, as 
well.
    So as we pursue this information about Midway, or the other 
refuges that we will talk about this morning, this Subcommittee 
will keep all of those things in mind. And your participation 
here this morning and the information that you have given us 
have been very vital to that undertaking. And I want to thank 
both of you very much.
    Dr. D'Angelo. Thank you, Mr. Chairman.
    Dr. Dudley. Thank you very much.
    Mr. Gilchrest. Thank you, sir.
    Our second panel will be Mr. Bradley Farrell, Fair Access 
to Island Refuges; Mr. Robert Allphin, Fair Access to Island 
Refuges; Mr. Robert Langelius, President, Eastern U.S. Free 
Flight Conference; and Mr. Dave Mathewson, District Two Vice 
President, Academy of Model Airplanes.
    Welcome, gentlemen. Gentlemen, in the midst of your 
testimony, we will not be interrupted by any more red-tailed 
hawks, but we will probably be interrupted by a vote. But we 
will begin.
    Thank you all for coming. We look forward to your 
testimony. Mr. Farrell, you may begin, sir.

               STATEMENT OF BRADLEY A. FARRELL, 
                 FAIR ACCESS TO ISLAND REFUGES

    Mr. Farrell. Thank you, Mr. Chairman, Congresswoman, and 
Congressmen. I reside in Alexandria, Virginia. I represent Fair 
Access to Island Refuges, or FAIR. I am an amateur radio 
operator, and have been so licensed for 26 years by the Federal 
Communications Commission.
    Our concern is the closing of two refuges in the Caribbean 
Sea, the Desecheo and Navassa National Wildlife Refuges, by the 
Fish and Wildlife Service, to Americans who propose to lawfully 
visit these island refuges under stringent existing 
regulations; while the Fish and Wildlife Service turns a blind 
eye to illegal and harmful use of these refuges.
    FAIR and amateur radio operators support wholeheartedly the 
Fish and Wildlife Service's ``wildlife first'' approach to 
managing its refuges. I submitted applications for special use 
permits, pursuant to the 1997 statute, in 2002 for amateur 
radio on these islands. And amateur radio use of these islands 
was allowed by the Fish and Wildlife Service or other 
government departments for many years prior to the 1990s, when 
the Service barred access to these islands.
    My applications were denied, so I appealed through the 
administrative process. During that process, the Fish and 
Wildlife Service agreed to produce to me all of the information 
upon which they based their decisions to close these islands. 
And over a 14-month period, they produced about 1,200 pages of 
their internal documents, copies of which are right here and I 
will submit for the record.
    I may skip a few of these slides. I am using slides to 
bring you images of some of the information in this evidentiary 
record, which I feel is very important. And I may skip one or 
two, because the topics have already been covered.
    But I do want to make a note about the 1997 National 
Wildlife Refuge System Improvement Act, because it has been 
discussed here today about balancing public use and protection 
of wildlife in these refuges. The standard Congress set in this 
well-crafted statute is sound professional judgment. The agency 
is required to use sound professional judgment in determining 
whether a use is compatible. And generally, if a use is found 
not to materially interfere with the agency's mission in a 
particular refuge--and it is decided case by case--then the use 
is compatible.
    Now, the Fish and Wildlife Service points repeatedly to, I 
believe it is, six priority uses that are expressly stated in 
the statute as the focus of allowing use in the refuges. And 
that is not the approach that Congress took in adopting this 
law, as it clearly shown in the legislative history. In fact, 
Congressman Young of Alaska, on the House Floor in 1997, said, 
``This bill neither mandates nor prohibits such non-wildlife-
dependent activities, such as grazing, jet skiing, or oil and 
gas development.''
    Now, it is to be determined, pursuant to the statute, on a 
refuge-by-refuge basis. But unfortunately--and I am going to 
skip over this one, because Bob Allphin, who is sitting next to 
me, is going to cover that in more detail--unfortunately, it 
appears more to us that the Fish and Wildlife Service is making 
their decisions based more on opinion.
    First, I am going to focus on Navassa. It is located 
between Jamaica and Haiti. It is about 1,300 acres in size. It 
has been a refuge since 1999. Prior to its becoming a refuge, 
other governmental departments allowed amateur radio operators 
to operate from there.
    Reason for closure, according to the Fish and Wildlife 
Service: protection of sensitive ecology. In its correspondence 
to amateur radio operators and congressmen who have inquired on 
behalf of their amateur radio constituents when use was denied, 
the Fish and Wildlife Service has stated that the ecology of 
this island is so sensitive, visitors should not go there. And 
also, because it is difficult to access the island because of 
its rather steep sides.
    What Congress [sic] doesn't tell the public, and has not 
told congressmen who have inquired, is that Navassa is among 
the healthiest habitats in the world, and its internal 
documents clearly show that.
    Also, the Fish and Wildlife Service turns a blind eye to 
Haitian fisherman on Navassa. They camp there; they start 
fires; and they have harmed wildlife. And the Fish and Wildlife 
Service, in doing field work there in 2000, was aware of this; 
yet they did not tell these Haitian fishermen to leave. And 
when they got back to base, in their report on their trip to 
Navassa they recommended considering a permit program for 
Haitian fishermen to enter this refuge. Yet American taxpayers, 
who propose to go there pursuant to stringent regulations--
amateur radio operators, for example--are barred from this 
island refuge.
    This is a photograph from the U.S. Geological Survey 
website. And standing in the doorway of the old lightkeeper's 
house on Navassa is a USGS employee. But you can see he is 
hanging out there during field work the USGS was doing on the 
island with Haitian fishermen. And we have nothing against 
Haitian fishermen; we just think, again, it is an issue of 
fairness. Americans who propose to go to this refuge, under 
stringent guidelines that will protect the wildlife of the 
refuge and protect the flora and fauna of this refuge, should 
be given at least the same consideration. And quite frankly, I 
believe the statute requires it.
    Regarding access to Navassa, the Fish and Wildlife Service 
in 2000 stayed on a ship during their nights there, for a week 
or more. Every day, they climbed a ladder system that they tell 
amateur radio operators is too risky for them to use, and there 
was no mishap. And the only recommendation when they got back 
was to get a better ladder.
    This is a copy of the 2000 report that I was referring to. 
It comes from the Fish and Wildlife Service's records. I think 
this is very important because we are quoting here. Very recent 
fires, according to the agency, covering several acres were 
evident in at least two areas of the island. One near Lulu Bay 
may have been the result of a campfire. Neither group of 
Haitians admitted to harvesting boobies--those are birds--or 
their eggs; though a crew member of a vessel stated he saw a 
fisherman attract a booby by holding up a fish, then knocked it 
down with a stick.
    Yet these trespassers, who had no authorization to be there 
from the U.S. Government, were not told to leave. And 
Americans, who propose to go there under stringent regulations, 
cannot go there. And when they got back, they considered the 
permit program for Haitian trespassers.
    Desecheo is located about 14 miles from Puerto Rico. It is 
much smaller than Navassa, about 360 acres in size. It has been 
a refuge since 1976. The reason, according to the Fish and 
Wildlife Service, that this island is closed is because of 
unexploded ordnance. This island was a bombing range in the 
1940s and early 1950s. Also, drug smuggling, and illegal 
aliens.
    But what Congress doesn't know, and what the Fish and 
Wildlife Service hasn't disclosed to congressmen who inquire, 
or to amateur radio operators, is that the U.S. Army Corps of 
Engineers went to the island in 2002, surveyed it, identified 
old bombs, and characterized those old bombs as largely 
innocuous scrap. And then later in 2002, a Navy demolitions 
team went to the island and blew up all three bombs that they 
found.
    As a basis for closure regarding drug smuggling, the Fish 
and Wildlife Service includes incident reports from an area of 
up to 15 miles from Desecheo, which includes mainland Puerto 
Rico. And the records of the agency demonstrate that the last 
incident of drugs being found on the island was in 1990, when a 
bale of marijuana was found there, and that was 15 years ago.
    Regarding illegal aliens, we don't deny that they get on 
the island, trying to make their way to Puerto Rico. But no one 
has ever been harmed by them. Also, the Fish and Wildlife 
Service regularly camps on this island. They go out there to 
try to trap monkeys and shoot goats that the Health Institute 
released several years ago for research purposes. And they camp 
overnight on the old helipad; which is exactly where hams used 
to be allowed to go here, and to which we have proposed to go.
    You see now a copy of the compatibility determination for 
amateur radio for Desecheo. The compatibility determination 
says that amateur radio is not compatible because it is not 
safe.
    But if you look at the language of the compatibility 
determination--and it is in the materials I am submitting for 
the record--the Fish and Wildlife Service says there is no 
significant biological impacts anticipated from amateur radio 
use.
    And it also states that the greatest impact amateur radio 
would have on this island is the trampling of some grass. And 
we're assuming that means when the amateur radio operators were 
walking from the beach, where they land, to the helipad; if 
they don't land by helicopter, which is what the Fish and 
Wildlife Service does at times.
    This is a map from their files showing a route, one of the 
many routes on Desecheo the Fish and Wildlife Service uses to 
hike the interior. Their records show they have hiked this 
island extensively since 1979.
    Amateur radio operators have been good stewards of these 
island refuges, both in the Caribbean region and in the Pacific 
and other areas. The Fish and Wildlife Service's own records 
demonstrate that amateur radio's ``no trace left behind'' 
approach is working, and has worked.
    This is a copy of a special use permit issued to amateur 
radio operators before they were banned from going to this 
island. This is key, this document right here. This was 
attached to the special use permit. It is an outline drawing of 
the island of Desecheo. The crosshatched area is the area the 
Fish and Wildlife Service, from the 1970s, 1980s, and early 
1990s, identified for amateur radio operators to go, that was 
safe for them, and not to leave that perimeter. And the helipad 
is a tiny dot in that area.
    This is important because it demonstrates that the Fish and 
Wildlife Service, before they banned use, was doing the 
balancing that the 1997 statute requires; balancing a 
responsible, reasonable public access to a wildlife refuge, 
while protecting wildlife.
    And they are doing it, for example, in a national wildlife 
refuge in South Dakota, which is closed to the public. It is a 
nesting ground for eagles. It is called the Karl Mundt National 
Wildlife Refuge.
    So what the agency has done, they have teamed with the U.S. 
Army Corps of Engineers. They built a platform, an observation 
platform, on core land adjacent to the refuge. And visitors can 
go there and observe these beautiful birds from the platform. 
And it is no different from what they did here.
    Desecheo is not surrounded by adjacent land. It is 
surrounded by water. But what the Fish and Wildlife Service did 
is carved out an area where reasonable public access--whether 
it is for amateur radio, or bird watching, or any other 
activities that are compatible with this refuge--can be carried 
out.
    I am almost finished. I know I am running short on time. 
This is a copy of one of the Fish and Wildlife Service's 
reports. And it expressly says that amateur radio operators 
went to Desecheo, they have been very responsible, have 
complied with the conditions of their permits.
    The landing issue, which the Fish and Wildlife Service has 
brought up time and again, is not an issue. The Fish and 
Wildlife Service lands on Desecheo by helicopter or boat. 
Nothing in this information that they turned over indicates 
that anyone--hams, or otherwise--has ever been injured. The 
same for Navassa.
    One of the bills that we are supporting in Congress is H.R. 
1183. The Ranking Democrat on the House Resources Committee 
introduced it. It would require limited public access to 
Desecheo and Navassa. We support this bill, but really, the 
1997 statute already requires that. It requires the Fish and 
Wildlife Service to balance public access that is reasonable to 
the protection of wildlife. That is what they were doing 
before, and we think that they should do it again.
    I want to thank the committee, and I will try to answer any 
questions you have.
    [The prepared statement of Mr. Farrell follows:]

     Statement of Bradley A. Farrell, Fair Access to Island Refuges

    My name is Brad Farrell. I reside at 7423 Salford Court, 
Alexandria, Virginia. I am a lawyer practicing in the District of 
Columbia. I represent Fair Access to Island Refuges, or ``FAIR'' and I 
am an Amateur Radio operator, licensed by the Federal Communications 
Commission for 26 years. Our concern in the closing of the Desecheo and 
Navassa national wildlife refuges by the U.S. Fish and Wildlife Service 
to Americans who propose to lawfully visit these island refuges under 
stringent regulations while the Fish and Wildlife Service turns a blind 
eye to illegal and harmful use of these refuges.
    We thank the Fisheries Subcommittee for this opportunity to testify 
on the issue of public access to the nation's wildlife refuges.
1. Desecheo & Navassa Islands
    Desecheo Island is a small uninhabited island of about 360 acres 
which lies approximately 14 miles west of Puerto Rico in the Caribbean 
Sea. R. 35 at 2. The Fish and Wildlife Service has been trying for 
years to remove goats and monkeys from the island. The monkeys were 
released on Desecheo many years ago by the National Institutes of 
Health for research purposes.
    Navassa Island is located in the Caribbean Sea, approximately 40 
miles west of Haiti. R. 35 at 2. Navassa was once the site of a guano 
mining operation, and later served as the platform for a lighthouse 
built and maintained by the United States government.
2. Why Desecheo and Navassa Are Important to Amateur Radio
    Amateur Radio operators operated from Desecheo and Navassa for many 
years prior to the refuges being closed by the Fish and Wildlife 
Service. Amateur Radio operators seek to visit these islands to 
activate them for other Amateur Radio operators in the United States 
and throughout the world who seek to contact them and to obtain 
postcards that memorialize the contacts and tell something about the 
history and geography of each island. The operators who activate these 
island locations benefit because it allows them to practice operating 
from remote locations on non-commercial power and with small portable 
antennas, which is beneficial to this nation in times of emergency.
3. Fish and Wildlife Service Evidence
    During an administrative appeal, I obtained from the Fish and 
Wildlife Service over a thousand pages of the agency's internal 
documents and reports which, in my opinion, demonstrate that the Fish 
and Wildlife Service has insufficient grounds for closing the Desecheo 
and Navassa refuges and that in closing the islands and barring Amateur 
Radio and other lawful uses of these refuges, has violated the National 
Wildlife Refuge System Improvement Act of 1997 (``NWRSIA''). These 
documents constitute most of the administrative record for my appeal 
(the ``Appeal Record'') and I have referenced a number of them in my 
written remarks submitted to the Fisheries Subcommittee (identified 
herein by the abbreviation ``R.'').
    The NWRSIA, set forth in the United States Code beginning at 
Section 668dd, requires that the Fish and Wildlife Service determine 
whether a particular use of refuge be the product of sound professional 
judgment and that the Fish and Wildlife Service may bar use of a refuge 
if it materially interferes with the agency's mission in the refuge or 
on the basis of safety factors. The legislative history and an analysis 
of the statute, analysis of Fish and Wildlife Service internal 
documents, and how the Fish and Wildlife Service is violating the Act 
receives extensive treatment in my initial administrative appeal brief, 
which I have submitted to the Fisheries Subcommittee for the record in 
this proceeding.
    The Fish and Wildlife Service has allowed Amateur Radio use of its 
island refuges in the Pacific Ocean. In fact, the agency's Pacific 
department has embraced Amateur Radio visits to the refuges under its 
jurisdictions, despite the fact that many of the same issues affecting 
the Caribbean islands also affect wildlife refuges in the Pacific. 
Unfortunately, the Fish and Wildlife Service has begun making it 
considerably more difficult and expensive for the public to visit the 
island refuges in the Pacific. Bob Allphin will discuss his experiences 
in visiting Pacific refuges for Amateur Radio operations during his 
remarks.
    In the Caribbean, however, the Fish and Wildlife Service has closed 
Desecheo and Navassa refuges on the basis of purported safety issues, 
i.e., unexploded ordnance, illegal aliens and drug smugglers on 
Desecheo and on the basis of Navassa's sensitive ecology. However, the 
agency's own records and other evidence do not, in our view, support 
the agency's decision-making. Fish and Wildlife Service records are 
devoid of any evidence that Amateur Radio operators were ever 
threatened or harmed by illegal aliens, drug smugglers or ordnance. In 
fact, the Refuge Manager has admitted that the agency is aware of no 
one who has been harmed in the Refuges by the purported threats. R. 35 
at 7, R. 44 at 2. The fact that no one has been harmed on these islands 
is further supported by the verifications of two Amateur Radio 
operators that are included in the Appeal Record. R. 183, R. 182.
    The evidence demonstrates that the Fish and Wildlife's position is 
the progeny of unsubstantiated and speculative assertions not grounded 
in evidence, upon which layer by layer, year after year, the same 
misapplication of the statute was perpetuated by service personnel who 
exceeded their authority under the NWRSIA by actively discouraging, 
through deceptions and misrepresentations, lawful use of the Refuges. 
The unlawful position ultimately endorsed by the agency director 
mischaracterized and misconstrued the NWRSIA, and was incorrectly 
represented to be the law to applicants for permits for Amateur Radio 
use of the Refuges and to Members of Congress who inquired about 
Amateur Radio use of Desecheo and Navassa. The result is that the Fish 
and Wildlife Service has barred lawful, reasonable use of the Refuges 
pursuant to agency regulations while simultaneously allowing 
trespassers to enter the Refuges, unchecked and without repercussions 
despite the agency's knowledge that trespassers are harming the 
Refuges.
    The Fish and Wildlife Service evidence provides merely speculative 
support for the Fish and Wildlife Service's conclusion that there is 
risk of harm on Desecheo Island to Amateur Radio operators by illegal 
aliens, drug smugglers or ordnance, if any. Indeed, the Fish and 
Wildlife Service's own records clearly demonstrate that (1) the 
agency's assertions concerning alleged safety issues in the Desecheo 
Refuge are speculative or baseless and fall short of the evidentiary 
standards established by the federal courts (See e.g., Arizona Cattle 
Growers' Ass'n v. U.S. Fish and Wildlife Service, 273 F.3d 1229 (9th 
Cir. 2001)), and (2) the agency's assertions concerning the purported 
sensitive ecology in the Navassa Refuge are fabrications, belied, in 
part, by the Refuge Office's own internal reports, and its discussion 
of adopting a formal permit program that would formally recognize the 
presence on Navassa Island of alien transients who are likely 
responsible for setting fires and harming wildlife on the island.
    Neither compatibility determination for Desecheo or Navassa nor any 
Fish and Wildlife Service records so much as suggest that that Amateur 
Radio use of these refuges would disturb or harm wildlife.
4. The Desecheo Refuge
a. Compatibility
    The Desecheo Compatibility Determination states that the Refuge 
Office anticipates ``No significant biological impacts'' and that only 
``Minor disturbance (e.g., trampling of vegetation) would occur due to 
the transport of equipment across refuge property and use of the 
campsite.'' R. 1. The Compatibility Determination does not conclude 
that Amateur Radio is incompatible with the Desecheo Refuge, and, in 
fact, supports the Fish and Wildlife Service's prior view that Amateur 
Radio is a compatible use of the Desecheo Refuge. Instead, the 
Compatibility Determination identifies three safety factors as a basis 
for closing Desecheo.
b. Purported Safety Factors
    <bullet>  ``unexploded ordnance'' from Desecheo's bombing range 
days;
    <bullet>  Desecheo served ``as a drop-off point for illegal 
aliens''; and
    <bullet>  drug trafficking ``is common in the area.''
    R. 1.
a. Unexploded Ordnance
    Desecheo's bombing range days ended in the early 1950s. Ordnance on 
Desecheo, if any exists, does not present a threat to visitors who 
abide by the conditions of use the Fish and Wildlife Service imposed 
upon visitors for many years. The Fish and Wildlife Service required 
Amateur Radio operators to stay within an area the agency concluded was 
free of ordnance, primarily near the helipad, which is a large concrete 
slab. This is demonstrated by the many special use permits issued by 
the agency prior to 1993 which included maps of Desecheo, clearly 
outlining a perimeter to which Amateur Radio operators were to confine 
their activities.
    The agency's own records demonstrate that the Fish and Wildlife 
Service has never considered ordnance on Desecheo Island other than a 
marginal risk. Fish and Wildlife Service personnel have been visiting 
Desecheo Island for at least 30 years and have hiked the island 
extensively. R. 151, 158-160, 162-167, 170-171, 174-175. Nevertheless, 
the U.S. Army Corps of Engineers inspected Desecheo Island for ordnance 
in March 2002. R. 140, R. 170. During the inspection, Corps personnel 
examined old bombs and fragments on Desecheo Island, concluded that 
most of the objects they found were ``innocuous scrap'', and assessed 
the risk of harm from the six rusting and damaged bombs found as 
``low'' or ``marginal.'' R. 140 at 6-1-6-3, 7-, R. 140 App. D-1 at 11. 
This information is contained in a report issued by the Corps in 2002 
about its inspection and extensive review of historical data concerning 
Desecheo Island. The report was issued in June 2002. R. 140.
    Ordnance identified on the island was destroyed by a United States 
Navy demolitions team as verified by a report dated December 19, 2002 
verifies. R. 200. Thus, the ``innocuous scrap'' identified by the Army 
Corps of Engineers was, apparently out of an abundance of caution, 
destroyed. According to the report, three bombs were detonated. The 
demolitions team reported that it was unable to detonate three shells 
the Fish and Wildlife Service had identified in hilly terrain which is 
not near the area Amateur Radio operators have operated from in the 
past.
b. Illegal Aliens & Drug Traffickers on Desecheo Island
    The Fish and Wildlife Service has taken into account reported 
activity up to fifteen miles outside the Desecheo Refuge. The Fish and 
Wildlife Service has produced no evidence that any illegal aliens have 
ever threatened or harmed anyone on Desecheo. A letter authored by the 
Desecheo refuge manager on September 25, 2003 letter is telling: ``The 
Service does not have direct evidence that such intercepts have or 
would put visitors at risk[.]'' R. 35 at 3 ] 7.
    Furthermore, there is no evidence to support the Fish and Wildlife 
Service's assertion ``that almost all migrant and drug smuggling 
ventures'' use Desecheo Island ``as a referential landmark, a rest 
area, a temporary hideout pending cover of darkness or for 
emergencies''. Fish and Wildlife Service records include no evidence to 
show that illegal aliens or illegal drug traffickers pose any more of a 
threat on Desecheo Island than do illegal aliens or drug traffickers 
anywhere else in the United States. The only evidence of drug 
trafficking on Desecheo Island produced by the Fish and Wildlife 
Service was of a stash of marijuana found in the old cable house in 
1990--and that was fifteen years ago. R. 147.
c. Landing on Desecheo Island Can be Done Safely
    The Fish and Wildlife Service asserts that there is ``no landing 
site but rather a small boat has to be brought to the shore at 
Desecheo[.]'' R. 40 at 2. Desecheo has a cove and beach area adjacent 
to the proposed operating site on the Helipad that is ideal for landing 
on the island and has been used in the past by Amateur Radio operators 
authorized to land on the island. R. 196 at 12 (original document page 
14). There is no evidence in the Fish and Wildlife Service records to 
show that Fish and Wildlife Service personnel or other government 
personnel who enter the Desecheo Refuge frequently to hunt goats or 
trap monkeys have been injured landing on or departing from the island. 
There is no evidence that anyone who has ever visited Desecheo has been 
injured landing on or departing from the island by sea or otherwise.
    An unsolicited e-mail message in which a Michigan man who was 
denied a special use permit for Amateur Radio, details his telephone 
conversation with the Desecheo refuge manager who informed him that she 
has visited Desecheo Island with her family. If this is true, it 
supports the other evidence which demonstrates that Desecheo is safe 
for access by other than non-government employees. A copy of the e-mail 
message is submitted to the Fisheries Subcommittee for the record.
5. The Navassa Refuge
    The Navassa refuge is being used by fishermen from Haiti as a 
campground and the fishermen have harmed the refuge and its wildlife. 
The Fish and Wildlife Service has been aware of this since at least 
2000 and has chosen to do nothing about it, all the while barring from 
the refuge Americans who seek to visit the island for lawful reasons 
consistent with the NWRSIA.
a. Compatibility
    The Navassa Compatibility Determination does not address Amateur 
Radio use of the refuge. It concludes that ``it is unclear at present 
what negative impacts might result'' from various ``recreational 
activities.'' R. 2 at 2. The Compatibility Determination addresses 
proposed ``wildlife-dependent recreation'', R. 2, stating, in part: 
``Use of the island for recreational purposes could substantially 
impact a number of terrestrial species, most notably nesting birds such 
as the Red-footed Booby'' and ``Traditional uses of the area (e.g., 
subsistence fishing) should not have a significant impact on trust 
resources if the level of activity remains constant.''
    The Fish and Wildlife Service typically tells applicants seeking 
Amateur Radio use permits for Navassa that the island's ecology is in 
such a sensitive state that visitors are not allowed on the island. 
However, a May 2000 Fish and Wildlife Service internal report prepared 
by the Refuge Office states that the marine habitat surrounding Navassa 
Island is in ``excellent condition'', and is ``very healthy''. R. 161 
at 1, 3. Scientists who have surveyed Navassa support the Fish and 
Wildlife Service's conclusions, stating that Navassa is a ``pristine 
and entirely unexploited marine habitat'' and is a habitat ``that may 
remain in a relatively unexploited state.'' R. 25 at 46 (original 
document page numbers). No evidence supports the agency's assertion 
that the ``flora and fauna'' of Navassa are in a sensitive state. 
Furthermore, information obtained from the U.S. Geological Survey 
internet site shows considerable photographic evidenced that USGS 
personnel roamed extensively over Navassa Island on foot. R. 23 at 3. 
Presumably, there was no impact from their exploration on the ecology 
or flora and fauna of Navassa Island nor any material interference with 
the Fish and Wildlife Service's purpose and mission in the Refuge. It 
stands to reason that Amateur Radio operators confined to a tiny 
perimeter on the edge of the Navassa Refuge for a brief period would 
have even less impact on the Refuge's ecology.
b. Navassa is a Campground for Haitian Fishermen
    The Fish and Wildlife Service's records reveal that Navassa is a 
camp-ground for Haitian fishermen who fish the surrounding waters and 
that the agency is content to do nothing about the harm caused by these 
trespassers--even considering encouraging the fishermen to visit the 
island through a permit program. The agency's report for field work in 
the Navassa refuge for the year 2000 states that fires had been started 
on the island, that fishermen reported seeing other Haitians harm 
wildlife, and that Fish and Wildlife Service personnel, learning about 
the harm the fishermen caused the refuge, didn't bother to tell the 
Haitians to leave the island. When Fish and Wildlife Service personnel 
returned to their office in Puerto Rico and prepared their report, they 
recommended that permits be issued for Haitians to go to Navassa. R. 
161 at 5.
    The Navassa Compatibility Determination concludes that 
``Traditional uses of the area (e.g., subsistence fishing) should not 
have a significant impact'' on Navassa. R. 161 at 4. The evidence shows 
that traditional uses are camping by subsistence fishermen who roam 
Navassa Island at will, start fires and harm wildlife. The Fish and 
Wildlife Service has made no attempt to prevent fishermen from entering 
or camping on Navassa Island. If such traditional use of the Refuge 
should not have a significant impact on the refuge as the Fish and 
Wildlife Service has concluded, then it stands to reason that Amateur 
Radio activity, a temporary, passive presence confined to the very edge 
of the Refuge, will not have a significant impact, if any, on Navassa 
Island. United States citizens whose taxes pay to support the national 
wildlife refuge system, who propose to use the Navassa Refuge for 
compatible, lawful activity under agency supervision, are denied use of 
the Navassa Refuge in favor of illegal aliens the Fish and Wildlife 
Service encourages to continue unauthorized and uncontrolled habitation 
of the island and its waters.
c. Landing on Navassa Island Can be Done Safely
    The Fish and Wildlife Service asserts that there is ``no landing 
site'' but rather ``cliffs have to be climbed from a small boat at 
Navassa.'' R. 40 at 2. Helicopter landings on Navassa have been used by 
government personnel in the past and are the easiest and safest way of 
getting on and off the island. A ladder has been safely used to access 
Navassa by Fish and Wildlife Service personnel and Amateur Radio 
operators, R. 182, without known mishap. The Fish and Wildlife Service 
admits that landing on Navassa Island is difficult but not impossible. 
R. 161 at 1. Surely landing on Navassa Island cannot be as difficult as 
the Fish and Wildlife Service suggests, if agency personnel Joseph 
Schwagerl, Beverly Yoshioka, and Glen Callingford spent nights on a 
research vessel offshore during field work, R. 30 at 2, only to have to 
climb on and then off the island six times during three day-trips to 
the island, using a ladder. Id. When the field team returned to base 
that year, the only recommendation regarding improved access to Navassa 
was to suggest installing a better ladder. R. 30.
6. Distance & Law Enforcement
    Neither Desecheo nor Navassa are remote because both Refuges are 
easily accessible by existing licensed aviation and marine charter 
transport services. R. 161 at 1, R. 197. As the Fish and Wildlife 
Service has previously demonstrated in issuing special use permits for 
Amateur Radio use of Baker Island in the Pacific, the remoteness of a 
refuge was not a factor. No law enforcement personnel were dispatched 
to accompany the visitors into the Baker refuge, which is some sixteen 
hundred miles from Hawaii. Desecheo is 14 miles from Puerto Rico; 
Navassa is 40 miles from Haiti.
    Congress has not mandated that the Fish and Wildlife Service 
``maintain a law enforcement presence'' in the Refuge, nor does the 
Fish and Wildlife Service have any legal basis for asserting that it is 
required to do so, or make the presence of law enforcement personnel in 
the Refuge a condition precedent to authorizing visitors to the island. 
The Fish and Wildlife Service did not require a law enforcement 
presence in the Baker Island Refuge as a prerequisite to issuing a 
special use permit for the Baker Island Operation. R. 190.
    Remarkably, the Fish and Wildlife Service has stated that it is 
willing to place its personnel at risk on Desecheo and Navassa but not 
non-government visitors. We know of no law or regulation that would 
allow the Fish and Wildlife Service to subject its civilian employees 
to such risks and it is unreasonable to believe that any government 
agency other than military or law enforcement departments of the 
government would do so.
7. Costs
    The Fish and Wildlife Service has indicated that it does not have 
sufficient funding to allow access to the Desecheo and Navassa refuges. 
In my application for special use permits for Amateur Radio on Desecheo 
and Navassa, and in subsequent conversations with the agency, I offered 
to pay for the cost of sending up to two Fish and Wildlife Service 
field personnel to the refuges to supervise us, and to pay for 
transportation to and from the island. The Fish and Wildlife Service 
required a similar obligation by Amateur Radio operators for the Baker 
Island visit in 2002. Proposals of this kind, if granted by the agency, 
would entail no additional costs above and beyond the administrative 
costs of reviewing the applications. I have proposed a means by which 
the Fish and Wildlife Service could reduce the administrative time and 
costs necessary to reviewing application in my initial appeal brief 
(pages 77-79).
8. Conclusion
    Amateur Radio is a compatible use of the Desecheo and Navassa 
refuges. Only speculative evidence, at best, suggests the presence of 
safety factors, and the Fish and Wildlife Service's prior issuance of 
permits for Amateur Radio for Desecheo and permits for Navassa issued 
by other agencies demonstrate that safety is not an issue. Furthermore, 
the closure of Desecheo and Navassa have barred lawful, compatible uses 
of these refuges consistent with the NWRSIA, leaving the islands to be 
harmed by trespassers.
    The NWRSIA and its legislative history require the Fish and 
Wildlife Service to balance protection of wildlife and responsible 
public access. The relevant facts support reasonable, responsible 
public use of the Desecheo and Navassa national wildlife refuges, not 
just for Amateur Radio, but for all Americans who desire to go there to 
enjoy and appreciate these island refuges. If the agency is concerned 
about opening the floodgates of public use, then it can, under existing 
regulations, or through additional rule-making, adopt guidelines for 
applications for special use permits that will allow an appropriate 
degree of access to the refuges, as envisioned by the NWRSIA.
    H.R. 1183, introduced by Congressman Nick Rahall, the Ranking 
Member of the House Resources Committee, addresses these issues and 
would allow limited public access of these island habitats.
    NOTE: Additional information submitted for the record by Mr. 
Farrell has been retained in the Committee's official files.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Farrell. And we 
will now hear from Mr. Robert Allphin.
    Mr. Allphin. It is pronounced ALL-phin.
    Mr. Gilchrest. ALL-phin.
    Mr. Allphin. But that's been a problem all my life. Thank 
you.
    Mr. Gilchrest. ALL-phin.

                STATEMENT OF ROBERT C. ALLPHIN, 
                 FAIR ACCESS TO ISLAND REFUGES

    Mr. Allphin. My name is Bob Allphin. I reside at 4235 
Blackland Drive, Marietta, Georgia. And I have two red-tail 
hawks nesting in my back yard.
    Mr. Gilchrest. Really?
    Mr. Allphin. However, I only observe them through 
binoculars, so I appreciate the opportunity to see one up close 
and personal.
    Mr. Gilchrest. That's great.
    Mr. Allphin. Thank you for that.
    Mr. Gilchrest. You are welcome.
    Mr. Allphin. I represent Fair Access to Island Refuges, or 
FAIR. And I wish to thank the Subcommittee for the opportunity 
to testify on the issue of public access to certain U.S. 
wildlife refuges.
    I am enjoying an early retirement and my family, two young 
grandchildren, travel, and my hobby that has interested me 
since I was a young boy: amateur radio, sometimes called ``ham 
radio.'' I have held an amateur radio license for 47 years, 
since I was 13 years old. And I am one of 700,000 federally 
licensed amateur radio operators in the United States, and 
among several million worldwide.
    Although the hobby is very diverse, you are probably most 
familiar with a certain facet of the hobby that involves 
emergency communications. If you have ever been directly 
affected by a hurricane or a tornado or a flood, or read 
accounts of the aftermath of September 11th or, more recently, 
the tsunami in the Indian Ocean, then you have read about the 
emergency communications role played by unpaid volunteers with 
their ham radios.
    On a national level, hams operate through the Radio Amateur 
Civil Emergency Service, or RACES, which is coordinated through 
FEMA, and Amateur Radio Emergency Service, ARES, which is 
coordinated through our national organization, the American 
Radio Relay League, and its field volunteers. In those areas of 
America where there are tornadoes and hurricanes, many hams are 
involved in Skywarn, which operates under the National Weather 
Service.
    Other hams have entirely different interests, ranging from 
amateur television, antenna design and experimentation, 
bouncing signals off our own satellites that we have launched, 
and even sometimes bouncing signals off the moon. Some just 
enjoy shooting the breeze with a fellow ham in a neighboring 
state, or on the other side of the world.
    However, my interest involves transmitting and contacting 
other hams worldwide while I am visiting rare and out-of-the-
way places. This way, I combine two of my passions, two of my 
interests, travel and hamming. Thus far, I have operated my ham 
radio from 42 different countries.
    Now, while most hams with interests similar to mine are on 
the receiving end of these radio contacts, and they are making 
them from ham radios in their living room or their den or their 
basement; I am among those few who travel to those out-of-the-
way places.
    And these places are typically where there are no hams, no 
resident hams, or for whatever reason, there is little or no 
radio activity. These places are usually uninhabited, isolated, 
or politically difficult. In our ham radio world, there are 335 
of these places, called ``entities.'' They range from entities 
as large as Russia, Canada, or the USA, to as small as Kingman 
Reef in the Pacific Ocean, which is about 1,000 miles southwest 
of Hawaii, and is nothing more than a spit of land about 450 
feet long, 25 feet wide, and 5 feet above water at high tide.
    These are all entities for amateur radio purposes, and hams 
collect contacts with these entities, much like other citizens 
collect stamps, coins, art, or sports memorabilia. Many of 
these entities are in the Caribbean and Pacific regions, and 
are administered by the U.S. Fish and Wildlife.
    Here is a sample of those confirmation cards that are 
sought after the contact is made. This is a card from Navassa 
in 1988 for an amateur radio operation there. And this is a 
card from Desecheo for contacts made in 1985.
    Mr. Gilchrest. Where do you get those cards from?
    Mr. Allphin. After the radio contact is made, the person 
who made the contact requests these confirmation cards, and 
adds them to their collection. And in addition, they can apply 
for certain awards.
    Mr. Gilchrest. Who makes up the cards?
    Mr. Allphin. Generally, they are made up by the members of 
the expedition.
    Mr. Gilchrest. Oh. Interesting.
    Mr. Allphin. Now, of course, the other benefit is that the 
operators themselves in these isolated places are honing their 
emergency operating skills, using small, portable antennas and 
small radios and emergency power.
    We have brought along with us an example of some of those 
small radios, that are back here in the back of the room. One 
of the small devices is the radio itself. The other is the 
power supply. And there is a sample of modern technology in 
terms of antennas.
    I just thought it might be interesting to point out that we 
are not talking about setting up large towers 100 feet tall, or 
anything like that. We can accomplish what we want to 
accomplish with some mighty small footprints, if you will.
    Mr. Gilchrest. Are they on right now, so other ham 
operators can hear the hearing?
    Mr. Allphin. They are not. If we had gotten here a little 
earlier, we might have been able to hook that up.
    Mr. Gilchrest. We should have accommodated that.
    Mr. Allphin. I want to point out that over the years there 
has been a good partnership between amateur radio operators and 
the Fish and Wildlife Service. In fact, there remains a very 
good partnership between Fish and Wildlife and amateur radio 
operators in the Pacific region. But unfortunately, in recent 
years, not so good in the Caribbean area, as part of the 
southeastern region. It is like they are operating under a 
different set of rules, or maybe different legislation.
    Oftentimes, when amateur radio operators apply for and 
receive a permit to visit and operate their radios from a 
refuge, Fish and Wildlife personnel will accompany them. This 
allows Fish and Wildlife personnel to visit the refuge and do 
their work more frequently than might otherwise be possible 
during times of budgetary restrictions.
    Of course, with Fish and Wildlife personnel on hand, they 
can also be sure that the ham visitors stay within the 
restrictions of their permit that require that their visit have 
little or no impact on the local ecology, the environment, or 
wildlife.
    Needless to say, this cooperative relationship also allows 
a few fortunate citizens a chance to visit and enjoy places 
that most U.S. citizens will never have the opportunity to see 
or experience.
    As an example, in January 1993, I was part of a ham radio 
expedition to Howland Island, one of the refuges in the 
Pacific. As a matter of interest, this is the island that 
Amelia Earhart and her navigator, Fred Noonan, were looking for 
when they disappeared in 1937.
    We sailed to Howland on an 85-foot schooner that our group 
had chartered, and were accompanied by two Fish and Wildlife 
employees. One was Dr. Beth Flint, a Fish and Wildlife Service 
biologist. I am quoting her directly, ``I hope you guys take 
advantage of this opportunity. You're going to a place that, 
unfortunately, most of the public never, ever gets to see, even 
though it belongs to them. These places just can't tolerate a 
lot of public use, for obvious reasons. We are delighted when 
some people get to use it, and hope that you will become 
advocates for these resources.''
    She also said, ``It's pretty easy to operate without 
causing death and destruction, if you're real careful. I'll be 
able to teach you guys how to do it without having to cause 
mortality to the birds.''
    When we arrived at Howland Island, she and the other Fish 
and Wildlife employee, Mr. Dave Woodside, went ashore in the 
first Zodiac, and surveyed the area. They marked the nesting 
colonies with colored flags, and then marked where we could put 
up our tents and antennas. Since we had two camp sites, she 
marked a clear pathway between the sites.
    Dr. Flint spent considerable time with us, showing what to 
do and what not to do in order to protect the birds. And for 
those of us who wanted to learn more, she was a wealth of 
information. It was much like a high school field trip, for 
those of us that didn't want to spend all of the time on the 
radios.
    I have also operated ham radios from Kingman Reef, that 
spit of land that I mentioned earlier, and on nearby Palmyra 
Island. Although the islands were not under Fish and Wildlife 
control at that time, in October of 2000, in January of 2001, 
the had become Fish and Wildlife refuges. I notice on the Fish 
and Wildlife website that Kingman Reef, not unpredictably, is 
now closed to public access.
    Today, there continues to be an excellent relationship 
between the Fish and Wildlife Service in the Pacific area and 
amateur radio operators. In fact, as recently as 2002, a permit 
was granted to a Yugoslav citizen who led a multinational team 
of radio operators to the Baker Island refuge.
    In the Caribbean, it is a different story. We are not sure 
why. At least 16 requests for permits from radio amateurs to 
visit these two refuges, Navassa and Desecheo, have been turned 
down in the last ten years. The most recent denial was in March 
of this year.
    Prior to 1992, permits were issued with regularity. The 
reasons cited for the refusals are usually the same, time and 
time again. As Mr. Farrell has already testified, Fish and 
Wildlife's own records contain evidence that amateur radio is 
indeed a compatible activity, under current legislation. And 
the reasons given for the denial of access may be less than 
accurate or truthful.
    Personally, I have been involved with two groups that have 
requested permits to visit Desecheo. One application filed by 
Dr. Carl Henson--I'm sorry, Mr. Carl Henson--of Virginia, and 
the other by Mr. Farrell, himself. Both requests were denied.
    Mr. Gilchrest. Mr. Allphin----
    Mr. Allphin. Yes, sir.
    Mr. Gilchrest.--I am just going to interrupt you for a 
second. This is a fascinating story. We have other pressures. 
You are about into ten minutes now. We have your testimony. So 
if you could just wrap up.
    Mr. Allphin. Yes, sir. I'm sorry. My time remaining says 
``5.20.''
    Mr. Gilchrest. I think that is 5.20 over the original five 
minutes.
    Mr. Allphin. Oh. OK. I'm sorry.
    Mr. Gilchrest. That is all right.
    Mr. Allphin. I fully understand the problem.
    Mr. Gilchrest. Thank you.
    Mr. Allphin. I think I can finish in about 60 seconds, if 
that will be all right. I just want to point out that the 
United States is not the only country that has ecologically 
sensitive and pristine ecosystems. In 1997, I and a group of 19 
others applied to the Australian Government for a permit to 
visit Heard Island. That island is a protected area, the 
subject of a management plan covered by 13 different pieces of 
legislation. It is also a national historic landmark. We have 
also operated from Thule Island, and from South Georgia, 
pristine islands owned by the U.K.
    I guess the point--and in summary--is that while Fish and 
Wildlife, amateur radio operators, and the wildlife benefit 
from a cooperative relationship in the Pacific, and other 
nations cooperate with U.S. amateur radio operators and allow 
access to their pristine, sensitive, and important areas, why 
is it--why is it--that with the Caribbean region of Fish and 
Wildlife we are continuously denied access to Desecheo and 
Navassa?
    Again, I apologize for misunderstanding the system. This is 
my first, and probably last, time----
    [Laughter.]
    Mr. Allphin.--of speaking in front of a Subcommittee. And I 
want to thank you all for that opportunity.
    [The prepared statement of Mr. Allphin follows:]

                 Statement of Robert C. Allphin, Jr., 
                     Fair Access to Island Refuges

    My name is Bob Allphin; I reside at 4235 Blackland Drive, Marietta, 
Ga. Like Mr. Farrell, I represent Fair Access to Island Refuges, or 
``FAIR''. I wish to thank the Subcommittee for this opportunity to 
testify on the issue of public access to the certain U.S. wildlife 
refuges.
    I am enjoying an early retirement and enjoying my family, 2 young 
grandchildren, travel and my hobby that has interested me since I was a 
young boy-Amateur Radio also known as Ham Radio. I have held an amateur 
radio license for 47 years since I was 13 years old and am one of 
700,000 federally licensed amateur radio operators in the U.S. and 
among several million worldwide. Although the hobby is very diverse, we 
are probably best known for providing what is sometimes the only 
communications available during National and local emergencies. If you 
have ever been directly affected by a hurricane, tornado, flood or read 
accounts of the aftermath of Sept. 11th or more recently, the Tsunami 
in the Indian Ocean you have heard of the emergency communications role 
played by unpaid volunteers with their ham radios.
    On a National level, hams operate through the Radio Amateur Civil 
Emergency Service (RACES), which is coordinated through the Federal 
Emergency Management Agency (FEMA), and the Amateur Radio Emergency 
Service (ARES), which is coordinated through the American Radio Relay 
League and its field volunteers. In those areas prone to tornados and 
hurricanes, many hams are involved in Skywarn, which operates under the 
National Weather Service.
    Other hams have entirely different interests ranging from amateur 
television, antenna design and experimentation to bouncing signals off 
our own satellites that we have launched and even sometimes off the 
moon. Some just like ``shooting the breeze'' with a fellow ham in a 
neighboring state or around the world. However, my interest involves 
transmitting and contacting others hams worldwide while I am visiting 
rare and out of the way places. This way I combine two of my 
interests--travel and hamming. Thus far I have operated my ham radio 
from 42 different countries.
    While most hams with interests similar to mine are on the receiving 
end of these contacts and are made from their ham radios in their 
living room or den at home, I am among those who travel to those out of 
way places where few hams may live or for whatever reason, there is 
little or no radio activity. These places are usually uninhabited, 
isolated or politically difficult. In our ham radio world there are 335 
of these places, called entities. The range from entities as large as 
Russia, Canada or the USA to as small as Kingman Reef in the Pacific 
Ocean about 1000 mile SW of Hawaii, which is nothing more than a spit 
of sand about 450 ft long, 25 feet wide and 5 feet above water at high 
tide. These are all entities for amateur radio purposes and hams 
collect contacts with these entities much like others collect stamps, 
coins, art or sports memorabilia. The U.S. Fish and Wildlife Service in 
the Caribbean and Pacific regions administer a number of these 
entities.
    Over the years there has been a good partnership between amateur 
radio operators and the FWS. In fact, there remains a very good 
partnership between FWS and Amateur Radio operators in the Pacific 
region, but unfortunately in recent years not so good in the Caribbean 
area. It's like they are operating under a different set of rules of 
different legislation.
    Oftentimes, when amateur radio operators apply for and receive a 
permit to visit and operate their radios from a refuge, FWS personnel 
will accompany them. This allows the FWS personnel to visit the refuge 
and do their work more frequently than might otherwise be possible 
during times of budgetary restrictions. Of course, with FWS personnel 
on hand they can also be sure that the ham visitors stay within the 
restrictions of their permit that require that their visit has little 
or no impact on the local ecology, environment or wildlife. Needless to 
say, this cooperative relationship also allows a few fortunate citizens 
the chance to visit and enjoy places that most U.S. citizens will never 
have the opportunity to see or experience.
    In Jan. 1993, I was part of a Ham radio expedition to Howland 
Island, one of the Refuges in the Pacific. As a matter of interest, 
this is the island that Amelia Earhart and her navigator, Fred Noonan 
were looking for when they disappeared in 1937. We sailed to Howland on 
an 85-foot schooner that our group chartered and were accompanied by 2 
FWS employees. One was Dr. Beth Flint, a FWS biologist. I am quoting 
her directly--I hope you guys take advantage of this opportunity. You 
are going to a place that, unfortunately most of the public never, 
ever, gets to see even though it belongs to them. These places just 
can't tolerate a lot of public use for obvious reasons. We are 
delighted when some people get to use it and we hope you will become 
advocates for these resources.''
    She also said, ``It's pretty easy to operate without causing death 
and destruction if you're real careful''..I'll be able to teach you 
guys how to do it without having to cause mortality to the birds.''
    When we arrived at Howland Island, she and the other FWS employee, 
Mr. Dave Woodside went ashore in the first zodiac and surveyed the 
area. They marked the nesting colonies with colored flags and then 
marked where we could put up our tents and antennas. Since we had 2 
campsites, she marked a clear pathway between the sites. Dr. Flint 
spent considerable time with us showing us what to do and not to do to 
protect the birds. And for those of us who wanted to learn more, she 
was a wealth of information. It was much like a high school field trip 
for those of us that who didn't want to spend all their time on the 
radios.
    I have also operated ham radios from Kingman Reef, that spit of 
sand that I mentioned earlier and on nearby Palmyra Island. Although 
the islands were not under FWS control at that time in October, 2000; 
in early 2001 they both became FWS refuges.
    Today, there continues to be an excellent relationship between the 
FWS in the Pacific area and amateur radio operators. In fact, as 
recently as 2002 a permit was granted to a Yugoslav citizen who led a 
multi-national team of radio operators to the Baker Island Refuge.
    In the Caribbean it is a different story. We are not sure why. At 
least 16 requests for permits from radio amateurs to visit two refuges, 
Navassa and Desecheo, have been turned down in the last 10 years. The 
most recent denial was in March of this year. Prior to 1992, permits 
were issued with regularity.
    The reasons cited for the refusals are usually the same time and 
time again. As Mr. Farrell has already testified, FWS own records 
contain evidence that Amateur radio is a compatible activity under 
current legislation and the reasons given for denial of access may be 
less than accurate or truthful.
    Personally, I have been involved with two groups that have 
requested permits to visit Desecheo. One application filed by Mr. Carl 
Henson of Virginia and the other by Mr. Farrell. Both requests were 
denied despite our willingness to sign any releases or waivers that 
might be requested, submission to any reasonable restrictions imposed 
by FWS upon our operations to protect the environment and wildlife and 
our offer to have FWS personnel accompany us. Yet we were denied!
    In late 2002, I represented a small group of hams and submitted a 
written proposal for a joint operation on Desecheo with 8-10 amateur 
radio operators and the Puerto Rico Emergency Management Agency. We 
were working with Mr. Raphael Guzman, Executive Director, who happens 
to be a ham, and he was interested in pursuing the idea of joint 
emergency communications exercise to help train his personnel. We also 
proposed that the training exercise be highly publicized and used to 
provide visibility and recognition for the 100th Anniversary of the 
U.S. Refuge System. Our proposal was to help bring a higher level of 
understanding and appreciation by the general public of the USFWS and 
the U.S. Refuge System. It would have also publicized PREMA. Mr. Guzman 
met with FWS personnel in Puerto Rico, presented our plan and he was 
denied permission for this training exercise.
    The United States is not the only country that has ecologically 
sensitive and pristine ecosystems scattered around the globe. In 1997, 
I and a group of 19 other amateur radio operators applied for and 
received a permit from the Australian government to conduct radio 
operations from Heard Island. Heard Island is one of the world's rare 
pristine island ecosystems and lies in the complete absence of alien 
plants and animals, as well as human impact. Heard Island is a 
protected area and the subject of 13 different acts of protective 
legislation. It is also the site of an old Antarctic research base that 
is a national historic landmark. We sent 16 days on the island camped 
right next to this historic landmark. We complied with all of the many 
restrictions placed upon us and were able to enjoy this very special 
place--thanks to the Australian government.
    In 2000, I and a small group of 12 amateur radio operators were 
given permits to set up camp and operate our radios from Thule Island, 
the southernmost island in the South Sandwich Island group near 
Antarctica. This island is the home of one of the largest 
concentrations of Chinstrap penguins in the world and a protectorate of 
the United Kingman.
    We also spent 12 days on South Georgia Island, one of the most 
prolific wildlife areas in the world. South Georgia is home to the 
greatest concentration of Antarctic and sub-Antarctic wildlife on the 
planet. In the summer, there are 2.2 million fur seals crowding the 
shoreline; 95% of the world's population. The 360,000 elephant seals 
that breed on the island is more than half the world's population. A 
very special place, a protectorate of the UK, and available to amateur 
radio operators, under strict conditions.
    In summary, while the FWS and amateur radio operators and the 
wildlife benefit from a cooperative relationship in the Pacific region, 
and other nations cooperate with U.S. amateur radio operators and allow 
access to their pristine, sensitive and important areas around the 
world, why is it that in the Caribbean region of the FWS we are 
continuously denied access to Desecheo and Navassa Island refuges? How 
can this U.S. agency discriminate against American citizens, the owners 
of these islands, when the 1963 Act clearly requires that the 
Department of the Interior to use a nationwide approach to 
administering our wildlife refuges. Something is wrong. Something is 
not right! My thanks to the subcommittee for allowing me to testify but 
more importantly for thanks looking into these important questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Allphin. we would 
like to have you back numerous times.
    We do have one vote. Is it just one vote? I think what we 
will do, we will go over there; vote; and come right back. So 
we will have a pleasant, ten-minute break. Thank you very much.
    [Recess.]
    Mr. Gilchrest. The Subcommittee will come to order. Thank 
you for your patience.
    We will begin with Mr. Dave Mathewson--Is it ``Matheson'' 
or ``Mathewson''?
    Mr. Mathewson. It is Mathewson.
    Mr. Gilchrest. Mathewson. Thank you.

STATEMENT OF DAVE MATHEWSON, DISTRICT 2 VICE PRESIDENT, ACADEMY 
                       OF MODEL AIRPLANES

    Mr. Mathewson. Thank you, Mr. Chairman. Mr. Chairman, 
members of the committee, my name is Dave Mathewson. I am a 
district vice president with the Academy of Model Aeronautics. 
The academy is a national organization of over 160,000 members 
involved in the international hobby and sport of model 
aviation.
    In 1997, the training facility at Galeville, New York, was 
deemed excess by the West Point military Academy. Control of 
the property was reassigned to the U.S. Fish and Wildlife 
Service, and renamed the Shawangunk National Wildlife Refuge. 
On December 7th, 1997, after over 26 years of co-existence 
between aeromodelers and the grassland habitants, the Service, 
claiming incompatibility, banned our members from continuing 
their use of this facility for free-flight modeling.
    I am here today to describe to you the academy's efforts to 
return aeromodeling to this property, and the unyielding 
reluctance of the Fish and Wildlife Service to fairly consider 
our request.
    On May 23rd, 2001, Mr. Wes DeCou, the academy's flying site 
assistance coordinator, testified before the Committee on 
Resources examining recreational access to Federal lands. The 
briefing paper on this hearing condensing Mr. DeCou's remarks 
described how our members flew at Galeville to the satisfaction 
of biologists at West Point, and in fact were involved in a 
working relationship with those biologists to create and 
maintain a grasslands area on the property.
    The briefing noted the Army conducted two separate 
environmental studies at Galeville, and found no adverse impact 
in the region as a consequence of aeromodeling. The briefing 
describes how modelers approached the Service, after being 
restricted from the site, expressing a desire to continue to 
use the facility.
    The modelers committed to a plan that included a limited 
flying schedule, the hiring of an environmental professional to 
monitor impacts on wildlife, and maintaining the grasslands. 
The Service refused the modelers' request, despite the studies, 
past history, and the modelers' commitment to continuing to be 
sensitive to the surrounding environment.
    On November 6th, 2001, a draft compatibility determination 
was released by the Fish and Wildlife Service, focusing on 
free-flight modeling at Galeville. The academy's review of the 
draft revealed several misleading statements, erroneous 
conclusions, and references to studies having no direct 
relationship to model flying.
    The academy contracted Mr. Ken Scartelli, of Northeast 
Environmental Management Systems, to prepare a response to the 
draft. Mr. Scartelli had authored a site survey in 1996, 
concerning the Galeville property. In both his 1996 study and 
his 2001 response, Mr. Scartelli concluded that use of the site 
for free-flight activities would pose no significant negative 
impacts to the site.
    Referring specifically to the draft CD, Mr. Scartelli 
concluded that the CD contains numerous errors, exaggerations, 
and distortions of data. These include mismanagement of fact, 
ignoring pertinent information, speculation, citing of 
unrelated studies, and internal inconsistencies. Moreover, it 
provides no credible data to support its conclusion.
    Members of the academy provided over 2,100 responses 
objecting to the conclusion of the CD. Included in these 
responses were several letters by noted experts and others 
having direct involvement in refuge management, that indicated 
the draft's conclusion was flawed. In spite of this, the 
Service upheld their position in issuing the final CD on 
February 20th, 2002.
    On February 27th, 2002, the academy appealed this decision. 
This resulted in a meeting with Dr. Mamie Parker, Fish and 
Wildlife Service Regional Director, and members of her staff. 
The academy presented a letter from former Congressman James 
Hansen, at the time Chair of the Congressional Committee on 
Resources, and a sponsor of the National Wildlife Refuge 
Improvement Act of 1997.
    That letter indicated the Service, in denying modelers 
access to Galeville, was misinterpreting this legislation 
regarding use policies at National Wildlife refuges. In 
essence, the response of the staff at this meeting was, ``It 
doesn't matter.'' The meeting concluded with our efforts being 
dismissed.
    Subsequent to this meeting, the academy suggested to Dr. 
Parker that limited short-term use of the facility for free-
flight aeromodeling be allowed, so that a relevant study could 
be conducted to prove conclusively the impact of aeromodeling 
on the habitat. Once again, our efforts were rebuffed. In her 
reply, Dr. Parker did recognize and thank the modelers for 
their past stewardship of the site.
    The Eastern U.S. Free Flight Conference, with the support 
of the academy, has worked hard to try to negotiate an 
agreement to return to Galeville, while being extremely 
sensitive to the primary purpose of the refuge. In each 
instance, they have met with unreasonable resistance.
    The irony is that the Service is quick to point out that 
Shawangunk is a man-made facility. The fact is, Shawangunk is a 
man-made refuge. What the Service fails to tell you is that it 
was the aeromodelers who played a major part in its creation. 
In return for their efforts, the modelers were simply told to 
get out.
    In his closing statement from the Resources Committee 
hearing in 2001, Congressman Hansen said, ``Today's hearing 
made it clear that we have lost the proper balance between 
protecting the environment and allowing the American people to 
enjoy their own public lands. A prompt and sharp course 
correction is called for.'' The academy agrees.
    Mr. Chairman, members of the committee, on behalf of the 
Academy of Model Aeronautics and the Eastern U.S. Free Flight 
Conference, thank you for this opportunity.
    [The prepared statement of Mr. Mathewson follows:]

        Statement of Dave Mathewson, District 2 Vice President, 
                      Academy of Model Aeronautics

    Mr. Chairman, Ranking Member, members of the committee, my name is 
Dave Mathewson. I am a district vice president with the Academy of 
Model Aeronautics. The Academy is a national organization of over 
160,000 members involved in the international hobby and sport of model 
aviation.
    In 1997, the training facility at Galeville, New York, was deemed 
excess by the West Point Military Academy. Control of the property was 
reassigned to the U.S. Fish & Wildlife Service and renamed the 
Shawangunk National Wildlife Refuge. On December 7, 1997, after over 26 
years of co-existence between aeromodelers and the grassland habitants, 
the Service, claiming incompatibility, banned our members from 
continuing their use of this facility for Free Flight modeling. I'm 
here today to describe to you the Academy's efforts to return 
aeromodeling to this property and the unyielding reluctance of the Fish 
& Wildlife Service to fairly consider our request.
    On May 23, 2001, Mr. Wes De Cou, the Academy's Flying Site 
Assistance Coordinator, testified before the Committee On Resources 
examining recreational access to federal lands. The briefing paper on 
this hearing, condensing Mr. De Cou's remarks, described how our 
members flew at Galeville to the satisfaction of biologists at West 
Point, and in fact, were involved in a working relationship with those 
biologists to create and maintain a grasslands area on the property. 
The briefing noted the Army conducted two separate environmental 
studies at Galeville and found no adverse impact in the region as a 
consequence of aeromodeling. The briefing describes how modelers 
approached the Service, after being restricted from the site, 
expressing a desire to continue to use the facility. The modelers 
committed to a plan that included a limited flying schedule, the hiring 
of an environmental professional to monitor impacts on wildlife, and 
maintaining the grasslands. The Service refused the modelers' request 
despite the studies, past history, and the modelers' commitment to 
continuing to be sensitive to the surrounding environment.
    On November 6, 2001, a draft compatibility determination (CD) was 
released by the Fish & Wildlife Service focusing on free flight 
modeling activities at Galeville. The Academy's review of the draft 
revealed several misleading statements, erroneous conclusions, and 
references to studies having no direct relationship to model flying. 
The Academy contracted Mr. Ken Scartelli, of Northeast Environmental 
Management Systems, to prepare a response to the draft. Mr. Scartelli 
had authored a site survey in 1996 concerning the Galeville property. 
In both his 1996 study and his 2001 response, Mr. Scartelli concluded 
that,--''.use of the site for free-flight activities would pose no 
significant negative impacts to the site.'' Referring specifically to 
the draft CD, Mr. Scartelli concluded that, ``The CD contains numerous 
errors, exaggerations, and distortions of data. These include 
mismanagement of fact, ignoring pertinent information, speculation, 
citing of unrelated studies, and internal inconsistencies. Moreover, it 
provides no credible data to support its conclusion.''
    Members of the Academy provided over 2100 responses objecting to 
the conclusion of the CD. Included in these responses were several 
letters by noted experts and others having direct involvement in refuge 
management that indicated the draft's conclusion was flawed. In spite 
of this, the Service upheld their position in issuing the final CD on 
February 20, 2002.
    On February 27, 2002, the Academy appealed this decision. This 
resulted in a meeting with Dr. Mamie Parker, Fish & Wildlife Service 
Regional Director, and members of her staff. The Academy presented a 
letter from former Congressman James Hansen, at the time Chair of the 
Congressional Committee on Resources, and a sponsor of the National 
Wildlife Refuge Improvement Act of 1997. That letter indicated the 
Service, in denying modelers access to Galeville, was misinterpreting 
this legislation regarding use policies at National Wildlife Refuges. 
In essence, the response of the staff at this meeting was, ``It doesn't 
matter!'' The meeting concluded with our efforts being dismissed.
    Subsequent to this meeting, the Academy suggested to Dr. Parker 
that limited short-term use of the facility for free flight 
aeromodeling be allowed so that a relevant study could be conducted to 
prove conclusively the impact of aeromodeling on the habitat. Once 
again, our efforts were rebuffed. In her reply Dr. Parker did recognize 
and thank the modelers for their past stewardship of the site.
    The Eastern U.S. Free Flight Conference, with the support of the 
Academy, has worked hard to try to negotiate an agreement to return to 
Galeville while being extremely sensitive to the primary purpose of the 
refuge. In each instance they've met with unreasonable resistance. The 
irony is that the Service is quick to point out that Shawangunk is a 
man-made facility. The fact is, Shawangunk is a man-made refuge. What 
the Service fails to tell you is that it was the aeromodelers who 
played a major part in its creation. In return for their efforts, the 
modelers were simply told to get out. In his closing statement from the 
Resource Committee hearing in 2001, Congressman Hansen said, ``Today's 
hearing made it clear that we have lost the proper balance between 
protecting the environment and allowing the American people to enjoy 
their own public lands. A prompt and sharp course correction is called 
for.'' The Academy agrees.
    Mr. Chairman, members of the committee, on behalf of the Academy of 
Model Aeronautics and the Eastern U.S. Free Flight Conference thank you 
for this opportunity.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much. Now I am going to 
pronounce Mr. Langelius----
    Mr. Langelius. That is good enough.
    Mr. Gilchrest. OK.
    Mr. Langelius. Langelius.
    Mr. Gilchrest. Langelius.
    Mr. Langelius. Yes, sir.
    Mr. Gilchrest. Thank you very much, sir.

        STATEMENT OF ROBERT LANGELIUS, SR., PRESIDENT, 
              EASTERN U.S. FREE FLIGHT CONFERENCE

    Mr. Langelius. Thank you, Mr. Chairman. My name is Robert 
Langelius. I am the President of the Eastern U.S. Free Flight 
Conference--that is EUSFFC--a group formed to coordinate the 
competition activities and sporting efforts of the aeromodelers 
and their clubs whose aircraft are specially designed to fly 
free, yet safely and satisfactorily, without active control.
    I want to thank you and the other members of the 
Subcommittee for the opportunity to provide my feelings about 
public access to a specific unit of the National Wildlife 
System. The unit is renamed the Shawangunk National Wildlife 
Refuge, but it was formerly known as Galeville Airport in 
Wallkill, New York.
    The request to me asked six questions, and my responses 
will follow this brief statement, if I might.
    The aeromodeling community observed the transfer of the 
Galeville Airport site by the Department of Defense to the 
National Wildlife Refuge System, first with disappointment, and 
then with frustration, and then with anger. And the reason is 
the General Services Administration, that had mandatory 
hearings for transfers--the aeromodeling community was excluded 
from any testifying.
    No one heard of our ongoing activities for 28 years; our 
historical usage; the maintenance that we accomplished, and I 
will speak to that in our questions and answers; the security 
and the insurance protection that we provided; and our critical 
dependency on that site.
    The exclusion was wrong, it was illegal, and the transfer 
should not have taken place. But when it did, we contacted the 
staff of the U.S. Fish and Wildlife Service to regain access, 
or at least attempt to regain access, to the site. And we were 
stonewalled; we were lied to; we were condemned. We were 
roundly discouraged in every effort we made to resume what had 
been a productive and mutually cooperative relationship with 
West Point.
    When we approached Congress for help, we found many 
supporters, and a particularly staunch supporter in the 
advocate of Congressman Benjamin Gilman. However, all were 
treated with the same cavalier attitude. They just didn't 
bother to continue communications as promised, and it was just 
a debacle.
    The years since the transfer have dramatically increased 
our disillusionment and frustration with the U.S. Fish and 
Wildlife Service. They are consumed by, in my opinion, a 
completely intransigent mentality, from top to bottom. The U.S. 
Fish and Wildlife Service will stop at nothing to impose 
wilderness, go back to wilderness. That is my understanding, 
and that is basically where they come from.
    The response to the first question that was given to me 
is--how often were model airplanes flown on the Galeville 
Airport? And informally, we had a daily aeromodeling exposure. 
There were folks on there practically every day, weather 
permitting. Formally, the Eastern Free Flight Conference, we 
would arrange with West Point for about 17 to 20 days annually.
    How many people were actually involved in this activity? 
The total combined membership of the clubs in the conference 
was approximately 400 flyers, daily and walk-on flyers. Weekday 
and weekends numbered approximately from five to 20. Scheduled 
contests drew from 50 to 75 flyers.
    And many international flyers came and flew on the field 
from Japan, England, Poland, Israel, Germany, France, Turkey, 
Hungary, the Ukraine, Russia, and Sweden. This is a famous site 
for flying model airplanes; the best site and the only site 
like it in northeastern United States.
    Question number three: What steps were taken to protect the 
resident wildlife and surrounding habitat? And we are very 
proud of this. The EUSFFC actively sought the guidance from the 
West Point environmental officer for the following purposes. We 
initiated a periodic mowing of the facility to convert it to a 
savannah type of appearance of all the grassy areas; the 
removal of second growth trees designated by the environmental 
officer.
    The environmental officer also supervised the introduction 
of model retrieval paths to concentrate our general movement 
across the grassy areas and reduce the time spent out there. 
The West Point environmental officer was frequently on the 
field, observing our operations. And we had an excellent 
relationship with him.
    All aeromodelers were required to remove any and all refuse 
from the field--theirs, or anyone else's--and pets were 
controlled.
    Question number four was, what impact did model airplanes 
have on wildlife? And there was a significant positive impact, 
as the fields were mowed for the first time in decades and the 
removal of the burgeoning second growth trees opened up sight 
lines for nesting birds. They came in droves.
    I believe there was no negative impact by model airplane 
flying at Galeville. This opinion is shared by many noted 
biologists, especially those who took time to visit and study 
the Galeville site. These same biologists stated our activity 
was benign.
    And the final question was: Like to know of our efforts to 
continue this recreational activity after the refuge was 
closed. The closing of the Galeville site was obviously a 
disaster for us, because there is no comparable site in 
northeastern United States. All our qualification events for 
international teams had to be shifted to Muncie, Indiana; 
Dayton, Ohio; or northern Florida.
    We had to consolidate or eliminate our major annual 
contests. And a large farm site in Engleside--which you are 
probably familiar with, Mr. Chairman; Engleside, Maryland--was 
used, but the farm is only available one weekend in early 
spring and one weekend in late fall, and the weather conditions 
are poor to impossible.
    A member of the EUSFFC purchased a sod farm in Wawayanda, 
New York, and general free-flight activities have centered 
about this location since that time. The site, however, has 
serious flaws. The area is crisscrossed by canals and a river. 
The sod is surrounded by corn and wheat fields, which makes 
model retrieval difficult. Senior aeromodelers have major 
problems traversing the canals. Model losses are high. And 
travel distances are extreme and prohibitive for youths and 
those on limited budgets.
    Final question. I am sorry to take so much time. The 
justification of the EUSFFC [sic] for denying your request. The 
aeromodeling community has been very disappointed by the 
findings of the U.S. Fish and Wildlife Service. The 
compatibility report was simply a Lexus-Nexus search of all 
negative information found pertaining to full-scale aircraft, 
and that was creatively projected onto our models. Then they 
luridly embellished those results with all kinds of dramatic 
effects.
    They negatively distorted our retrieval activities, and 
suggested tales of modelers in off-road four-wheels, grinding 
up nests and scattering flocks. Their report was absolutely 
outrageous.
    Fish and Wildlife Service never took time to observe our 
activities. They said the field is at no time capable of 
accommodating our activity; yet there is a picture in my 
package I sent you folks, this monstrous tractor and mower that 
they use to mow. And there is a tiny, little person--that is a 
human being in the middle of that. And they say we can't fly, 
there is no time we can do it. I wonder when they do it.
    The U.S. Fish and Wildlife Service rejected our 
observations of positive bird responses during model retrieval; 
yet they claim they observed similar responses when they mowed.
    And finally, the proposed budget aspect--which I am glad to 
see Congressman Pallone is here, because he is very concerned 
about the monies--the proposed budget impact was a complete 
fabrication by the Fish and Wildlife Service. The only expense 
we would be, would be for a lock and a privy--and it is for 
public use, the privy. And we historically paid for both of 
them. There was absolutely no truth in that report, sir.
    I would like to conclude with the observations of a retired 
employee of the Fish and Wildlife Service. His comments are 
quoted in the ``Missing Lynx'' article I put in here. He 
observed, ``The agency pushed out the people who didn't fit the 
anti-hunting, anti-fishing, anti-land-management profile. 
They've got to get back to science.''
    I think since Jamie Clark there has been a change, a tidal 
change, in attitude. The Fish and Wildlife Service is no longer 
interested in supporting people and providing access. I think 
they have stonewalled many, many people, and fabricated a lot 
of activities--rejection to them.
    Thank you very much for your time.
    [The prepared statement of Mr. Langelius follows:]

            Statement of Robert Langelius, Sr., President, 
                The Eastern U.S. Free Flight Conference

    My name is Robert Langelius, and I am the president of an 
organization known as the ``Eastern U.S. Free Flight Conference'' 
(EUSFFC), a group formed to coordinate the competition activities and 
sporting efforts those aeromodelers whose aircraft are designed to fly 
safely and satisfactorily without active control.
    I would like at this time to thank yourself and the other members 
of the Sub-Committee for the opportunity to provide my feelings about 
public access to a specific unit of the National Wildlife System. The 
unit has been re-named ``The Shawangunk National Wildlife Refuge'' and 
was formerly known as ``Galeville Airport'' in Wallkill, New York.
    The request asked six questions and my responses are on a separate 
attachment.
    I would like, however, to make a brief statement:
    The aeromodeling community observed the transfer of the ``Galeville 
Airport'' site from the Department of Defense (DOD) to the National 
Wildlife Refuge System with disappointment, frustration, and anger!
    During the General Services Administration (GSA) mandatory 
hearings, the aeromodeling community was excluded from testifying about 
their ongoing activities, our historical usage, the maintenance and 
development we had made, the security and insurance protection we 
provided, and our critical dependency on the site!
    That exclusion was not only wrong but it is ILLEGAL and should have 
negated the transfer!!
    When the transfer was completed we engaged the staff of the U.S. 
Fish and Wildlife Service (USFWS) to regain access and we were ``stone 
walled'', lied to, condemned, and roundly discouraged in every effort 
we made to resume what had been a productive and mutually cooperative 
relationship with the DOD!
    The years since that transfer have dramatically increased the 
aeromodelers frustration with an agency (USFWS) that has a completely 
intransigent mentality from the top to bottom and will stop at nothing 
to impose its will!
    Thank you!
                                 ______
                                 
    Response to questions in Congressman Gilchrest's Letter of May 5, 
2005
Question 1 ``How often were model airplanes flown from the `Galeville' 
        airport''?
    Informally, there was a daily aeromodeling presence on the 
``Galeville'' site (weather permitting)
    Formally, the Eastern U.S. Free Flight Conference (EUSFFC) would 
negotiate with West Point for approximately seventeen to twenty days 
annually!
Question 2: ``How many people were involved in this activity''?
    The total combined membership of the clubs in the conference was 
approximately four hundred flyers. Weekend ``walk on'' flyers numbered 
approximately ten to twenty flyers.
    Scheduled contests drew from fifty to seventy-five flyers. Many 
international flyers from Japan, England, Poland, Israel, Germany, 
France, Turkey, Hungary, Ukraine, Russia, and Sweden have joined us in 
major competitions at ``Galeville''.
Question 3: What steps were taken to protect the resident wildlife and 
        surrounding habitat?
    The EUSFFC actively sought guidance from the ``West Point'' 
Environmental Officer for the following purposes:
    Initiate a periodic mowing of the facility to convert it to a 
``savannah'' type appearance of the grassy areas.
    The removal of second growth trees designated by the Environmental 
Officer.
    The Environmental Officer also supervised the introduction of model 
retrieval paths to concentrate general movement and reduce the time 
spent in the grassy areas.
    The West Point Environmental Officer was frequently on site and we 
had an excellent relationship with him.
    All aeromodelers were required to remove any and all refuse from 
the field--theirs or anyone elses.
    Pets were controlled.
Question 4: ``What impact model airplanes had on the wild life''?
    I believe there was no negative impact by model plane activity at 
``Galeville''!
    There was a significant ``positive'' impact as the fields were 
mowed for the first time in decades and the removal of the burgeoning 
second growth trees opened sight lines for the nesting birds!
    This opinion is shared by many noted biologists and especially 
those who took the time to visit and study the ``Galeville'' site!
    The biologists stated our flying activity was ``benign''!
Question 5: ``Like to know of your efforts to continue this 
        recreational activity after the refuge was established in 1999?
    The ``EUSFFC'' recognized the closing of the ``Galeville'' site was 
a disaster for aeromodeling! There is no comparable site in the 
Northeastern United States.
    We consolidated major annual contests.
    A farm site in Engleside, Maryland, is used, but the farm is only 
available for one weekend in early spring, and one weekend in the late 
fall, when the weather conditions are poor to impossible!
    Major contest activity shifted to Muncie, Indiana, Dayton, Ohio, 
and Northern Florida.
    A member of the ``EUSFFC'' purchased a sod farm in Wawayanda, New 
York. General free flight activities have centered about this location 
since that time.
    The site has very serious flaws! The area is ``criss-crossed'' by 
canals and a river, the sod is surrounded by corn and wheat fields 
which makes model retrieval very difficult. Senior aeromodelers have 
major problems traversing the canals and model losses are high!
    Travel distances are extreme and prohibitive for youths and those 
on limited budgets!
Question 6: The justification of the ``USFWS'' for denying your 
        request.
    The aeromodeling community has been very disappointed by the 
findings of the ``USFWS''!
    The compatibility report was simply a ``Nexus Lexus'' search and 
all negative information associated with ``full scale'' aircraft was 
projected onto our models! The ``USFWS'' then creatively embellished 
those results to validate the ``non compatible'' decision!
    They distorted our activities and suggested lurid tales of modelers 
in ``off ``road'' four-wheelers grinding up nests and scattering flocks 
of nesting birds! There was no truth in the report.
    The ``USFWS'' never even took the time to observe what we do!
    They say the field is at no time capable of accommodating our 
activity, yet the mowing rig they use is monstrous! The impact their 
mower makes is far in excess of our retrieval activity!
    The ``USFWS'' staff rejected our comments ``the birds often follow 
us around catching the bugs we kick up''! Yet they stated the same 
thing happened when they mowed ``Galeville''.
    There would be more cooperation if the ``USFWS'' spent more time 
``observing'' our activity and less time denying it!
    The proposed budget impact was a complete fabrication! All we ever 
required was a lock and a ``privy'' and we payed for them both!
    I would like to conclude with the observations of a retired 
employee of the ``USFWS'' (in ``the missing lynx'' article) he observed 
``...the agency pushed out people that didn't fit the anti-hunting, 
anti-fishing, anti-land management profile. They've got to get back to 
science...''
    How prophetic!!!
                                 ______
                                 
    Mr. Gilchrest. Yes, sir. Thank you, Mr. Langelius. Is that 
right?
    Mr. Langelius. Yes, sir.
    Mr. Gilchrest. Langelius. Where are you from?
    Mr. Langelius. I am from White Plains, New York.
    Mr. Gilchrest. White Plains.
    Mr. Langelius. Have to drive to Engleside to fly a model 
airplane.
    Mr. Gilchrest. Engleside.
    Mr. Langelius. Yes, sir.
    Mr. Gilchrest. Well, you know, we have a lot of farmland in 
my district.
    Mr. Langelius. I know. It has been suggested we go out 
there. But I don't want to recover--I got my first grandson 
this year.
    Mr. Gilchrest. What county is White Plains in?
    Mr. Langelius. It is Westchester County.
    Mr. Gilchrest. Westchester County.
    Mr. Langelius. North of New York City.
    Mr. Gilchrest. My father and two brothers were born in 
Rockland County.
    Mr. Langelius. Wow, that is where that field is.
    Mr. Gilchrest. In Rockland County?
    Mr. Langelius. Yes.
    Mr. Gilchrest. They were born between Congers and Valley 
Cottage.
    Mr. Langelius. OK. A lot of flyers from that area.
    Mr. Gilchrest. Old farmhouse was built in 1812, and the 
road in front of the farmhouse is called ``Gilchrest Road.''
    Mr. Langelius. Whoa!
    Mr. Gilchrest. Ben Gilman used to tell me he was taking 
care of it all the time.
    Mr. Langelius. Well, God bless Ben Gilman, I have to say.
    Mr. Gilchrest. Yes.
    Mr. Langelius. That is a classic congressman. I am sorry he 
is not still in the Congress.
    Mr. Gilchrest. I guess we will start with the model 
airplane part of this first. The model airplane group or 
association apparently extends, I guess, nationally and 
internationally. When did you start flying those model 
airplanes at Galeville?
    Mr. Langelius. Yes, sir. About the early '70s. We were 
there for 28 years when the Department of Defense budget was 
dried up and they had to divest themselves of Galeville. It was 
West Point, was the range.
    Mr. Gilchrest. I see.
    Mr. Langelius. Twenty-eight years, sir.
    Mr. Gilchrest. So you were out there flying those model 
airplanes for 28 years.
    Mr. Langelius. On that site.
    Mr. Gilchrest. On that site.
    Mr. Langelius. Yes, sir.
    Mr. Gilchrest. And Galeville was a military airport for 
West Point?
    Mr. Langelius. No, sir, it was a military Air Force Base. 
It was an emergency field that was set up during World War II.
    Mr. Gilchrest. I see.
    Mr. Langelius. For adjacent training areas and bombers 
training. And 3,200-foot runways, two concrete runways.
    Mr. Gilchrest. I see. Now, are those runways still 
operable?
    Mr. Langelius. Not any more. Not since Fish and Wildlife 
got them.
    Mr. Gilchrest. Are the runways still there? Is it still 
asphalt there?
    Mr. Langelius. Yes, they are. Yes, they still are. But they 
are overgrown. No attention is being paid to the runways, and 
the growth coming through the cracks is starting to really 
create major problems with the concrete surface.
    Mr. Gilchrest. So that Galeville--or Galesville--is 566 
acres?
    Mr. Langelius. Approximately, yes. But there is an adjacent 
area that the Park Department----
    Mr. Gilchrest. Is that the state, or the Federal?
    Mr. Langelius. No, it was given by the Fish and Wildlife 
agency, I think to kind of satiate some concern by the local 
township. They wanted a piece of the action, or a piece of the 
field. And they gave them a piece.
    Mr. Gilchrest. So you are saying the state fish and game 
department gave the Fish and Wildlife Service some land?
    Mr. Langelius. The Fish and Wildlife Service took over the 
whole field. They divested a few acres of it, about 120 acres, 
I think. Started around 600, ended up around 120 for them and 
about 500 for the----
    Mr. Gilchrest. I see. OK.
    Mr. Langelius. The field itself, now.
    Mr. Gilchrest. What is the refuge called now?
    Mr. Langelius. It is now called the Shawangunk--I believe--
forgive me--the Shawangunk National Wildlife Refuge.
    Mr. Gilchrest. What is ``Shawangunk''? Is that an Indian 
tribe?
    Mr. Langelius. Shawangunk is the town. It is an Indian name 
of the town in which it resides.
    Mr. Gilchrest. I see. I see. How much is forested of that 
500 acres?
    Mr. Langelius. Very little. Just around the perimeter.
    Mr. Gilchrest. Just around the edges?
    Mr. Langelius. It is not even forested. Along the two 
sides, it is forested.
    Mr. Gilchrest. It is like a hedge row or a tree line?
    Mr. Langelius. That is exactly it.
    Mr. Gilchrest. So you said up until what year could you fly 
these airplanes?
    Mr. Langelius. Well, we flew until the budget crunch, and 
they ran out, and they didn't want to insure it any longer. So 
around '95, we were told. We got one final contest in. Around 
'95 is when it was shut down.
    Mr. Gilchrest. So I understand that Galeville was on the 
BRAC list because of the closing military bases. It was shut 
down as a result of that. Then through whatever measure or 
means, it was transferred to the Fish and Wildlife Service. So 
when that was transferred to the Fish and Wildlife Service, for 
a couple or three years you continued to have the model 
airplane activity out there?
    Mr. Langelius. Oh, no, sir.
    Mr. Gilchrest. No?
    Mr. Langelius. No, sir. As soon as it was apparent that the 
Fish and Wildlife Service was going to get it, we started 
negotiating with them.
    Mr. Gilchrest. With Fish and Wildlife?
    Mr. Langelius. Yes, sir. And our first president, the 
current president at the time, he was told summarily, ``We get 
that land--'' they didn't even have it yet. They said, ``If we 
get it, you're out of here.'' That was the words they used, 
``You're out of here.''
    Mr. Gilchrest. So your last time of flying model airplanes 
was when the Air Force base was still an Air Force base?
    Mr. Langelius. It was a range, sir, an airborne assault 
range from West Point.
    Mr. Gilchrest. OK.
    Mr. Langelius. Yes, sir.
    Mr. Gilchrest. But the year after it was transferred to the 
Fish and Wildlife Service----
    Mr. Langelius. We never have flown an airplane on it since.
    Mr. Gilchrest. I see.
    Mr. Langelius. They won't even allow us to demonstrate what 
we do.
    Mr. Mathewson. The modelers were restricted from using the 
site in December 1997. But there was a time lag between the 
time when West Point relinquished control of the property until 
it became a national wildlife refuge, which I believe was in 
1999. But in the interim, the modelers were not allowed to use 
the facility.
    Mr. Gilchrest. Because of the transition between liability 
and responsibility and all of that?
    Mr. Mathewson. That would be my understanding.
    Mr. Gilchrest. Who initiated this to become part of the 
Fish and Wildlife Service refuge system? Was it Ben Gilman?
    Mr. Langelius. No, it was in the environmental report, when 
they were accessing the property.
    Mr. Gilchrest. I see.
    Mr. Langelius. It emerged in the dialog. They thought it 
would be a good thing. Environmentally, because you can't build 
on it. It is a little too wet.
    Mr. Gilchrest. I see.
    Mr. Langelius. And it is a perfect site for modeling, 
because nobody can build on it. We would be there in 
perpetuity, if we could only get access. And that is why we 
took such good care of it.
    Mr. Gilchrest. Sure.
    Mr. Langelius. Because, I mean, it was our sanctum 
sanctorum.
    Mr. Gilchrest. Sanctum sanctorum. Sounds like a senator.
    [Laughter.]
    Mr. Gilchrest. Gentlemen, thank you very much.
    Mr. Langelius. Thank you, sir.
    Mr. Gilchrest. We will continue to take a look at this, 
pursue this, and do the best by you and the Service.
    Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to ask Mr. 
Farrell and Bob Allphin, the ham operators, a couple of 
questions. Mr. Farrell, did you know of any instance where the 
operations of ham radios negatively affected any fish or 
wildlife species? Have ham radio operations been documented 
anywhere as having an impact on migratory birds, to your 
knowledge?
    Mr. Farrell. I am aware of none, Congressman. And looking 
at the information that was provided to me by the Fish and 
Wildlife Service for Desecheo and Navassa--which those refuges 
were the subject of my applications for use permits--nothing in 
the information provided to me indicates that. But as far as 
other refuges, I am not aware. And Mr. Allphin may be able to 
address that.
    Mr. Pallone. If you want to add anything, sure.
    Mr. Allphin. I am not aware of any instance of negative 
consequences to the wildlife.
    Mr. Pallone. OK. I know both of you said that you are 
environmentalists. And you know that, as I mentioned earlier, 
the refuge system is operated under a clear ``wildlife first'' 
mission. Do your organizations support that mission? And when 
your expeditions set up to broadcast and then depart, what 
remains at the site that you occupied, if you want to answer 
it?
    Mr. Farrell. I will answer the first part of that question. 
I believe I did state that on the record, that our organization 
and all the amateur radio operators that I know of who are 
interested in doing this kind of thing are supporters of 
wildlife and the environment in general. And our organization, 
Fair Access to Island Refuges, does support, as I said earlier, 
the ``wildlife first'' policy of the Fish and Wildlife Service.
    Mr. Pallone. What about what remains after you have left? 
Is there anything left there when you leave, or how does it 
work?
    Mr. Allphin. As the old saying goes, only our footprints. 
We take that very seriously. If I may give you an example of 
how seriously we take it, although this doesn't involve a 
refuge property, there is an island that I am trying to go to 
called ``Peter the First,'' which is off the coast of 
Antarctica. The last operation down there was in 1994. It is 
owned by Norway. And the amateur radio operators were ferried 
on and off the island by helicopters from Russian ships.
    The last flight off the island, there were several large 
bags of human refuge [sic] which had to be collected during the 
operation. The helicopter pilot refused to take it aboard the 
helicopter; at which point, the team locked arms and said--I am 
not sure I can quote this exactly; there was a four-letter word 
used--``Refuge [sic] no go; we no go.'' At which point, it was 
loaded aboard, and they were taken back to the Russian ship.
    And that is the attitude of all the amateur radio operators 
that I am aware of that are involved in this kind of thing.
    Mr. Farrell. And I would just note, if I can, that the 
special use permits issued by the Fish and Wildlife Service for 
Desecheo, for example, include, in addition to the map you saw 
and the image of the permit and the attached map, a list of 
conditions. And there are several in here in the record. But 
they include requirements to remove the effects of the 
operation there.
    And I believe that I stated earlier that one of the reports 
noted that the amateur radio operators did fully comply with 
the requirements of their permit. And there is nothing in this 
record to indicate otherwise.
    Mr. Pallone. Well, I was going to ask you, Mr. Farrell, 
with regard to Desecheo, if I understand you correctly, the 
Fish and Wildlife Service denied your request for special use 
permits to visit the Desecheo refuge because the Service 
determined that the use, which had been permitted both prior to 
and after the Service acquired the island, was now 
incompatible. Obviously, you don't agree that that 
compatibility determination was accurate. But would you comment 
on that?
    Mr. Farrell. I can expand on that. I do believe the 
compatibility determination is accurate. The conclusion drawn 
by the Fish and Wildlife Service states that it is incompatible 
because of the safety issues. But it actually states that the 
greatest impact from the amateur radio operators entering the 
refuge onto the island would be the trampling of the grass, 
carrying their equipment from the shoreline to the helicopter 
pad. And the criticism doesn't say this in the compatibility 
determination, but I will note that if a helicopter was taken 
there, that impact would not even occur.
    So the compatibility determination does not conclude that 
the use is incompatible. It concludes that the use is not 
allowed because of safety issues; one of them being unexploded 
ordnance. And I can expand on that, as well. I think that is a 
very important point that the Fish and Wildlife Service is 
raising that is not always fully discussed by the agency.
    Mr. Pallone. OK. Thank you.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I have a 
question for Mr. Langelius.
    Mr. Langelius. Yes, ma'am.
    Ms. Bordallo. Correct me if I am wrong now, but it is my 
understanding that model planes have been used as an effective 
means to keep birds away from airfields in order to reduce or 
eliminate in-flight collisions with aircraft. And consequently, 
it seems reasonable to assume that aerial modelers could scare 
away birds that are nesting or fledging.
    So in light of the known ability of model planes to harass 
birds, how can you conclude that aeromodeling within a refuge 
poses no threat to the birds located there?
    Mr. Langelius. That is an excellent question, 
Congresswoman, but it is not valid. The truth is, you may use a 
model airplane to frighten birds twice or three times. But it 
is not effective long-term, because they become acclimated in 
two days.
    They attempted to do it. Many airfields have tried. But it 
is worthless, because the birds very quickly recognize no 
threat.
    Ms. Bordallo. I see.
    Mr. Langelius. But it is a good question, because it brings 
out the fact that what you spoke to was the response of the 
U.S. Fish and Wildlife. It was rather distorted.
    Ms. Bordallo. Yes, that is why I asked it.
    Mr. Mathewson. Congresswoman, could I add to that, please?
    Ms. Bordallo. Yes. Surely.
    Mr. Mathewson. I think there is a distinct difference 
between the type of model airplane mentioned in the study, and 
what Mr. Langelius does at Galeville. The airplanes in the 
study are radio-controlled model airplanes, and they are used 
specifically for trying to move birds, for instance, from 
around the perimeters of airports. It is done intentionally.
    The type of airplane that Mr. Langelius flies is a free-
flight model. The motor runs for probably in the neighborhood 
of eight to ten seconds; shuts off; the model glides from that 
until the duration of the flight.
    And I think it is also important to point out that Fish and 
Wildlife, I think, mentioned back in the late '90s that this is 
one of the most pristine areas in the Northeast as a grasslands 
habitat. But you have to take that in the context that Mr. 
Langelius and the members of his organization were there for 26 
years before that. And it is entirely obvious that the refuge 
was thriving, in spite of the models.
    Ms. Bordallo. I have a quick follow-up for Mr. Langelius.
    Mr. Langelius. Yes, ma'am.
    Ms. Bordallo. If what you say is true, and the birds become 
acclimated to the situation, does the U.S. Fish and Wildlife 
document this?
    Mr. Langelius. They document and retain those things which 
they think are to their value, and they dismiss out of hand 
anything that they don't.
    Ms. Bordallo. Thank you. I have a question for the two of 
you now, Misters Mathewson and Langelius.
    Mr. Langelius. Yes, ma'am.
    Ms. Bordallo. In the time that your organizations have been 
denied access to conduct your activity at the--Shawangunk 
Refuge?
    Mr. Langelius. Yes.
    Ms. Bordallo. Is that the way to pronounce it?
    Mr. Langelius. Well, that is the way they----
    Ms. Bordallo. Pretty good. All right. I am assuming that 
you have found alternative locations to conduct your 
activities. So what new locations have you found to fly your 
model planes?
    Mr. Langelius. Well, in my testimony, we have found for one 
weekend competition twice a year we now go to Engleside, 
Maryland, which is quite a drive from the northeast.
    Ms. Bordallo. So your activity, then, has been diminished.
    Mr. Langelius. Remarkably. However, a very affluent fellow 
in the group purchased a sod farm. And although it looks 
pretty, it is a desperate thing, because we have to climb over 
canals; and there is a creek that borders the trees; corn 
fields, wheat fields; the airplanes disappear, and we can't 
traverse and recover them. But, thank you.
    Ms. Bordallo. I can't see why anyone would say ``No'' to 
you.
    Mr. Langelius. Thank you, ma'am.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mrs. Bordallo. Engleside is not 
too far from where I live.
    Mr. Langelius. That's right.
    Mr. Gilchrest. In fact, just north of Chestertown.
    Mr. Langelius. Exactly. That is where we eat.
    Mr. Gilchrest. Where do you eat in Chestertown?
    Mr. Langelius. Well, we go to that little restaurant on the 
James River.
    Mr. Gilchrest. Oh, that is the old----
    Mr. Langelius. It washed away a couple of years ago.
    Mr. Gilchrest. On the Chester River. On the Chester River.
    Mr. Langelius. Yes, sir, Chester River.
    Mr. Gilchrest. The Old Wharf.
    Mr. Langelius. Yes.
    Mr. Gilchrest. Might I recommend, The Old Wharf is a good 
place and I go there occasionally, but The Black-Eyed Susan, 
two former students of mine run it, so you might want to try 
that.
    Mr. Langelius. Definitely on the agenda.
    Mr. Gilchrest. Right in Kennedyville, though, there is a 
place called ``Vonny's.''
    Mr. Langelius. My familiarity with the area is not--there 
is a hook that runs around back toward Delaware, and there was 
a beautiful restaurant there, also--great steak house, also.
    Mr. Gilchrest. Oh, that is on the C&D Canal, Chesapeake-
Delaware Canal. Next time you are in town, though, give me a 
call. We will go canoeing.
    Mr. Langelius. Oh, I would love share how those airplanes 
fly.
    Mr. Gilchrest. Oh, and I would like to come down there and 
fly.
    Mr. Langelius. Yes.
    Mr. Gilchrest. Gentlemen, thank you very much.
    Mr. Farrell. Mr. Chairman, may I make one additional 
comment?
    Mr. Gilchrest. Yes, you can, sir.
    Mr. Farrell. And I will make it brief. I want to just touch 
on the issue of unexploded ordnance on Desecheo, because I 
think it is very important. In my exchange of correspondence 
with the Fish and Wildlife Service during my appeal process, 
and the production by the agency of these, as I call them, 
discovery materials for my appeal, the Fish and Wildlife 
Service provided me with picture after picture, photograph 
after photograph after photograph, of bombs on Desecheo.
    No one disputes the fact that this island, Desecheo, is a 
former bombing range. The issue here that is very important, 
the question that needs to be asked that I have never gotten an 
answer from the Fish and Wildlife Service on, is, having hiked 
the island extensively by Fish and Wildlife personnel for 30 
years, having camped out there regularly, having been to the 
island and no injuries having ever occurred or mishaps of any 
kind by amateur radio operators or anyone else or the Fish and 
Wildlife Service, what changed in 1993, having allowed amateur 
radio operators to go there many times before, that caused the 
Fish and Wildlife Service to say, ``No go, and one of the 
reasons is unexploded ordnance''? Were more bombs dropped? I 
don't think so.
    Mr. Gilchrest. Well, that is a question we will pose to the 
Fish and Wildlife Service.
    Mr. Farrell. Thank you.
    Mr. Gilchrest. Mr. Pallone.
    Mr. Pallone. I was just going to actually follow up on 
that, what you just commented on. Is that denial unique? Have 
you been allowed to broadcast from other refuges where 
unexploded ordnance is present, to your knowledge?
    Mr. Farrell. Well, I haven't applied for a special use 
permit, or permission generally, for another refuge. But there 
is another refuge in Massachusetts, the Ox Bow National 
Wildlife Refuge, which has ordnance on its grounds. And 
interestingly, the brochure that the Fish and Wildlife Service 
provides to visitors to that refuge has a warning that says, 
``Stay clear. If you see anything, report it to the refuge 
office.'' I am summarizing.
    There is no reason that that should not be the approach on 
Desecheo; and was the approach, if you look at the old special 
use permits issued by the Fish and Wildlife Service. The 
message may not have been worded exactly the same, but the 
requirement for information was there.
    Mr. Pallone. OK, that is a good point. Thank you.
    Mr. Farrell. Thank you.
    Mr. Gilchrest. Can you go to Viegas, the amateur radio 
operators?
    Mr. Farrell. To my knowledge, there is no prohibition on 
going there. It does not fall under the category of a distant 
entity or country, as we were discussing earlier, so the 
interest in that island is not there. So I am not sure if you 
can or not.
    Mr. Gilchrest. So there are designated places within the 
ham operators international association----
    Mr. Farrell. National association.
    Mr. Gilchrest. National association. There are a list of 
places that are designated as points of interest to travel to 
and communicate from?
    Mr. Farrell. And I believe the number is 335. And that is 
the American Radio Relay League, our national association. But 
ham operators internationally pursue this challenge of 
contacting those remote locations.
    Mr. Gilchrest. I see.
    Mr. Farrell. And not so remote.
    Mr. Gilchrest. I might recommend Engleside as one of those 
places.
    [Laughter.]
    Mr. Farrell. We will keep it in mind.
    Mr. Gilchrest. Or Kennedyville.
    Mr. Farrell. Thank you, Congressman.
    Mr. Gilchrest. We will try to strike a balance and have 
some better, clearer understanding as we pursue these questions 
and places that you would like to visit and the public would 
like to see; help sustain wildlife populations, and see how we 
can make the mix compatible.
    Mr. Farrell. You know, that is really all we ask for, is to 
strike a balance and to observe and embrace the statute as it 
is written.
    Mr. Gilchrest. Gentlemen, thank you very much.
    Mr. Farrell. Thank you, Congressman.
    Mr. Langelius. Thank you.
    Mr. Gilchrest. Mr. Hartwig. Our third panel, the gentleman 
from Fish and Wildlife Service will come and give us all the 
answers to all the questions that we have. Mr. Hartwig, 
welcome, sir. Thank you very much for your patience. And you 
may begin your testimony.

   STATEMENT OF WILLIAM HARTWIG, ASSISTANT DIRECTOR FOR THE 
    NATIONAL WILDLIFE REFUGE SYSTEM, U.S. FISH AND WILDLIFE 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Hartwig. Thank you, Mr. Chairman and members of the 
Subcommittee. I am William Hartwig, Assistant Director of the 
U.S. Fish and Wildlife Service, and Chief of the National 
Wildlife Refuge System. Thank you for the opportunity to 
testify before the Subcommittee and discuss the many 
opportunities for public use on national wildlife refuges 
throughout the country.
    The National Wildlife Refuge System has a long history of 
significant contributions to the conservation of our Nation's 
wildlife. In 1903, President Theodore Roosevelt created the 
first refuge when he set aside a 5-acre island, Pelican Island 
in Florida, as a breeding ground for birds. Today, there are 
545 national wildlife refuges and 37 wetland management 
districts that protect more than 96 million acres of the best 
fish and wildlife habitat in America.
    America loves the National Wildlife Refuge System. A 
national visitors' satisfaction survey found 95 percent of the 
visitors were satisfied, or very satisfied, with the quality of 
their experiences while visiting refuges. Last year, nearly 40 
million people visited refuges. These visitors found great 
hunting and angling opportunities, intriguing interpretive and 
educational programs, and numerous wildlife to photograph and 
enjoy. Visitation, volunteerism, and community support all 
continue to grow.
    The Refuge System has struggled at times in the past. There 
were conflicting views about how the refuge system should be 
managed. In 1989, the GAO issued a report entitled, 
``Continuing Problems With Incompatible Uses Calls for Bold 
Action.'' Congress took that bold action in 1997, when it 
enacted the National Wildlife Refuge System Improvement Act.
    This new law gave the refuge system a clear mission: 
wildlife conservation for the benefit of present and future 
generations. It clearly states that all uses of refuges must be 
compatible with the primary purposes of the individual refuge 
and the mission of the refuge system.
    The Service has published policy and regulations on how we 
make compatibility determinations, and we ensure that the 
public is involved in those determinations.
    Through the Improvement Act, Congress recognized people 
were essential to the wildlife conservation, and that citizens 
who were involved in using and enjoying refuges were more 
likely to become involved in their stewardship. The Act 
recognized that wildlife-dependent recreation is often 
compatible with wildlife refuge purposes and directly related 
to the mission. It declared these activities as legitimate and 
appropriate uses that help the American public develop an 
appreciation for fish and wildlife.
    As such, the Act made compatible wildlife-dependent 
recreation the priority public use of the refuge system, and 
directed the Service to provide increased opportunities; 
particularly for hunting and fishing, interpretation, 
environmental education, wildlife observation, and photography.
    Most visitors to refuges participate in more than one type 
of wildlife-dependent recreational activity. Over 495 national 
wildlife refuges and wetland management districts are open to 
at least one of the six priority public uses. Wherever it is 
compatible, refuges are working to increase opportunities for 
quality wildlife-dependent recreation activities for the public 
to enjoy and appreciate their outdoor heritage. We expect 
another 49 refuges to join this list in the near future, 
depending on funding and staffing levels.
    We have made great progress in providing increased 
recreational opportunities on refuges. Yet refuges cannot be 
all things to all people. When Congress determined that 
compatible wildlife-dependent recreation is an appropriate use 
and should receive priority, it follows that other uses 
appropriate elsewhere may not be appropriate on refuges.
    Refuge managers are frequently asked to permit a wide 
variety of such uses. Auto shows, concerts, flea markets, and 
road races of all types have their place, but wildlife refuges 
may not be the appropriate place for these types of activities.
    In instances where a proposed use is found to be 
appropriate, it is further reviewed to ensure it is compatible 
with our wildlife conservation mission. Following this rigorous 
examination, those non-wildlife-dependent uses found compatible 
are allowed on refuges. An example of such non-wildlife-
dependent recreation is swimming and beach activities on 
refuges.
    In many instances, the use has been found both appropriate 
and compatible, since such use would not materially interfere 
with, or detract from, fulfillment of the refuge system mission 
or a refuge's purpose.
    In contrast, with Shawangunk Grasslands National Wildlife 
Refuge, the Service determined that continued use of the refuge 
for flying model airplanes was not compatible with the purposes 
for which the refuge was established: managing migratory birds.
    The model airplanes would have not only affected the 
wildlife for which the refuge was established, but also the 
visiting public seeking a wildlife-dependent experience. The 
refuge is simply too small to accommodate the requested 
activity, and refuge staff and funding resources are 
insufficient to monitor and maintain the facility for anything 
other than a low-impact wildlife-dependent use.
    There are 27 refuges that are closed to all public entry 
and use. They total 16,000 acres, less than 1/10th of 1 percent 
of all of the refuge lands. Most of these refuges are remote 
and isolated. In some cases, refuges are closed to the public 
because of danger, such as unexploded ordnance left over from 
past military exercise. Nomans Island National Wildlife Refuge 
in Massachusetts is an example of the type of closure.
    In other cases, refuges are closed to protect critical 
wildlife populations; such as the case with the 798-acre Karl 
Mundt National Wildlife Refuge in South Dakota, which is closed 
to protect nesting bald eagles. Even though this refuge is 
closed to public access, the Service, in cooperation with the 
Corps of Engineers, has developed a nearby observation platform 
and an interpretive kiosk just off the refuge to facilitate 
public enjoyment of eagles in the area. Similarly, several 
``refuges'' that are closed have observation or interpretive 
opportunities.
    To conclude, the conservation work of the Service depends 
on the support of the citizens. Refuges are important to local 
communities for recreation, and as a part of their natural 
heritage. We have learned that people who use and enjoy refuges 
are often the best advocates for cooperative conservation 
efforts.
    We will continue to look for additional opportunities for 
compatible wildlife-dependent recreation, while staying true to 
our wildlife conservation mission. Mr. Chairman, this concludes 
my prepared statement. I would be prepared to answer any 
questions.
    [The prepared statement of Mr. Hartwig follows:]

    Statement of The Honorable William Hartwig, Assistant Director, 
   National Wildlife Refuge System, U.S. Fish and Wildlife Service, 
                       Department of the Interior

    Mr. Chairman, and Members of the Subcommittee, I am William 
Hartwig, Assistant Director for the National Wildlife Refuge System for 
the U.S. Fish and Wildlife Service (Service). Thank you for the 
opportunity to testify before the Subcommittee and discuss the many 
opportunities for public use on National Wildlife Refuges throughout 
the country.
    The National Wildlife Refuge System has a long history of 
significant contributions to the conservation of our nation's wildlife. 
The Refuge System had humble beginnings. In 1903, President Theodore 
Roosevelt set aside 5-acre Pelican Island in Florida as a breeding 
ground for birds. The Refuge System has grown tremendously over the 
past century. Today there are 545 national wildlife refuges and 37 
wetland management districts that protect more than 96 million acres of 
the best fish and wildlife habitat in America. These lands are home to 
a spectacular collection of wildlife, from the giant moose of Kenai 
Refuge in Alaska to the ancient alligators of Okefenokee Refuge in 
Georgia. Millions upon millions of birds, more than 700 different 
species, use refuges as breeding grounds, as stepping stones to rest on 
their annual migrations, and as winter homes.
    America loves the National Wildlife Refuge System. Last year nearly 
40 million people visited refuges. These visitors have found great 
hunting and angling opportunities, intriguing interpretive and 
educational programs, and numerous wildlife to photograph and enjoy. 
Some 33,000 citizens volunteered their time to help care for these 
lands and provide recreational opportunities for visitors. There are 
245 Friends organizations that have incorporated to help support their 
local refuge. Visitation, volunteerism, and community support all 
continue to grow.
    The Refuge System has struggled at times in the past. There were 
conflicting views about how the Refuge System should be managed. In 
1989, the General Accounting Office issued a report on the Refuge 
System entitled, Continuing Problems with Incompatible Uses Calls for 
Bold Action. Congress took that bold action in 1997 when it enacted the 
National Wildlife Refuge System Improvement Act (Improvement Act).
    This new law gave the Refuge System a clear mission:
        ...to administer a national network of lands and waters for the 
        conservation, management, and where appropriate, restoration of 
        the fish, wildlife, and plant resources and their habitats 
        within the United States for the benefit of present and future 
        generations of Americans.
    Through the Improvement Act, Congress recognized that people were 
essential to wildlife conservation and that citizens who were involved 
in using and enjoying refuges were more likely to become involved in 
their stewardship. The Improvement Act also recognized that deeply-
rooted American traditions of hunting and fishing, and other forms of 
wildlife-dependent recreation, were often compatible with wildlife 
refuge purposes. Congress declared that with respect to the Refuge 
System, it is the policy of the United States that compatible wildlife-
dependent recreation is a legitimate and appropriate general public use 
of the System, directly related to the mission of the System and the 
purposes of many refuges. Congress recognized that these recreational 
activities generally foster refuge management and help the American 
public develop an appreciation for fish and wildlife.
    The Improvement Act made compatible wildlife-dependent recreational 
uses the priority public uses of the System and directed that they 
receive priority consideration in refuge planning and management. It 
directed the Service to provide increased opportunities for families to 
experience compatible wildlife-dependent recreation, particularly 
opportunities for hunting, fishing, interpretation, environmental 
education, wildlife observation, and photography.
    In 2004, the Service selected the Refuge System to go through a 
Program Assessment and Rating Tool, or PART, evaluation. As a result of 
that evaluation, the Refuge System is developing a five year strategic 
plan to be released later this year that will serve as the basis for 
any future PART analysis. A primary component of the strategic plan 
will examine and outline how to better measure quality opportunities 
for compatible wildlife-dependent recreation. This examination will 
determine how many such opportunities currently exist, and establish 
goals for increasing priority public uses throughout the System.
    As stated earlier, in 2004 the Refuge System welcomed nearly 40 
million visitors, a 6 percent increase from 2001. Within the 40 million 
visits to refuges, this included approximately 2.3 million hunting 
visits, 7 million fishing visits, nearly 34 million wildlife 
observation and photography visits, and about 29 million visits 
involving interpretive and environmental education programs. As you can 
see, most visitors to refuges participate in more than one type of 
wildlife dependent recreational activity. Over 495 national wildlife 
refuges and wetland management districts are open to at least one of 
the six priority public uses.
    The 2004 national visitor satisfaction survey, covering 47 refuges, 
demonstrated that 95 percent of visitors were satisfied or very 
satisfied with the quality of their experiences while visiting refuges.
    Wherever it is compatible, refuges are working to increase 
opportunities for quality wildlife-dependent recreational activities 
for the public to enjoy and appreciate their outdoor heritage. One way 
we have done this is through the construction of boardwalks, boat 
ramps, interpretive kiosks, and observation blinds. Simple projects 
such as these have proven to be a low cost, low maintenance, and highly 
effective approach for providing visitors with greater access to 
refuges.
    The Refuge System also manages and maintains more than 2,500 miles 
of foot and water trails and is aggressively pursuing partnerships at 
the national and local levels to expand and improve our trails system.
    Our volunteer workforce and Friends organizations are an integral 
component of providing recreational opportunities. Many visitor centers 
would close and interpretive programs halt without the efforts of the 
citizen-stewards who volunteer their time at refuges.
    We have made great progress in providing increased recreational 
opportunities on refuges. Yet refuges cannot be all things to all 
people.
    The Improvement Act makes clear that the mission of the Refuge 
System is wildlife conservation for the benefit of present and future 
generations. It clearly states that all uses of refuges must be 
compatible with the primary purposes of individual refuges and the 
mission of the Refuge System. The Service has published policy and 
regulations on how we make compatibility determinations and we ensure 
the public is involved in those decisions.
    In view of the fact that Congress determined that compatible 
wildlife-dependent recreation is an appropriate use of the Refuge 
System and should receive priority in our management, it follows that 
other uses appropriate elsewhere may not be appropriate on refuges. 
Refuge Managers are frequently asked to permit a wide variety of such 
uses. Auto shows, concerts, flea markets, and road races all have their 
place, but wildlife refuges may not be the appropriate place for these 
types of activities.
    The Service has drafted policy on how managers are to determine 
when non-wildlife dependent recreational uses are appropriate. We have 
involved the public and worked closely with our State fish and wildlife 
agency partners to craft this policy. We look forward to issuing a 
final policy to assure that managers are consistent in how they make 
these decisions.
    In addition, even appropriate uses such as wildlife dependent 
recreation, are further reviewed to ensure they are compatible with our 
wildlife conservation mission. Generally, priority uses such as hunting 
or wildlife observation do not present any issues. In some cases 
however, even priority uses are not found compatible. In those 
instances, the Refuge Manager may need to balance between or among 
competing uses or, if absolutely necessary, disallow one or more uses. 
Compatibility determinations are made in writing, and identify the 
anticipated effects of the proposed use on refuge resources.
    This compatibility determination process also applies to non-
wildlife-dependent recreation activities. Through this rigorous 
examination, in some cases compatible non-wildlife-dependent uses are 
allowed on refuges, such as swimming and beach activities. In these 
instances, the use has been found both compatible and appropriate, 
since such use would not materially interfere with or detract from 
fulfillment of the Refuge System Mission or refuge purposes.
    In contrast, at Shawangunk Grasslands National Wildlife Refuge, the 
Service determined that continued use of the refuge for flying model 
airplanes was not compatible with the purposes for which the refuge was 
established, managing migratory birds. The model airplanes would have 
not only affected the wildlife for which the refuge was established, 
but also the visiting public seeking a wildlife-dependent experience. 
The refuge is simply too small to accommodate the requested activity, 
and refuge staff and resources are designed to monitor and maintain the 
facility for low impact, wildlife-dependent public uses only.
    There are 27 refuges that are closed to all public entry and use. 
They total 16,000 acres, less than 0.1 percent of refuge lands. Most of 
these refuges are remote and isolated. In some cases, refuges are 
closed to protect the public from danger, such as unexploded ordinance 
left over from past military exercises. Nomans Land Island NWR in Dukes 
County, Massachusetts, is one example. In other cases, refuges are 
closed to protect critical wildlife populations. Such is the case for 
the 798-acre Karl E. Mundt NWR in South Dakota which is closed to 
protect nesting bald eagles. Even though this refuge is closed to 
public access, the Service, in cooperation with the U.S. Army Corps of 
Engineers, has developed a nearby observation platform and interpretive 
kiosk to facilitate the public enjoyment of eagles in the area. 
Similarly, several closed refuges also have wildlife observation and 
interpretive opportunities.
    On other refuges which are considered open to public use, some 
portions of the land may be closed to certain activities. Seasonal 
closures and sanctuary areas are tools used to provide for public use, 
not curtail it. These management techniques allow us to enjoy hunting 
and fishing and other wildlife dependent recreation in ways that are 
compatible with conservation, not in conflict with it. A great example 
is at Pelican Island, where the original 5-acre island remains to this 
day an inviolate sanctuary for breeding birds. But the Centennial 
Trail, dedicated on the Refuge System's 100th birthday in 2003, leads 
visitors by restored wetlands and native vegetation to an observation 
tower that allows visitors to view the nesting pelicans, wood storks, 
ibis, and egrets from a distance that protects the birds from 
disturbance.
    The conservation work of the Service depends on the support of 
citizens. Refuges are important to local communities for recreation and 
as part of their natural heritage. We have learned that people who use 
and enjoy refuges are often the best advocates for cooperative 
conservation efforts. We will continue to look for additional 
opportunities for compatible wildlife-dependent recreation while 
staying true to our wildlife conservation mission.
    Mr. Chairman, this concludes my prepared statement. I will be 
pleased to respond to any questions you may have.
                                 ______
                                 

         Response to questions submitted for the record by the 
                     U.S. Fish and Wildlife Service

       QUESTIONS FOR THE RECORD BY THE HONORABLE WAYNE GILCHREST
    (1)  Currently 88 refuges out of the 545 National Wildlife Refuges 
are closed to the public. Since this represents 16 percent of the 
entire system, what is the justification and rationale for closing them 
to visitors?
    Although sixteen percent of refuges are closed to the public, the 
total area of all 87 closed refuges encompasses less than 54,000 acres, 
or less than one-tenth of one percent of the area in the refuge system. 
Consistent with the National Wildlife Refuge System Administration Act 
of 1966, as amended by the National Wildlife Refuge Improvement Act of 
1997, and to the extent that the U.S. Fish and Wildlife Service 
(Service) has jurisdiction, national wildlife refuges (except those in 
Alaska), are closed to all public access and use until they are 
specifically opened for individual uses following analysis and 
evaluation. Individual refuges are opened after the Service has 
determined that a specific use can be offered in a safe and compatible 
manner. When determined compatible, the National Wildlife Refuge System 
Improvement Act grants wildlife-dependent public uses priority over all 
other public uses. In Alaska, national wildlife refuges are generally 
open to wildlife-dependent recreational uses as long as such uses are 
conducted in a manner compatible with the purposes for which the 
refuges were established. Refuges in Alaska may be closed to specific 
uses if those uses are determined to be incompatible with refuge 
purposes. The subsistence uses of fish and wildlife by local rural 
residents have priority over other consumptive uses.
    The reason why individual refuges remain closed varies depending on 
the situation, but typically can be attributed to public safety 
concerns; the need to protect wildlife and its habitat (including 
endangered species from harassment); and, a lack of legal access 
rights. In addition, closed refuges may also be new refuges for which a 
public use plan has yet to be completed. For a complete list of refuges 
currently closed to public access, please see Tables 1-3 on pages 18-20 
below.
    (2)  How often are these closures reviewed and what is the 
likelihood that any of these units will be open in the future?
    Administrative closures, resulting from a compatibility 
determination, are reviewed whenever conditions change or significant 
new information relative to the closure and its effects becomes 
available. Closures are also reviewed during the comprehensive 
conservation planning process, and at least every 10-15 years. Closures 
due to deed restrictions are permanent unless the restrictions are 
removed or changed. The tables on pages 18 through 20 below list the 
refuges that are currently closed and the reasoning behind the 
individual closures.
    (3)  Just prior to World War II, a significant number of refuges 
were established in the State of North Dakota. What was the 
significance of these designations in 1939? It appears the vast 
majority of these refuges involve an easement or mixed fee easement. In 
those cases, why where these lands declared part of the refuge system, 
who controls access or determines compatible activities on those lands, 
who maintains them and why are most of these units closed to the 
public?
    In the 1930s, the United States was faced with an economic 
depression, massive drought, and declining waterfowl and other wildlife 
populations. To address these crises, the federal government developed 
several economic and conservation initiatives. Beginning in 1935, the 
government worked with states and private landowners to sign dozens of 
refuge easement agreements in North Dakota. These refuge and flowage 
easements were established for the purposes of: (1) water conservation, 
(2) drought relief, and (3) migratory bird and wildlife conservation 
purposes. The Work Progress/Programs Administration and Civilian 
Conservation Corps programs provided jobs to build the water control 
structures needed to impound and manage water levels. Landowners were 
given $l.00 for these easements, but greater value was realized in 
reliable water sources for farming and provision of jobs for local 
communities.
    The government revised the status of these lands in the late 1930s 
and 1940s. Easement lands in close proximity were combined, 
establishing an approved acquisition boundary, and designated as 
migratory bird sanctuaries (later changed to national wildlife refuges) 
under the authorities of executive orders and various conservation 
laws. Ninety-three percent of these lands still remain in private 
ownership and the Service has no control over public access.
    The North Dakota Easement National Wildlife Refuges encompass 
47,296 easement acres within the boundaries of 39 individual refuges 
ranging in size from 160 acres to 5,506 acres. There are currently no 
Service personnel dedicated to managing these easement refuges. The 
responsibility of management of these areas, including making 
compatibility determinations, is assigned to refuge managers from 
nearby staffed refuges.
    A draft Comprehensive Conservation Plan is currently being 
developed that will evaluate the easement refuges and determine each 
refuge's worthiness to be part of the System. Some refuges may be 
considered for management by the State of North Dakota, which owns some 
of the fee title interests within the refuge lands.
    (4)  Where does it stipulate in the National Wildlife Refuge System 
Improvement Act of 1997 that only hunting, fishing, wildlife 
observation, photography, environmental education and interpretation 
are permissible activities within the system? Isn't it true that both 
the Committee Report and House Floor debate make it clear that the so-
called Big Six are given priority but not exclusive use within the 
system?
    The National Wildlife Refuge System Improvement Act of 1997 does 
not stipulate that hunting, fishing, wildlife observation, photography, 
environmental education and interpretation are the only permissible 
public activities within the National Wildlife Refuge System. The Act 
states that these six activities are to be considered as the general 
``priority public uses'' of the Refuge System and shall receive 
priority consideration over other general public uses in planning and 
refuge management.
    (5)  Describe for the Subcommittee what are Special Use Permits? 
What is the statutory authority for these permits and what are the 
necessary conditions to obtain one?
    A Special Use Permit is required for uses of refuge services, 
facilities, privileges, or products of the soil, that are provided at 
refuge expense and not usually available to the general public under 
the requirements of Title 50 CFR or other published regulations. Some 
common examples of activities authorized by Special Use Permits include 
grazing, cabin rentals, and rights-of-way uses for road or power-lines 
across refuge land. Individual refuge managers are responsible for 
identifying, evaluating, approving, and administering specialized uses 
of the refuge consistent with Service policy and procedures.
    Individuals or organizations interested in obtaining a Special Use 
Permit for a specific activity must first submit an application to the 
appropriate Refuge Manager. The application requests the full name, 
address and phone number of the applicant; the period of requested use, 
and a description of the requested use. The refuge manager (or his/her 
designee) then evaluates the requested use and determines if it is 
first, appropriate and secondly, compatible with the individual 
refuge's purposes and management objectives. The refuge manager may add 
special conditions to the permit to minimize conflicts with other 
refuge management programs.
    The issuance of a Special Use Permit is authorized by the National 
Wildlife Refuge System Administration Act, as amended, and the Refuge 
Recreation Act.
    (6)  The Service currently has a contract with the Chugach Alaska 
Corporation to operate the Midway Atoll infrastructure. Is this entity 
interested and capable of operating a visitor concession program?
    The current contract with Chugach McKinley, Inc., does not include 
provisions for conducting a visitor concession program at Midway Atoll 
National Wildlife Refuge. The contract includes operating the 
infrastructure of the island (including the airfield), maintaining 
facilities, conducting food services, providing transportation, and 
some landscape maintenance that benefits wildlife (e.g., removing tall 
vegetation around buildings, removing invasive Australian pines from 
around the airfield).. Through their current activities, the contractor 
will maintain lodging and provide meals for occasional visitors. The 
Service did not contract with Chugach McKinley to provide for visitor 
services, therefore we are unable to respond regarding their interest. 
The Service is currently reviewing bids for a 2006 Base Operations 
Support Services (BOSS) contract, which included 'placeholders' for the 
eventuality of supporting a visitor services program at Midway Atoll 
National Wildlife Refuge. However, the Service only recently received a 
market analysis and feasibility study for a visitor service program at 
Midway, and has not yet decided whether these services would be 
provided by the Service, a concessionaire, or multiple concessionaires 
(which may or may not be the BOSS contractor).
    (7)  What is the status of discussions involving which federal 
agency is going to pay for the operation of the Midway Airport in the 
next fiscal year?
    Officials from DOT/FAA have assured their commitment to pay their 
fair share of the cost to operate the airport and shared infrastructure 
at Midway in FY 2005 and beyond. They have estimated their share this 
year to be approximately $1.8 million, which they have provided. 
Working with FAA, we have reduced total cost of Midway operations for 
FY 2005 to $5.6 million, including $4.3 million for airport operations.
    (8)  For the bird species protected on Midway, including the two 
species of albatross, please provide population numbers, times of year 
when present in the area, and what habitat features and components 
required by the species at these times, are being maintained by USFWS 
management policies i.e., keeping open grass or sand habitats, removing 
trees, and eliminating aerial hazards?
    Midway Atoll National Wildlife Refuge provides habitat for three 
species of albatrosses: Laysan (441,000 pairs), Black-footed (20,400 
pairs), and the endangered Short-tailed (1 individual). Albatrosses are 
found at Midway nine months of the year (late October to early August) 
and use a variety of habitats including grassy fields, sandy areas with 
native vegetation, introduced ironwood forest, and native and 
introduced shrub habitat. Highest densities of albatrosses are found in 
grassy fields and sandy areas with native vegetation.
    The refuge conducts the following management activities to maintain 
high quality nesting habitat for these species: Requiring nighttime 
airplane operation to avoid albatross strikes; replacing above ground 
power and communication lines with below ground lines; and controlling 
(through mechanical means such as mowing, herbicide application, and 
hand pulling) introduced plants and replacing them with native species.
    (9)  How sensitive are albatross or other colonial nesting 
waterbirds to disturbance during nesting season and what are the risks 
to the survival of the population, eggs or chicks disturbed by human 
activities during nesting periods? During other times of the year?
    The type and level of risk to albatrosses and other waterbirds from 
humans entering a colony varies by species, location, and nesting 
habitat, however, most species are very sensitive to disturbance. Most 
seabirds exhibit insular tameness, which is behavior characterized by a 
lack of the wariness one might observe in birds living in areas with 
terrestrial predators. Because of this trait, it sometimes appears as 
if humans pose no problems for these species. In fact, there are a 
number of potentially serious consequences every time a seabird colony 
is entered, even by experienced researchers. For example:
    <bullet>  Mechanical -- At most seabird colonies in the central 
Pacific birds nest on three different levels, under the ground, on the 
surface, and in the shrubs and trees. At many times of the year it is 
difficult to walk in some parts of a colony without stepping on eggs or 
caving in burrows below the surface.
    <bullet>  Thermal -- Although the climate of the tropical and 
subtropical islands seems mild, it can pose problems for nesting bird 
species. Consequently, adults have evolved to virtually never leave 
eggs and tiny chicks unattended. The presence of people can disrupt the 
adults, and their displacement from the nest for more than 3 or 4 
minutes may lead to the loss of the egg or chick.
    <bullet>  Biological -- In some colonies, one species may take 
advantage of human disturbance to prey upon other species when they are 
disturbed and leave their nests. In general, there is a much lesser 
chance of disturbing Albatrosses and other sea birds at times when they 
are not nesting. However, humans can still cause damage to nesting 
habitat which will have repercussions when the birds do return to nest.
    (10)  How much space does an albatross on land, need to become air 
born or to land?
    The amount of runway an albatross needs to become airborne depends 
on wind speed and relative direction. On a windless day an adult Laysan 
Albatross might need as much as 20-30 meters to get aloft; however, it 
generally takes much less room to land (this is an anecdotal estimate 
based on personal experience of local Service personnel and is not a 
scientific measurement). When birds nest in thick trees or shrubbery 
they must sometimes walk long distances out to the beach or a clear 
area in order to take off.
    (11)  Amateur radio operators have requested Special Use Permits to 
broadcast from the Desecheo, Navassa Island and Farallon National 
Wildlife Refuges. These requests have been unanimously rejected. The 
Service has indicated that Desecheo is closed because of unexploded 
ordnance. Yet, Special Use Permits were routinely issued to the public 
prior to 1998. Since this has been a refuge since 1976, what conditions 
have changed during the past seven years that warrant denying any 
public access?
    Between 1994 and 1998, a total of 11 Special Use Permits were 
issued for Desecheo. The only permit issued for amateur radio 
operations was issued in 1994. All other permits were for research or 
drug interdiction. The process for evaluating uses at refuges changed 
significantly in 1998 with passage and implementation of the National 
Wildlife Refuge System Improvement Act, which presents a consistent 
regulatory method for determining compatibility. This new process 
required reevaluation of Special Use Permits issuance, and it was 
determined in 1998 that public access should no longer be allowed on 
Desecheo NWR because of safety considerations. The Service has issued 
relatively few Special Use Permits at all three refuges because of the 
agency's concerns regarding public safety. The issuance of a permit 
authorizing use and access assumes that areas, facilities, and 
operations that the permittee may be exposed to are free from 
recognized hazards.
    (12)  In 2002, the U.S. Army Corps of Engineers issued a report on 
the unexploded ordinance on Desecheo, what were their findings? Is it 
not true that the Army found that these unexploded ordnance did not 
pose a catastrophic or critical risk to the public? If that is the 
case, why not issue the permits?
    The Service is unaware of any declaration by the U.S. Army Corps of 
Engineers (Corps) that unexploded ordnance poses no risk at Desecheo 
National Wildlife Refuge. A 2002 Archives Search Report on this subject 
does not reveal such a declaration. As referenced in a 2002 draft 
report, the Corps conducted a site inspection with Service personnel 
and relocated three UXO's on the surface that had been found 
previously. These were detonated in 2002 by Explosive Ordnance Disposal 
(EOD) personnel from the U.S. Navy. Completion of this process does not 
mean the area has been cleared or declared safe. No complete surface or 
subsurface survey for UXO has been conducted on the island of Desecheo. 
The Risk Assessment, included in the 2002 report, states that the 
hazard severity is catastrophic although the probability is occasional. 
The latter is based on factors such as distance to inhabited areas and 
inaccessibility of the island.
    (13)  What does the USFWS believe is its liability for ``inviting'' 
the public to areas that have public hazards, for visitor ``invitee'' 
injuries when the USFWS did not know (or could not be expected to know) 
about the hazards involved, for injuries to unauthorized visitors 
caused by known or unknown hazards, and for employees in the course of 
their duties on National Wildlife Refuges?
    The United States Government has an affirmative duty for any known 
hazard to provide warning or make safe areas where there is public 
access. The level of this duty depends on the laws of the state or 
jurisdiction in which the area is located. Liability may be limited by 
external factors such as existence of a recreational use statute, 
contributory negligence of the person entering the property, and other 
defenses available to the United States under the Federal Tort Claims 
Act (28 USC Sec. 2671 et. seq.) This duty extends only to hazard that 
are known or are reasonably ascertainable, and therefore likely would 
not apply in cases where a visitor is injured by hazards that the Fish 
and Wildlife Service did not know about. In cases where unauthorized 
visitors are injured, the liability of the government is governed by 
state law.
    The U.S. Government has full liability for all injuries received by 
federal employees in the course of carrying out their official duties. 
Although federal employees are not covered by the Federal Tort Claims 
Act, employees injured while acting within their scope of employment 
are entitled to coverage of all medical bills under the Federal 
Employee Compensation Act (5 USC Sec. 8181 et. seq.)
    (14)  There are several amateur radio operators who desire to 
obtain a Special Use Permit to broadcast from the Southeast Farallon 
Island. This island is closed to the public. However, in the past three 
years, 19 Special Use Permits have been issued affecting 44 different 
people. What was the purpose of these Special Use Permits? Did any of 
the permittees have an adverse effect or cause injuries to any of the 
12 different bird species that inhabit that island?
    All of the permits issued for Southeast Farallon Island were 
directly related to management and supported the accomplishment of 
refuge goals and objectives. For example, allowing a small number of 
media visits per year provides the general public with more 
information, photos, and video so that the can learn more about and 
appreciate this public resource. It provides a view of the refuge to 
members of the public that are unable to take a Farallon boat tour, 
which gives a first-hand experience. Specific information on the 
permits issued over the last 3 years is as follows:
    In 2002, a total of seven permits were issued. Five permits (13 
people) were for research and involved the following agencies/
organizations: Gulf of the Farallones National Marine Sanctuary (inter-
tidal monitoring), U.S. Geological Survey (bat survey), National 
Weather Service (service equipment located on the island), and State of 
California Water Quality Control Board (discharge monitoring). The 
latter two permits were one-day visits. Two one-day permits (4 people) 
were issued to the British Broadcasting Co. for filming a wildlife 
documentary on gulls. In 2003, a total of six permits were issued. 
Three permits (9 people) were for research and involved the following 
agencies: Gulf of the Farallones National Marine Sanctuary (inter-tidal 
monitoring), National Weather Service (service equipment located on the 
island), and UC Berkeley Lawrence Hall of Science (collect educational 
material for geology exhibit). The later two permits were one-day 
visits. Three permits (4 people) were media related and involved the 
following entities: NBC News, Time Warner, Inc, and a photographer.
    In 2004, a total of six permits were issued. Five permits (13 
people) were for research and involved the following agencies/
organizations: Gulf of the Farallones National Marine Sanctuary (inter-
tidal monitoring), National Weather Service (service equipment located 
on the island), UC Berkeley Seismology (maintain seismographic 
instruments), Center for Ecology and Hydrology (tick study), and 
Stanford University (shark research). One permit was issued for a 1-day 
media visit (1 person) by the Los Angeles Times.
    The Service expects that some minor disturbances such as flushing 
of western gulls or other individual birds occurred during these 
visits. The Service also knows that occasionally permittees crush 
individual auklet burrows or step on gull eggs/nests, even though 
Service staff try to minimize those effects by training and orientation 
of all visitors.
    (15)  There are also a number of biologists, researchers, 
contractors, interns, photographers and reporters who either live on or 
have visited the Southeast Farallon Island in the past three years. Did 
any of these individuals adversely impact the bird populations? How was 
this prevented?
    When South Farallon Islands were added to the National Wildlife 
Refuge System in 1969 the number of people allowed on the island at any 
one time was reduced to the minimum number needed to monitor and 
protect the wildlife and maintain a minimal infrastructure. The Service 
closed most of the island to all human contact, even to researchers and 
residents, and restricted activities to a few footpaths.
    The Service recognizes that any level of human activity will cause 
some wildlife disturbance. However, the Service believes that the 
benefits of having a minimal human presence to monitor wildlife, 
restore habitat and protect the Refuge from more damaging disturbance 
outweighs the costs. The Service has established stringent standard 
operating procedures for staff and all visitors to ensure that bird and 
marine mammal populations are impacted to the least extent possible. In 
addition, a variety of conditions are attached to all Special Use 
Permits. As detailed above, all photographers, reporters and 
researchers (other than Point Reyes Bird Observatory staff) who conduct 
monitoring and care-taking duties on Southeast Farallon Island must 
have a Special Use Permit and meet certain criteria to visit the 
island.
    (16)  Since model airplanes were flown at the exact site for twenty 
eight years, without according to the Department of the Army any 
adverse effects on wildlife, what dramatic changes occurred in 1999 
that caused the Fish and Wildlife to conclude that model airplane 
flying could never be a compatible activity at the Galeville Airport?
    Although we do not have the specific justification, the West Point 
Military Academy suspended model airplane flying in 1995. On July 27, 
1999, the General Services Administration (GSA) transferred 566 acres 
of the former Galeville Military Airstrip to the Service to create 
Shawangunk Grasslands National Wildlife Refuge. A memorandum dated 
October 17, 1997, to the GSA from the Regional Director formally 
requested the transfer of land and defines the purpose for establishing 
the refuge as follows, ``[the site] provides critical habitat for 
migratory birds and raptors. More than 120 species of birds have been 
identified at the site. It supports approximately 20 bird species which 
are designated as species of Federal or State `management or special 
concern'.''
    The Department of the Army and the Service each have a distinct and 
unique mission. As such, it is to be expected that the criteria and 
methodology for determining wildlife impacts differ. As the purposes 
for which the property is managed changed, so have the uses compatible 
with that management strategy. As outlined above, the National Wildlife 
Refuge System Administration Act of 1966, as amended by the National 
Wildlife Refuge Improvement Act of 1997, requires that an affirmative 
finding by the refuge manager be made of the compatibility of an 
activity before it is allowed on an individual national wildlife 
refuge. Service policy establishes the process for determining 
compatibility, including the procedures for documentation. It defines a 
compatible use as ``a proposed or existing wildlife-dependent 
recreational use or any other use of a national wildlife refuge that, 
based on sound professional judgment, will not materially interfere 
with or detract from the fulfillment of the mission of the Refuge 
System or the purposes of the refuge.''
    At Shawangunk Grasslands National Wildlife Refuge a compatibility 
determination for the proposed use of model airplane flying and model 
airplane competitive events written by the former refuge manager and 
signed by the Regional Refuge Chief on February 20, 2002, found that 
model airplane flying and model airplane competitive events are not 
compatible with the purposes for which the Refuge was established.
    (17)  How does the Fish and Wildlife Service respond to the 
comments of Dr. Patrick Redig who analyzed the flying of model 
airplanes at Galeville and concluded that: ``My experience and my 
knowledge of birds says that none of these activities will have serious 
or measurable negative impacts''. Dr. Redig is a veterinary, Professor 
of Veterinary Medicine at the University of Minnesota and Director of 
the Raptor Center.
    The compatibility determination for model airplane flying and model 
airplane competitive events on Shawangunk Grasslands National Wildlife 
Refuge contains eight pages of detailed information describing the 
direct and indirect impacts of aircrafts on migratory birds. Various 
model airplane activities have differing impacts on bird species. While 
we are not aware of any studies that specifically describe the impact 
of model airplanes on birds, it has been demonstrated that grassland 
birds have modified their behavior in response to kite-flying. Studies 
on impacts of passenger aircraft indicate that smaller, slower moving 
craft that fly at low altitudes have the highest impact on birds, 
perhaps because of their similarity to predators. In some places, model 
airplanes are used to deter birds from occupying runways and flight 
paths. In addition to the impacts of the models themselves, there has 
been a history of using motor vehicles or bicycles to recover the 
models. While this may not impact raptors, ground-nesting birds are 
vulnerable to such disturbances.
    (18)  Did the Service conduct a scientific analysis of the impact 
of free-flight planes on the six unlisted species of migratory birds at 
Galeville? Why not? Isn't it true that by their very nature, free-
flight planes, unlike motorboats, motorcycles and personal water craft, 
produce almost no noise? Have you prohibited people from riding 
motorcycles or driving loud automobiles on the grounds of the 
Shawangunk Grasslands National Wildlife Refuge or other refuge units?
    As stated in the compatibility determination, impacts to migratory 
birds from model airplane flying and competitions are both direct and 
indirect. These impacts stem from both the act of model airplane flying 
and its associated activities, such as retrieval of planes, which can 
involve motor vehicle and bicycles employed in nesting areas. Although 
no specific studies of free-flight planes have been conducted at 
Galeville, as mentioned above, even kite-flying has been demonstrated 
to have an impact on bird behavior. The Service determined there was 
enough existing scientific literature on this subject to make a 
compatibility determination.
    Motorized vehicles such as motorcycles and cars are prohibited on 
the Refuge. Since the Shawangunk Grasslands National Wildlife Refuge 
was established, activities such as walking dogs, jogging, bicycling, 
riding horses, and use of all-terrain vehicles have also been 
prohibited.
    (19)  What is the current condition of the 8,000 foot runways at 
the Galeville Airport? Are the press reports accurate that the original 
refuge manager publicly stated that the runways should be destroyed? Is 
it the Service's view that this runaway should be destroyed?
    Almost 30 acres of land on the refuge are occupied by old airport 
runways and taxiways. The runways are made of slabs of concrete and the 
taxiways and connectors are made of asphalt. The runways, taxiways and 
connectors are all in various states of disrepair and continue to 
deteriorate. A drainage system underneath the old runway system has not 
been maintained and the site is getting wetter every year.
    The Shawangunk Grasslands National Wildlife Refuge is currently in 
the process of developing a Comprehensive Conservation Plan (CCP) and 
Environmental Assessment (EA), as required by federal law. The planning 
process for the Refuge started several years ago and the refuge manager 
at the time publicly stated her intention for the developing CCP. Her 
intentions included removing the old airport runways and restoring the 
site to grassland habitat. When the CCP is released to the public, the 
Service will hold public meetings to hear comments on the proposals 
contained within this plan.
    (20)  Are there any conditions, restrictions or limitations that 
the Eastern U.S. Free Flight Conference could agree to that would cause 
the Fish and Wildlife Service to reexamine whether this activity could 
occur at Shawangunk Grasslands National Wildlife Refuge?
    As noted in the response to question 16, the refuge manager 
conducted a compatibility determination and found that the activity is 
not compatible. However, the Service would reexamine that determination 
if the Conference submits a proposal that is significantly different 
than that which has previously been reviewed.
    (21)  How sensitive are grassland birds to model airplane or other 
aerial activity during nesting periods? Other human activity? What is 
their sensitivity to human activities during other times of the year?
    As described in the responses to questions 17 and 18, the 
compatibility determination for model airplane flying made at 
Shawangunk Grasslands National Wildlife Refuge addresses the 
sensitivity of grassland birds to model airplanes at that site. The 
compatibility determination also addresses the frequency of disturbance 
from model airplanes to grasslands birds at the refuge during the 
breeding season, which occurs earlier than the nesting season. The 
Refuge is important to various bird species at different times of the 
year. Grassland birds use the Refuge for breeding and wintering, giving 
them a year-round presence. Migratory birds are observed there in the 
spring and fall, while the Refuge provides open grasslands in which 
raptors hunt during the winter. The Service has not comprehensively 
examined the sensitivity of grassland birds to model airplanes across 
the entire National Wildlife Refuge System.
    (22)  If the USFWS were to make arrangements to allow seasonal 
access to the refuges that support migratory birds, how would this 
access be enforced? How is the no access policy enforced now?
    As mentioned in the answer to the previous question, the Refuge is 
an important resource for birds throughout the year. Therefore seasonal 
use would not be an effective method to decrease impacts on bird 
populations. There is no policy of ``no access'' on Shawangunk 
Grasslands National Wildlife Refuge. The refuge is open for wildlife 
observation, photography, and environmental education and 
interpretation. A full-time law enforcement officer is assigned to 
Wallkill River National Wildlife Refuge and Shawangunk Grasslands 
National Wildlife Refuge who is responsible for patrol and enforcement 
on both refuges. Similar situations exist on other National Wildlife 
Refuges throughout the country.
                                 ______
                                 
      QUESTIONS FOR THE RECORD BY THE HONORABLE FRANK PALLONE, JR.
A. Desecheo National Wildlife Refuge
    (1)  When was the image created of Desecheo Island showing the 
locations of unexploded ordnance (UXO which was displayed for the 
Subcommittee on Fisheries during its hearing on May 26, 2005)?
    This image was taken from the 2002 Archives Search for Desecheo 
prepared by the U.S. Army Corps of Engineers.
    (2)  Have any of the UXO identified on the Desecheo Slide been 
detonated by the government? On what date(s) was the UXO detonated?
    Three unexploded ordnance were detonated by Explosive Ordnance 
Disposal (EOD) personnel in 2002.
    (3)  Which government entity recommended to the FWS that FWS use 
signs and other means to post warnings about UXO on Desecheo? Why was 
this information not provided to the Subcommittee on May 26? When was 
the recommendation made? Has FWS satisfied any of the recommendations? 
Which recommendations have not been satisfied? Why not?
    The recommendation was made by EOD personnel to the U.S. Army Corps 
of Engineers in a memorandum dated December 2002. This is the same 
memorandum that documented the detonation of ordnance on Desecheo. The 
Service has not installed signs specific to ordnance, but has installed 
boundary signs stating no unauthorized entry. The Service has posted 
notices in public locations advising the public that the Desecheo 
National Wildlife Refuge is closed. Closure information is also 
available on fact sheets published by the Service. These fact sheets 
are available both in hard copy as well as on the internet. These fact 
sheets specifically refer to the presence of unexploded ordnance on the 
island and the fact that the refuge is closed.
    (4)  What evidence can Mr. Hartwig point to in support of his 
statement to the Subcommittee on Fisheries on May 26 that there are UXO 
buried in Desecheo? Why has the FWS previously reported to applicants 
for permits that it does not know whether any UXO exists beneath the 
surface of Desecheo?
    The island of Desecheo is known to have been utilized by the 
military for bombing practice. This is clearly documented by the U.S. 
Army Corps of Engineers Archives. Based on observations by Service and 
Corps personnel, the Service knows that there are UXO on the surface 
and partially buried on Desecheo. However, the entire island has not 
been surveyed for the presence of UXO on the surface or subsurface. No 
geophysical surveys have been conducted to detect metal objects beneath 
the surface. Therefore we cannot say with absolute certainty that there 
is UXO present beneath the surface, however it is most likely.
    (5)  Has Desecheo refuge manager Susan Silander or any other FWS 
personnel or authorized visitors taken a member or members of their 
family(s) or other non-FWS personnel to Desecheo for any reason after 
the Desecheo Refuge was closed? What were the reasons for the visit(s) 
and when did the visits occur?
    Refuge Manager Susan Silander has not taken her family to the 
Desecheo National Wildlife Refuge. No other Service personnel have made 
unofficial visits or taken family to the island.
    (6)  Has the FWS authorized visits to Desecheo by school groups or 
by anyone else since the Desecheo Refuge was closed? What were the 
reasons for the visit(s) and when did the visits occur?
    The Service has not authorized visits by school groups to Desecheo 
National Wildlife Refuge. The Service has authorized select research 
missions, which have included university professors and graduate 
students. All permittees granted access to Desecheo are required to be 
accompanied by Service personnel.
    (7)  If the Oxbow National Wildlife Refuge in Massachusetts has no 
unexploded ordnance UXO on the grounds, then why does the Oxbow refuge 
brochure mention UXO in its brochure? How do you reconcile this with 
your position on Desecheo?
    The Service received three transfers of land from the U.S. Army at 
Fort Devens, Massachusetts (1974, 1988, and 1999). These lands now 
comprise approximately 1,547 acres of the 1,677 acre Oxbow National 
Wildlife Refuge. The transfers were made with the appropriate DOD 
ordnance clearance certification. The statement in the Refuge brochure 
is purely cautionary since no clearance certification can be absolute. 
There are no known firing ranges, no known weapons firing impact areas, 
and there have been no reports of UXO being located on Oxbow National 
Wildlife Refuge, which is in contrast to Desecheo National Wildlife 
Refuge.
    (8)  Why has the FWS not responded to Members of Congress who 
enquired about the current status of the UXO on Desecheo? If the FWS 
has responded, please include copies of such correspondence.
    The Service has responded to all inquiries that it has received 
from Members of Congress about the current status of UXO on Desecheo 
National Wildlife Refuge. Copies of correspondence received by the 
Service from Congressional Members, and the accompanying responses, 
over the past 2 years are attached (Attachment #1).
    (9)  Has the FWS given consideration to the proposal set forth in 
Mr. Farrell's initial administrative appeal filed with the FWS in June 
2004 for decreasing the burden on FWS personnel in handling requests 
from Amateur Radio operators for special use permits for Desecheo or 
Navassa islands? Has the FWS considered any other means of decreasing 
such burden other than closure of the Desecheo and Navassa refuges?
    Mr. Farrell proposes the establishment of a narrow application 
window for special use permits and that each year two permits be 
authorized. Each permittee would need to follow reasonable, but 
stringent regulations on their visits and would have to execute ``hold 
harmless'' documents. Under this scenario access would be allowed 
initially on a test basis and would be closely supervised by Service 
personnel. If necessary, the Service would be reimbursed for the cost 
of personnel required to accompany them.
    The establishment of a narrow window would not eliminate the safety 
issue that is the reason for closure. While strict measures may be 
incorporated into the permit, this will not eliminate the issue of 
safety and liability.
    (10)  Have any FWS personnel or authorized visitors to Desecheo or 
Navassa ever been suspected or investigated by any agency, including 
FWS, for suspicion of engaging in any illegal or unauthorized activity 
related in any way to the Desecheo and/or Navassa refuges? What were 
the suspected activities? Specifically, what charges or disciplinary 
actions were they subject to?
    No, the Service is not aware of any violations by Service personnel 
or authorized visitors.
B. Navassa National Wildlife Refuge
    (1)  Have any FWS personnel or authorized visitors to Navassa been 
harmed landing or departing Navassa Island at any time? If so, please 
provide all supporting reports and/or other evidence.
    The Service is not aware of any Service personnel or other 
authorized visitors being seriously harmed landing or departing Navassa 
Island. However, even without incident, access to Navassa is still 
considered extremely hazardous.
    (2)  Have FWS personnel used helicopters to land on Navassa, and if 
so, did any problems result from helicopter landings? Was FWS aware of 
U.S. Geological Survey's landing on Navassa using helicopter?
    The Service has accessed Navassa by means of helicopter in the 
past. When doing so the Service must consider potential impacts to 
natural resources. Unauthorized landing of aircraft on any national 
wildlife refuge is forbidden. Helicopter pilots consider Navassa to be 
a risky landing site due to the uneven terrain, sharp limestone and 
loose sharp rocks. There was one instance of a problem during a 
helicopter landing where the helicopter landing skids and rear tail 
rotor were damaged. Given the hazards of landing on Navassa and the 
presence of fragile natural resources, the Service tries to keep 
helicopter landings to an absolute minimum.
    The Service is aware that the U.S. Geological Survey landed by 
helicopter at Navassa prior to the establishment of the refuge.
    (3)  Mr. Hartwig testified that the ladder on Navassa Island was 
removed. Did the FWS remove the ladder? Did the FWS request that the 
U.S. Coast Guard remove the ladder? If so, why?
    The ladder was semi-functional until 2001 and then fell apart due 
to deterioration. Since then, access has been limited and the island 
can only be accessed by approaching in a small boat and climbing up a 
cliff face. The U.S. Coast Guard was never notified and asked to remove 
the ladder, because their activities related to the island ceased many 
years ago.
    (4)  Members of Congress have enquired into whether Haitian 
fishermen who camp on Navassa are encouraged to do so by the FWS. Does 
the FWS allow this activity to occur or does the agency otherwise 
encourage it?
    The Service does not encourage Haitian fishermen to camp on the 
island. Some fishermen do access the island inappropriately and 
illegally, but typically they sleep on their boats.
C. Pacific Wildlife Refuges
    (1)  In regard to Midway Island in the Pacific Ocean, when was the 
FWS policy on travel to Midway changed? Citizens have been told they 
could only visit Midway using FWS aircraft at a cost of $1,500/person 
and $7/pound of luggage. Is this correct?
    The Service has provided limited access to Midway Atoll National 
Wildlife Refuge since January 2002. In June 2002, access was further 
limited when Aloha Airlines ceased operating the aircraft the Service 
regularly chartered to bring people, supplies, and materials to Midway 
Atoll. Since then, the Service's only regular access to Midway Atoll is 
by a chartered Gulfstream G-1 aircraft, which carries a maximum of 19 
passengers and a total of 3,200 pounds (passengers and cargo). Almost 
all food supplies for Midway must be flown in, which uses a significant 
portion of the available weight. Thus the number of passengers that can 
be accommodated on each flight is extremely limited.
    Visitors are not required to come to Midway aboard our chartered 
aircraft. Since 2002, most of Midway's visitors have arrived via cruise 
ships, but a few additional people have traveled there via privately 
owned sailboats and aircraft.
    The fees of $1,500 for a round trip flight and $7/pound for cargo 
that exceeds the 50 pound per person limit, are accurate. Similar to 
major airlines, excess cargo fees are charged to discourage travelers 
from bringing more luggage than required.
    (2)  Please produce all lists of fees for visiting any NWR in the 
United States and its territories and/or possessions, including Midway 
Island, and include the legal basis for each fee, and the rationale for 
all fee structures?
    The legal basis for the fee collection across the National Wildlife 
Refuge System is primarily the Federal Lands Recreation Enhancement Act 
(REA) (P. L. 108-447), and its predecessor, the Recreation Fee 
Demonstration Program (Fee Demo). Some sites previously collected fees 
under other authorities such as the Land and Water Conservation Fund 
Act (LWCFA) and the Emergency Wetlands Resources Act (EWRA). Both of 
these authorities were repealed by the REA and previously involved 
sites will either be required to terminate their programs or transfer 
to the new Recreation Fee Program by September 30, 2005. Many of our 
current REA-authorized sites were previously authorized by Fee Demo 
authority and many of those Fee Demo sites were initially authorized by 
either LWCFA or EWRA. However, the continuing sites are those 
collecting under REA and they all must conform to the fee criteria laid 
out in Section 3(b) of that Act.
    There are currently 112 refuges covered under the REA program. The 
Service estimates that there were an additional 59 refuges authorized 
under the LWCFA or EWRA to collect fees. The Service is currently 
developing a national list of fees for all refuges which will be 
available by the end of the current fiscal year. In addition, 
throughout the National Wildlife Refuge System, the Service has been 
authorized to collect administrative fees for issuance of Special Use 
Permits, and to a limited degree, also been authorized to collect 
quarters fees from approved residents.
    At Midway Atoll National Wildlife Refuge, fees have been collected 
under various authorities since the Service assumed jurisdiction of 
Midway in 1996. Midway developed its first comprehensive fee schedule 
in 2002. The fee schedule was developed after the Service was provided 
with permanent receipt authority for Midway Atoll National Wildlife 
Refuge (Public Law 107-206). The Service also developed these fee 
schedules in an attempt to be responsive to Congressional direction 
that the agency must recover costs from other entities using the 
airfield and the atoll for non-refuge purposes. The current Midway fee 
schedule is attached (Attachment #2).
    Midway's $5,000 fee for a Special Use Permit is not standard across 
the National Wildlife Refuge System and is only applicable at Midway 
due to very high direct and indirect operating costs. The staff at 
Midway must devote significant time in reviewing applications, writing 
individual permits, monitoring their implementation, and ensuring 
compliance with terms. Time spent on these activities reduces time 
spent on refuge management activities.
    Midway Atoll also charges a $5,000 fee to develop individual-
specific compatibility determinations. In general, if the use at Midway 
is something that all the general public has access to such as yachting 
and yacht tie-down, the Service develops the compatibility 
determination at no charge. Within the last 2 years, the Service has 
only written one compatibility determination for Midway where a fee was 
charged. In that case, the Service charged the Missile Defense Agency 
the $5,000 fee for limited use associated with tracking missiles as 
they pass over the Refuge.
    The fee schedule also lists a $25,000 infrastructure fee. The basis 
for this fee is the cost to overhaul the electrical generator at 
specified times ($120,000), the cost to inspect and clean fuel tanks 
regularly ($110,000), the cost to maintain water and sewer service to 
all facilities on the island ($100,000), the costs associated with 
providing general services to user agencies (e.g., storage space, 
transportation on-island, telephones, faxes) and costs associated with 
covering the expense of Refuge staff who routinely support the user 
agency.
    Costs for lodging ($100/day) and meals ($32/day) are based on the 
Federal Travel Regulations government per diem rates for Midway Atoll. 
Transportation fees of $1,500 per person for a round trip flight and $7 
per pound for excess cargo were derived from actual costs for 
chartering the Gulfstream G-1. Aircraft service fees, port service 
fees, and labor and equipment fees are based on covering the contract 
costs associated with providing those services or, in the case of 
equipment, to cover depreciation costs.
    Cruise ship visitors pay a Refuge Access fee of $25 to help cover 
costs of additional Refuge staff and contractor time. Other costs paid 
by the cruise lines are a chartered flight to Midway to bring 
interpretive staff from our offices in Hawaii ($22,000 per flight) plus 
lodging and food for the interpreters while they are on Midway.
    (3)  Please also identify anyone who was allowed to access Midway 
Island or any other NWR under a waiver of the applicable fees, and 
please explain the rationale justifying the waiver?
    Attached is a table indicating Special Use Permits issued for 
Midway Atoll National Wildlife Refuge over the past three years 
(Attachment #3). In the cases where fees were waived, the projects 
generally were either conducted by Service personnel not stationed at 
Midway and/or were for activities that benefit the refuge, including 
historical preservation. Fees have been waived for educational 
activities that have included both environmental education, consistent 
with the core mission of the Service, as well as historical 
interpretation related to the Battle of Midway. For example, recently, 
access and interpretation were provided to a cruise group of veterans 
touring important World War II sites.
    The Service does not maintain a comprehensive list of individuals 
who have been allowed access to refuges under fee waivers. However, 
both the recreation fee collection authority under the Recreation Fee 
Demonstration Program (Fee Demo) and now the Federal Lands Recreation 
Enhancement Act (REA) allow fee waivers. These include free access for 
those visiting on official business, farmers covered under cooperative 
farming agreements, and volunteers. In addition, our entrance fee sites 
host Fee Free days. The rationale for these waivers includes courtesy 
to those benefiting our sites, the importance of educational 
opportunities, and outreach to those with low incomes. The REA contains 
similar language to that in the previous Fee Demo authority. The REA 
fee waivers/prohibitions include those under 16 years of age; outings 
conducted for noncommercial educational purposes by schools or bona 
fide academic institutions; units of the National Wildlife Refuge 
System created, expanded, or modified by the Alaska National Interest 
Lands Conservation Act (Public Law 96-487); and, those engaged in a 
non-recreational activity authorized under a valid permit issued under 
any other Act, including a valid grazing permit.
    (4)  When was the FWS web site for Midway Island changed to 
indicate a more liberal policy of traveling there?
    Although the Service changed the text on the Midway Atoll National 
Wildlife Refuge website on June 9, 2005, the Service is still unable to 
facilitate the visitation of many people to the atoll at one time, due 
to transportation and staffing limitations. As described above, the 
charter aircraft available to the Service carries only 3,200 pounds of 
passengers and cargo, including the food needed to sustain the 45 
residents working on Midway. Because the Service does not wish to 
mislead the public, the website continues to indicate that visitors 
must make their own way to Midway and have advance approval from the 
refuge manager before they can visit.
    (5)  When were Kingman Reef, Johnston Island and Palmyra Atoll 
closed to public access? What were the specific dates and reasons that 
the FWS web site information was changed to reflect these closures?
    Johnston Island National Wildlife Refuge was created in 1926, but 
placed under the primary jurisdiction of the U.S. Navy (subject to use 
as a refuge) in 1934. The Department of Defense still has primary 
jurisdiction at Johnston; any public use on the atoll would require the 
permission of both the Air Force and the Service. Due to the presence 
of environmental contaminants, public safety remains a significant 
concern.
    Kingman Reef and Palmyra Atoll National Wildlife Refuges were 
established by Secretary's Orders on January 18, 2001. Although public 
use was considered in the Palmyra Atoll Conceptual Management Plan, it 
was decided that safe and compatible public use was not possible due to 
higher priority needs for refuge personnel elsewhere in the Refuge 
System. Due to the remote location of Kingman Reef National Wildlife 
Refuge, the lack of a land base and support facilities to operate a 
visitor program, and the nearly pristine condition of the coral reef 
ecosystem, the Service determined that that Refuge would not be opened 
to public use in the interim period before development of a 
Comprehensive Conservation Plan. The Service is now in the process of 
developing the Comprehensive Conservation Plan for Kingman Reef and is 
scheduled to start a Comprehensive Conservation Plan for Palmyra later 
this year. Public use will again be addressed in these planning 
documents, and the public will have an opportunity to participate in 
the planning process.
D. National Wildlife Refuges Generally
    (1)  Please provide a list of all refuges closed as of September 
14, 2004 and the reasons for their closure? Please reconcile these 
numbers the revised list of closed refuges provided in Mr. Hartwig's 
statement to the Subcommittee on May 26?
    In preparation for the May 26, 2005 hearing on public access within 
the National Wildlife Refuge System, the Service obtained information 
concerning the number of refuges closed to public access. The 
information was obtained from a number of sources including refuge fact 
sheets, websites, existing databases, and in some cases, interviews 
with refuge managers. This data was obtained in May 2005 and should be 
similar to conditions as they existed on September 14, 2004.
    Based on this information, a total of 87 units of the national 
wildlife refuge system are closed to public access. Of these, Table 1 
lists 53 such units that the U.S. Fish and Wildlife Service generally 
does not hold authority to regulate public access. Table 2 lists those 
refuges which are currently closed to public access but will likely be 
open to public use following the completion of their respective 
comprehensive conservation plans. Finally, Table 3 lists those refuges 
which are closed to public access for either public safety or wildlife 
protection reasons.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    Although Mr. Hartwig did provide rough estimates at the meeting in 
September, those estimates represented the total number of both closed 
and unstaffed refuges--which are not mutually inclusive. There are 
currently over 200 refuges that are unstaffed, at least partially, but 
still considered open and have some type of limited public use.
    (2)  Please identify which NWRs over which the FWS does not control 
access (i.e., control is retained by the landowners)? Please identify 
the landowners and describe the conditions of these agreements between 
FWS and these landowners in regards to access and control of the site?
    The list of 53 refuges over which the FWS does not control access 
is included in Table 1 of the previous question. The authority to 
provide public use on these tracts remains with the private landowner. 
Generally, on those areas that the Service acquired fee title the 
agency controls access and on those areas where the Service acquired an 
easement interest, it does not control public access. Beyond rights to 
control public access to an easement property, the primary condition of 
a typical easement agreement is that the landowner agrees not to drain, 
burn, or mow wildlife habitat in order to maintain or restore waterfowl 
nesting habitat. The Service holds tens of thousands of easement 
agreements with individual landowners.
    The Service continually works to identify landowners and public 
access opportunities to refuges that contain a mixture of fee and 
easement holdings. For example, in the Mountain-Prairie Region, the 
Service conducts an annual audit of all holding to reconcile land 
ownership changes with the Region's records. When changes in land 
ownership are identified, the new landowners are contacted and advised 
of their rights and responsibilities under the easement agreement, thus 
ensuring that easement provisions are not violated. In addition, this 
Region also conducts aerial reconnaissance multiple times a year and 
conducts extensive mapping to track the status of easements and refuge 
access.
                                 ______
                                 
           QUESTION FOR THE RECORD BY THE HONORABLE RON KIND
    (1)  The statute, Committee Report and House Floor debate make it 
clear that the Big Six recreational uses are given priority, but not 
exclusive use within the System. In light of the National Wildlife 
Refuge System Improvement Act of 1997, how will the Service weigh the 
concerns raised by citizens about the possible curtailment of these 
activities in the CCP finalization process?
    The Service recognizes that the Big Six recreational uses are 
legitimate and appropriate uses of the Refuge System and are to receive 
enhanced consideration in planning and management. It is rare that the 
Service would curtail such uses on a refuge. Typically, this only 
occurs in instances where the resource impacts are unacceptable, public 
safety is a concern, or the use is deemed incompatible with the 
purpose(s) for which the refuge was established. Before the Service 
curtails any use, the public will be informed of the Service's 
intentions and allowed several opportunities to provide input during 
the planning process. All comments received from the public will be 
considered fully before finalizing any Comprehensive Conservation Plan.
       QUESTIONS FOR THE RECORD BY THE HONORABLE NEIL ABERCROMBIE
Protection of Historic Resources:
    (1)  Testimony from the International Midway Memorial Foundation 
makes several allegations about the Fish and Wildlife Service's role in 
identifying historic structures to be maintained on Midway Atoll before 
it was transferred to the Service in 1996. Could you please clarify the 
various roles of the Service, the Navy, and the National Park Service 
in evaluating Midway's historic resources?
    The role of the National Park Service on Midway Atoll is through 
their management of the National Historic Landmark (NHL) program, 
whereby they develop theme studies and look for examples to designate 
as NHLs. Study of Midway's heritage resources was initiated in 1986 
when the National Park Service conducted a survey of World War II-era 
properties eligible for designation as an NHL. Nine structures, all 
defensive positions, were identified on Midway associated with the 
pivotal Battle of Midway, including ammunition magazines (ARMCO huts), 
a pillbox, and gun emplacements. All of the resources are located on 
the west side of Sand Island, on relatively undisturbed terrain. A 
buffer zone around the individual structures was included in the NHL. 
No resources were identified on Eastern Island for inclusion in the 
NHL.
    The National Park Service also oversees compliance with the 
National Historic Preservation Act through the Advisory Council on 
Historic Preservation and State Historic Preservation Officers. The 
National Park Service has no legal authority for managing the historic 
resources on Midway.
    The role of the Navy was to comply with the National Historic 
Preservation Act of 1966, as amended, and to consider the impacts of 
their activities on historic properties. This is the same 
responsibility that the Service assumed when it acquired Midway Atoll. 
It was the Navy's responsibility to identify the historic properties 
that would be affected by their base closure activities, which included 
lead paint removal and demolishing buildings and structures.
    Between 1992 and 1994, the Navy sponsored studies of the Naval Air 
Facility on Midway carried out in conjunction with the Department of 
Defense Legacy Resources Management Program. The initial field effort 
consisted of an architectural history survey of the structures, 
buildings, and objects located on Sand and Eastern Islands. A military 
historian specializing in Cold War history performed archival research 
and surveyed resources on Eastern and Sand islands that were 
constructed after 1945. The historian concluded that none of the Cold 
War facilities at Midway were eligible for the National Register of 
Historic Places because they lacked the exceptional importance 
necessary for resources less than 50 years old. In addition to the nine 
NHL structures, 69 buildings, structures, and objects associated with 
the 1903-1945 historic period on Sand and Eastern Islands were 
determined eligible according to criteria established by the National 
Register of Historic Places.
    The Navy proposed demolishing 40 of the historic buildings during 
the base closure process. This action was considered an adverse effect 
and required consultation with the Advisory Council, National Park 
Service, Fish and Wildlife Service, and interested parties. Therefore, 
the Navy hosted a meeting in August 1995 with the Fish and Wildlife 
Service, National Park Service, Advisory Council, Hawaii State Historic 
Preservation Office, International Midway Memorial Foundation, 6th 
Defense Battalion U.S. Marine Corps, and Defenders of Midway Reunion 
Association. Many of the participants registered opinions that more of 
the historic buildings should be left standing. This led to a follow-up 
session with the Navy, Advisory Council, Service, and interested 
parties who reviewed all of the historic properties and recommended 
keeping more of the buildings to ensure the historic context of Midway 
was maintained. The results of this discussion were implemented in the 
1996 Programmatic Agreement amongst the Navy, Service, and Advisory 
Council.
    The Programmatic Agreement defined the historic properties and six 
types of preservation treatments: reuse, secure, leave as-is, fill, 
demolish, or relocate. According to the terms of the Agreement, only 15 
properties were demolished in 1996, prior to the transfer of Midway to 
the Service. In accordance with the Programmatic Agreement, the Service 
completed the Midway Atoll National Wildlife Refuge Historic 
Preservation Plan in June 1999.
    <bullet>  Has the Fish and Wildlife Service destroyed any historic 
resources since Midway Phoenix Corporation left in 2002?
    No, the Fish and Wildlife Service is not aware of the destruction 
of any historic resources since Midway Phoenix Corporation left.
    <bullet>  Does the Service provide any interpretation of these 
historic resources?
    Yes. Since 2002, more than 5,200 visitors have enjoyed the historic 
resources at Midway Atoll. In June 2002, The Service brought 100 
visitors to Midway to celebrate the 60th anniversary of the Battle of 
Midway. Since then, seven cruise ships have visited Midway, bringing 
more than 5,100 visitors to Sand Island. Three other ships were 
scheduled to stop but were precluded by weather and rough seas. Cruise 
ship passengers, many of whom are World War II veterans, come ashore 
for a 2 1/2-hour guided tour, primarily of the historic ``downtown'' 
area. Service staff and volunteers, occasionally accompanied by a 
National Park Service interpreter, are stationed at specific stops to 
provide information about the atoll's historic and natural resources. A 
series of interpretive panels providing historic information were 
completed in 2002 and are displayed when visitors are on the island.
    <bullet>  Does the Service put the needs of the Refuge above those 
of the National Memorial?
    Consistent with the National Wildlife Refuge System Administration 
Act of 1966, as amended, every National Wildlife Refuge is managed 
first to conserve, manage, and, where appropriate, restore America's 
fish, wildlife, and plant resources and their habitats. However, the 
Act also requires that individual refuges be managed in accordance with 
the specific purposes for which the refuge was established. Executive 
Order 13022, which transferred Midway Atoll from U.S. Navy jurisdiction 
to the Fish and Wildlife Service in 1996, specifies that the Service 
``in a manner compatible with refuge purposes, shall recognize and 
maintain the historic significance of the Midway Islands'' Thus the 
Service takes its administration of the Battle of Midway National 
Memorial very seriously, and the agency is proud to share Midway's 
history with visitors.
Fuel Spill:
    (2)  The Fisheries Subcommittee heard testimony that the fuel spill 
at Midway Atoll NWR was caused by contractor negligence. Could you 
please explain what caused the fuel spill and what actions were taken 
to clean it up?
    In February 2003, approximately 100,000 gallons of JP5 fuel leaked 
from an underground pipeline near the fuel farm on Sand Island. The 
cause of the spill was found 2 feet below the surface where an old 
aluminum camlock fitting capping a steel spigot on an 8-inch fuel 
pipeline had corroded. The pipeline was in place during the Navy's 
occupancy of Midway.
    As the primary land manager in 2003, the Service took immediate 
action to reduce the spread of fuel and to recover as much of the fuel 
as possible in order to limit the effects on natural resources. Service 
activities were coordinated with the U.S. Environmental Protection 
Agency, the National Response Team and the U.S. Coast Guard. The 
Service received $4.5 million in emergency supplemental funds for the 
fuel spill cleanup effort. Recovery efforts have been completed though 
some monitoring will continue indefinitely. In addition to the JP5 
fuel, significant pockets of contamination from earlier spills dating 
back to Navy operations were discovered and cleaned up to the extent 
possible. In terms of obligations, about 95% of the funds ($4.3 
million) have been obligated, and the remainder will soon be expended 
to clean a tank that was storing recovered fuel and for related final 
expenses.
    The fuel release affected only one Laysan albatross that was 
sitting on the ground at the site where the fuel bubbled up from the 
subsurface. The bird was cleaned and placed near its original site. No 
fuel was released into the marine environment and no historic resources 
were affected.
FWS/Midway Phoenix Corporation Relationship:
    (3)  The Fisheries Subcommittee heard testimony explaining how the 
contractual agreement between the Midway Phoenix Corporation and the 
Service was terminated.
    <bullet>  Please explain and clarify how was relationship between 
the Service and MPC ended?
    It became apparent the Service and Midway Phoenix Corporation (MPC) 
disagreed over a variety of management issues and implementation of the 
cooperative agreement between the two parties. MPC defaulted on, and 
subsequently terminated, a fuels contract with the Service. In an 
effort to resolve the situation without further contention, the Service 
entered into a No Fault Settlement Agreement with MPC. There were no 
financial liabilities to either party.
    <bullet>  Did the FWS force MPC out of business, or did it ask MPC 
to leave Midway for violations or non-performance under the operative 
agreement?
    The Service did not force MPC out of business. The Service expected 
MPC to meet the requirements of the Cooperative Agreement, but did not 
ask them to leave Midway Atoll. Both parties agreed it was in their 
best interest to terminate the agreement.
Airfield Status:
    (4)  Please describe the current status of the airfield, its 
operations and maintenance, and the costs associated with its present 
operation?
    Midway's airport is fully operational and managed to meet the 
requirements of Federal Aviation Administration (FAA) Part 139 Airport 
Certification criteria (the same criteria used at most international 
airports in the United States). It is managed by American Airports 
Corporation under a subcontract to Chugach McKinley Inc. However, in an 
effort to lower costs associated with its operation and maintenance, 
Midway no longer has refueling operations available. The airport is 
open to emergency landings and Midway support flights, as well as other 
aircraft not needing fuel if they have prior permission to land. In 
early 2005, the Service and the FAA agreed that the airport should no 
longer be open to general air traffic because of its sporadic and 
insufficient use, as well as the substantial cost to the Government to 
operate an airplane fueling facility in the middle of the Pacific 
Ocean.
    In FY 2005, the bulk of the cost for airfield and supporting 
infrastructure is being shared by the Service and FAA. The FY 2005 
Service Budget included $4.0 million in operations and annual 
maintenance funding for Midway to cover refuge operational costs and 
the Service's share of airport, infrastructure, and fuel costs. The 
Service's current share of costs is based on a cost distribution 
methodology developed in FY 2004. This cost distribution methodology is 
currently being reviewed and, as required in FY 2005 Appropriations 
language, the Office of Management and Budget will decide on an 
equitable allocation of costs among executive department agencies to 
operate Midway.
Visitor Program:
    (5)  Please describe the current visitor program at Midway Atoll 
NWR? Do you have any plans to provide more opportunities for the public 
to visit the atoll? What is the current status of planned cruise ship 
visits to the refuge?
    Due to the limited availability of air transportation to Midway, 
almost all of the current visitor program is based on the arrival of 
scheduled cruise ships. As indicated above, during the past few years 
we have welcomed seven cruise ships and more than 5,100 visitors to 
Sand Island. The most recent cruise ship, the Pacific Princess, arrived 
on June 1, 2005. Two more cruise ships are scheduled in March 2006, the 
Crystal Symphony and the Saga Ruby.
    In September 2004, the Service contracted with Pandion Systems, 
Inc., to conduct a Midway visitor program market analysis and 
feasibility study. This study was to serve as a basis for future 
visitor services planning for Midway. The Service received the final 
report in May and is still evaluating its recommendations.
    The Service is supportive of making regularly scheduled visitor 
opportunities available again once the basic infrastructure issues on 
Midway are resolved. Sharing Midway's unsurpassed wildlife resources 
and its varied history with visitors is important to the Service.

                             Attachment #1

     Congressional Correspondence re: Unexploded Ordnance (UXO) on

                   Desecheo National Wildlife Refuge

    <bullet>  Congressman Cliff Stearns, February 5, 2003
    <bullet>  Congressman Cliff Stearns, May 16, 2003
    <bullet>  Congressman David Price, August 5, 2003
    <bullet>  Senator Don Nickles, April 29, 2004
    <bullet>  Congressman David Vitter, August 23, 2004
    <bullet>  Senator John Warner, August 23, 2004
    <bullet>  Congressman Nick Rahall, September 1, 2004
    <bullet>  Senator Robert Byrd, September 7, 2004
    <bullet>  Congressman Mark Souder, September 10, 2004
    <bullet>  Congressman Richard Pombo, September 23, 2004
    <bullet>  Congressman Betty McCollum, May 6, 2005



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gilchrest. Thank you very much, Mr. Hartwig. Just a 
couple of sort of direct questions; Midway first. Is there 
access to the public? What kind of access to the public is 
there on Midway right now?
    Mr. Hartwig. Midway is open for the public to arrive and 
visit. As you pointed out in your earlier remarks, there will 
be a Princess Line cruise ship that shows up there next week, 
with about 700 passengers. All we ask is that the visiting 
public make arrangements ahead of time; as we don't have 
interpretive staff onsite, and we make arrangements well in 
advance. And most of these cruises are made a year in advance.
    Mr. Gilchrest. So there are interpreters that will 
accompany that cruise ship?
    Mr. Hartwig. They will fly out and be there when the 
passengers debark from the cruise ship, and be able to 
interpret both the military history as well as the wildlife 
activities on the refuge.
    Mr. Gilchrest. OK. I am just reading this for the first 
time. On the Midway Atoll National Wildlife Refuge U.S. Fish 
and Wildlife Service website, ``Due to operator's decision to 
leave Midway Atoll, the visitor program closed in January '02. 
Although our vision to maintain Midway as the only remote 
island national wildlife refuge open to public visitation has 
not changed, it may be some time before we can once again 
welcome visitors to the atoll on a regular basis. In the 
meantime, those able to provide their own transportation to 
Midway should contact the refuge manager for more 
information.''
    Could there be a line added to there to say, ``We still 
welcome visitors; we don't have a program; there is no 
contractor; but there are other means to arrive''? I guess what 
I am saying is some people have told me that this is confusing, 
and people assume that when they read this they cannot get to 
Midway, even though there are other means and other ways to get 
there.
    Mr. Hartwig. Well, Mr. Chairman, immediately after this 
hearing, I am going to fire the web master.
    Mr. Gilchrest. Please, I think it is my brother-in-law, so 
don't.
    [Laughter.]
    Mr. Gilchrest. Please don't fire the web master. I don't 
want you to fire the web master.
    Mr. Hartwig. Actually, your comment is well taken. 
Actually, today even the runway could be utilized, as long as 
an airplane could get out there and get back without refueling. 
And of course, that is a major impact for most airplanes, to be 
able to do so at this time. But who knows what will happen in 
the years to come?
    We certainly will modify that to indicate that the public 
is welcome. In fact, beyond cruise ships, we do happen to have 
others that do stop by in their private boats of all types; 
mostly larger yachts, etcetera. So we certainly are willing to 
modify it.
    Mr. Gilchrest. And to the degree that I can, I understand 
the difficulties to the Fish and Wildlife Service. The original 
intent highest priority is a refuge for wildlife; bring back 
endangered species. And that is beginning to happen out there, 
so that is a very positive thing.
    Midway, though, in particular, is there a system that can 
be if someone chooses to? You know, if some contractor from 
Hawaii, San Francisco, Florida, or wherever, decides that they 
want to begin regular excursions to Midway, that is possible, 
though, for people to have access to Midway that way?
    Mr. Hartwig. Absolutely. Yes, sir.
    Mr. Gilchrest. On the Caribbean Islands, the ham radio 
operators two specific reasons for not being able to go to the 
two islands that they mentioned. One is safety, because the 
island is difficult to get on because of the high cliffs. And 
the other one, because of the unexploded ordnance. Not because 
of the incompatibility of the activity.
    Is there any way to work out those safety issues and ensure 
that the ham operators can conduct themselves in a compatible 
fashion? For example, I am not sure how to pronounce that one 
island, where the Army Corps of Engineers----
    Mr. Hartwig. Desecheo.
    Mr. Gilchrest. Desecheo. You mentioned Massachusetts had a 
problem in a refuge where there was unexploded ordnance. And so 
there was an observation tower or a designated area selected 
for people to visit that refuge; not walk around on it, but 
there was a specific site that they could go to. Is that 
possible on Desecheo?
    Mr. Hartwig. Well, certainly, people are allowed to go by 
boat and circle the island, and they can see some things from 
the boat. I do happen to have with me a few photographs that I 
would be happy to show, to explain. We will talk about one, and 
then the other. But Desecheo, I would like to show you the 
picture.
    This is Desecheo. You can see that it is a fairly small 
island. It is only a mile across.
    Mr. Gilchrest. How many acres?
    Mr. Hartwig. Total acres, 350, about 350.
    Mr. Gilchrest. Three hundred and fifty acres?
    Mr. Hartwig. Three hundred and fifty acres. It is a little 
dot in the Caribbean, a mile across. I want to address a couple 
of things here that are really problematic.
    The first thing is that we generally do not invite the 
public or encourage the public to come to areas where there is 
still unexploded ordnance remaining. We do not have the 
authority or the expertise to determine where these bombs or 
other unexploded ordnance are located, or when the area is 
totally clean. That is usually the Corps of Engineers.
    Mr. Gilchrest. Is there any activity ongoing now to remove 
those unexploded ordnance?
    Mr. Hartwig. The island still is listed on the FUDS list, 
which is the military's list of unexploded ordnance that needs 
to be cleaned up. We checked as recently as two days ago. They 
are confident that there are still problems located there.
    They did an initial screening of the area, just surface 
screening, and indicated they didn't see very many problems 
other than ordnance that had been exploded; but they could not 
guarantee, and in fact they are knowledgeable that there are 
unexploded ordnance under the ground.
    And in effect, we have on trips to the island discovered 
after heavy rains that some of these bombs are in fact exposed. 
As you can see by the dot up there in the left-hand side of the 
island, a 100-pound bomb was discovered very close to the area 
where the helipad was referred to by prior speakers.
    Mr. Gilchrest. Was it live, do you know?
    Mr. Hartwig. It was live.
    Mr. Gilchrest. Live ordnance?
    Mr. Hartwig. And there were others throughout the island 
that have been suspected, or have been uncovered over time. It 
is not known exactly how many are there, or where they are 
located.
    Mr. Gilchrest. My time has expired, but we may have a 
second round. Mr. Pallone.
    Mr. Pallone. Let me just ask about Desecheo, and then I 
have some more general questions. Are there any other refuges 
that have unexploded ordnance onsite?
    Mr. Hartwig. There are other refuges that do have 
unexploded ordnance onsite. One was referred to in a prior 
panel. Ox Bow does not have unexploded ordnance onsite. That 
may be some relic of a sign. But I can tell you that we do have 
a nominal number of refuges that are closed for specific 
reasons, and some of those are unexploded ordnance that we have 
inherited through transfer.
    Mr. Pallone. But they are not all closed, the ones that 
have them?
    Mr. Hartwig. Every one that has unexploded ordnance, either 
the refuge is closed or, if it is large enough, portions of 
that refuge are open and other portions that have unexploded 
ordnance are closed. One such example, when I was regional 
director in the Midwest we inherited the Jefferson Proving 
Ground. It is a huge refuge, now called Big Oaks National 
Wildlife Refuge. And there are areas that are open to the 
public, and there are other areas that are closed to the public 
because of unexploded ordnance.
    Mr. Pallone. But even on these ones that are closed, don't 
you have sites, you know, like safe areas, for your own 
personnel to operate from?
    Mr. Hartwig. For management purposes, we do have some of 
our staff that will go to closed refuges, whether they are 
closed for unexploded ordnance purposes or they are closed for 
other reasons that conflict with our wildlife mission. Our 
management will still go there to do activities that are 
required to either know more about the area, so that we can in 
fact do a better study to understand if the area could be 
opened up to the public----
    Mr. Pallone. Because I was just going to suggest that the 
permit holders, like the ham operators, could broadcast from 
those safe areas where your own personnel are.
    Mr. Hartwig. That is possible. And in fact, that has been 
done in some locations, some of which have been mentioned 
earlier today. This island being only one mile across, and with 
unknown knowledge of where the unexploded ordnance is, we take 
a chance when we send our people out. There is no way that we 
would take the risk or liability, or encourage the public to be 
able to come there and go through the same possibility.
    Mr. Pallone. Let me ask a more general question. It has 
been mentioned that the Fish and Wildlife Service considers all 
refuges closed unless expressly open for use. Is that true? And 
if so, where specifically does the Service draw its authority 
for that?
    Mr. Hartwig. Our act, Refuge Improvement Act, as well as 
our establishing legislation, calls for all refuges to be 
closed until open, except those that are in Alaska. And of 
course, the wildlife management districts I referred to are 
open as well, as opposed to closed.
    We go through a process immediately. Those activities that 
are ongoing, that we can do a fairly quick compatibility 
determination because they are maybe a ``big six'' activity or 
another wildlife-dependent activity, we make those early 
rulings to open those areas up to continuing use.
    An example of this is Detroit River International Wildlife 
Refuge, where hunting is a major activity for local citizens. 
We have already determined that hunting will continue on that 
refuge, even though the full CCP process and compatibility 
determinations for all activities have not been completed.
    Mr. Pallone. So it seems like the term ``closed'' means 
different things, depending on the time of the year, or the 
purpose for which the refuge was established, the type of use. 
It is confusing to me, as to when the Service considers a 
refuge closed.
    Mr. Hartwig. Congressman Pallone, let me make an effort at 
trying to explain this, because it is very confusing to most 
people. Our act does not give us a term ``closed.'' Basically, 
it says all refuges are closed until open.
    We have 495 of our 582 refuge units that are open. To some 
activity, they are open. Twenty-seven are closed for public 
use, because of public safety or because the area is so small 
that there is not an ability to handle both the wildlife 
mission and the public.
    We have two other groups of lands. Eleven of our refuges we 
have no authority to open, because when we purchased the 
easement on the lands associated with these refuges, there was 
not the public entry as a right that was purchased. In other 
words, the refuge is there for wildlife, but not for the 
public.
    We have 49 other refuges that are currently undergoing 
study to determine whether those refuges can in fact be opened 
up to the public, in part or for all uses. About ten of those 
refuges are fairly new refuges. And I gave you the example of 
Detroit River. We have already predetermined that hunting will 
be a compatible wildlife-dependent use and will be authorized, 
but we have not determined other uses, and we will do so when 
we go through the CCP process, the comprehensive conservation 
fund process.
    Thirty-nine of those areas are located in our wetland 
management districts, where we are working with our solicitor 
to determine whether those areas could in fact be opened up to 
the public. Prior opinions by our solicitor did not give us 
that ability.
    Mr. Pallone. Mr. Chairman, I know my time is up, but just 
related to this, I guess my question is, do you think it is 
best to leave it like this, on a refuge-by-refuge basis? Or 
would you have some consistency or some change in the law 
perhaps to make it more consistent?
    Mr. Hartwig. Congressman Pallone, I find that to be a 
totally effective way of doing things: the fact that each 
refuge is an individual refuge; has its own authorizing 
legislation, either general or specific; and has its own 
community that it sits within; each refuge has its own 
capability to handle a certain amount of the public.
    As the Chairman has indicated, within his own district, 
Susquehanna Refuge, which used to be 4 acres in size, has now 
dwindled to about an acre and a half; has a difficult time 
handling people and birds that are on that island, as well.
    So I think we have to look at each one of these at one 
moment in time each. Again, the good news is, 495 of the 582 
areas are in fact open to the public for a wildlife-dependent 
activity. And we are looking at 49 more, to see if they can 
join that list.
    Only 11 do we have no authority to be able to have public 
activity, whether we would like it or not, because those are 
easement refuges that public access was not a part of what was 
purchased when those easements were purchased.
    And as I say, the 27 areas, most of those areas, they 
occupy in total less than 1/10th of 1 percent of the entire 
National Wildlife Refuge System by acre, less than 16,000 acres 
of the total almost 100 million acres. These are often very, 
very small areas that it is difficult to have both people and 
wildlife in those very small areas. Some of these are an acre 
or two in size.
    One I will give you as an example is our first refuge, 
Pelican Island. Pelican Island on the shore has a very nice 
observation walkway and deck. But the Pelican Island itself, 
which was a mere 5 acres in size, has dwindled in size as well. 
And that island is closed, because it is a nesting area for 
wading birds and pelicans.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I am going 
to follow up on Mr. Pallone's questioning here on the closure 
of the refuges.
    Mr. Hartwig, you said that a total of 27 refuges are closed 
to all public entry and use. Now, this is a different number 
than the committee staff provided us as background for the 
hearing today; which was, based on their analysis, 88, or 
roughly 16 percent, are closed to public access.
    So I want to reconcile this. I think you mentioned other 
numbers here: 11 and 49; which if you add that to the 27, adds 
up to 87. But you stated actually they are closed. They are all 
closed, then, 87 of them, rather than the 27; which is not a 
real accurate number. Is that correct?
    Mr. Hartwig. Well, let me respond, Congresswoman. The total 
number we have right now today is about 87. Twenty-seven, we 
have determined, are closed, 27. Forty-nine, we are still 
determining through our CCP process, should they be open or 
not.
    Ms. Bordallo. But at this time----
    Mr. Hartwig. Right now, they are closed.
    Ms. Bordallo. That is right.
    Mr. Hartwig. But once we complete that, I feel confident 
that many of those will in fact move over to the open column. 
And 11, we cannot open, even if we wanted to. This august body 
could not open them.
    Ms. Bordallo. Yes.
    Mr. Hartwig. We do not have the wherewithal, as the current 
landowners contain the right of entry to the property. We did 
not purchase that when we purchased the easement.
    Ms. Bordallo. I just want to point out that a more accurate 
number to the committee would have been the 87, rather than the 
27. Because they are closed now.
    Mr. Hartwig. They are technically closed now. And I would 
agree, 87 would be a better number.
    Ms. Bordallo. All right. How many units in your system 
today do not have the CCPs, or for which CCPs are pending final 
approval?
    Mr. Hartwig. Well, we have somewhere in the neighborhood of 
about 85 to 90 CCPs that have been completed, of the 545 
national wildlife refuges. And we have another 60 or 80 that 
are well underway, and we expect to have those done within 
another year, year and a half. And each year following has a 
similar number of refuges that are going through that CCP 
process.
    Ms. Bordallo. All right, a follow-up. Is public use and 
access policy in a particular refuge really driven by the CCP 
process? And how does the process involve the public and ensure 
that their input is gained?
    Mr. Hartwig. The actual operation and use of the refuge by 
the public is driven by the compatibility determination 
process, which is backed up by the Refuge Improvement Act of 
1997. The CCP should address all of those compatibility 
determinations in an open, public forum. Compatibility 
determinations themselves, as you heard from earlier witnesses, 
are open for public response when in fact they are issued in 
draft, before they are finalized.
    Ms. Bordallo. And for the record, Mr. Chairman, I think it 
would be helpful if Mr. Hartwig could provide a list of which 
refuges have UXOs and are on the Army Corps' FUDS list.
    Mr. Hartwig. We would be happy to do so.
    Ms. Bordallo. Mr. Chairman, are we going to have another 
round?
    Mr. Gilchrest. You can keep going, Ms. Bordallo.
    Ms. Bordallo. I can? Thank you. Since I have the gentleman 
here, this is something that is a very serious concern on Guam. 
And I am not so sure if you are aware. Is Guam part of your 
jurisdiction?
    Mr. Hartwig. Yes, it is. We have a refuge there.
    Ms. Bordallo. Very good, yes. Guam is home to a national 
wildlife refuge that was established in 1993 on land that was 
declared excess by the Department of the Navy. The mission and 
public access policies of the Guam National Wildlife Refuge, 
since its establishment, have remained a source of serious, 
serious concern in Guam. It is now a court case.
    Public access to and through the Guam National Wildlife 
Refuge directly impacts the rights and ability of private 
landowners in northern Guam to access, develop, and use their 
property. Certain private landowners at Jinapsan Beach continue 
to contend with unfavorable and restrictive access policies, 
because their property is accessible only by crossing land 
owned by the Federal Government at Anderson Air Force Base, or 
alternatively, through the Guam National Wildlife Refuge.
    And as a result, some landowners who operate eco-tourism 
operations have been adversely economically impacted; 
particularly in light of the heightened access restrictions 
imposed at Anderson immediately following September 11th.
    It has now been over a decade since the Guam National 
Wildlife Refuge was established, and nearly five years since 
base access restrictions were imposed, and the issue of access 
to federally land-locked private property in Guam remains an 
unresolved matter. Landowners continue to seek a resolution of 
access for their property.
    This hearing presents another opportunity for me to again 
raise this matter to the attention of the Department of 
Interior, and to encourage the U.S. Fish and Wildlife Service 
and the Department of the Air Force to cooperate in determining 
a permanent alternative route of access for these landowners.
    As I mentioned earlier, this is a court issue, and we are 
awaiting an environmental study. And I understand that process 
is in your agency's hands. And there is no report forthcoming, 
and this is a very serious situation. Do you have anything to 
say to that?
    Mr. Hartwig. Well, I am familiar with the issue. I believe 
we have talked about this issue. Part of the solution is the 
military granting access. I understand their concern for not 
doing that, relative to their security issues.
    The other potential solution is, obviously, granting a 
right-of-way through the refuge. And we are pursuing the 
biological studies, as you know, to make sure that this is done 
in a straightforward manner, and that we have an environmental 
impact statement that allows us to pursue that. And the court 
has entered and will have some say-so as to what the ultimate 
solution is in this case.
    Ms. Bordallo. Well, I certainly hope the process moves 
forward--we have waited a long time, and the landowners there 
are very anxious, and this is a very serious concern.
    Second, I want to mention to you that the Guam National 
Wildlife Refuge was previously open to the public until 5:00 
p.m. each day. However, a change in policy last year has 
reduced the public access hours, and the gate is now closed at 
4:00 p.m.
    And this is another concern, with these reduced hours and 
the refuge's policy for public access within the boundaries, 
that has been raised with me at many local meetings; my 
constituents, the mayors, the government officials. And what is 
the reason for reducing the working hours by one hour?
    Mr. Hartwig. I am unfamiliar with that issue, 
Congresswoman. I will be happy to get that information for you 
and get back to you. I just don't know why. I mean, I certainly 
can tell you, throughout the refuge system we are reducing 
hours in some places, and that is directly related to 
capability to pay staff to be there for longer periods of time. 
But I don't know if that is the case here.
    Ms. Bordallo. Mr. Chairman, I just wish to have this 
statement and some of the accompanying documents placed into 
the record.
    Mr. Gilchrest. Without objection. Without objection.
    [The information submitted by Ms. Bordallo follows:]

    Statement of The Honorable Madeleine Z. Bordallo, a Delegate in 
                           Congress from Guam

    Thank you Mr. Chairman for convening this hearing today to examine 
the policies and practices of the U.S. Fish and Wildlife Service 
regarding public access to our nation's 545 Wildlife Refuges. This is 
an important subject and an area where I believe this Subcommittee's 
oversight responsibility should be exercised to the fullest extent 
possible in order to ensure fairness, reasonableness, and consistency 
in public access and public use policies across the National Wildlife 
Refuge System. Public access to, through, and within National Wildlife 
Refuges is also a subject of interest to my constituency.
    My district, Guam, is home to a National Wildlife Refuge that was 
established in 1993 on land that was declared excess by the Department 
of the Navy. The mission and public access policies of the Guam 
National Wildlife Refuge since its establishment have remained a source 
of concern in Guam. Public access to and through the Guam National 
Wildlife Refuge directly impacts the rights and ability of private 
landowners in northern Guam to access, develop, and use their property.
    Certain private landowners at Jinapsan Beach continue to contend 
with unfavorable and restrictive access policies because their property 
is accessible only by crossing land owned by the Federal Government at 
Andersen Air Force Base, or alternatively through the Guam National 
Wildlife Refuge. As a result, some landowners who operate eco-tourism 
operations have been adversely economically impacted, particularly in 
light of the heightened access restrictions imposed on Andersen Air 
Force Base immediately following September 11, 2001. It has now been 
over a decade since the Guam National Wildlife Refuge was established, 
and three years since base access restrictions were imposed and the 
issue of access to Federally land-locked private property in Guam 
remains an unresolved matter. Landowners continue to seek a resolution 
of access for their property. This hearing presents another opportunity 
for me to again raise this matter to the attention of the Department of 
the Interior, and to encourage the U.S. Fish and Wildlife Service and 
the Department of the Air Force to cooperative in determining a 
permanent alternative route of access for these landowners.
    A June 30, 2000, stipulation by the U.S. District Court in Guam and 
landowners provided that the U.S. Fish and Wildlife Service and the 
Department of the Air Force would prepare an Environmental Impact 
Statement (EIS) to ``afford an alternative permanent easement for a 
route of access.'' On August 15, 2000, the Department of the Air Force 
printed its notice of intent in the Federal Register to prepare an EIS 
for access. Prior to September 11, 2001, access was via base roads. 
However, the EIS is still not completed due to disagreement between the 
U.S. Fish and Wildlife Service and the Department of the Air Force. One 
of the three access alternatives that was proposed and studied by the 
initiated EIS was a road along an old bull cart trail through the Guam 
National Wildlife Refuge. I understand that this road was the preferred 
alternative, but that the U.S. Fish and Wildlife Service has not 
concurred. I have secured committee report language in the Fiscal Year 
2005 National Defense Authorization Act that supports a resolution to 
this issue and which encourages the services of an outside 
organization, conversant with these issues in order to expedite 
completion of the EIS and to determine a permanent alternative route of 
public access to privately-owned properties at Jinapsan Beach. I ask 
that the U.S. Fish and Wildlife Service embrace this process and 
cooperate in the work to complete the EIS as soon as possible. 
Additionally, I ask that the U.S. Fish and Wildlife Service consider 
the Federal Lands Highway Program administered by the U.S. Department 
of Transportation as a means to providing for the construction of a 
public road within the Guam National Wildlife Refuge for access to 
Jinapsan Beach for private landowners, their sponsored guests, and 
visitors.
    Lastly, I want to state my specific concern with the current public 
access hours at the Guam National Wildlife Refuge. The Guam National 
Wildlife Refuge was previously opened to the public until 5:00 p.m. 
each day. However, a change in policy last year has reduced the public 
access hours. The gate is now closed at 4:00 p.m. Concerns with these 
reduced hours and the Refuge's policy for public access within the 
boundaries have been raised with me at local village meetings, by 
constituents and Mayors, as well as by the Guam Boonie Stompers, a non-
profit corporation in Guam organized to lead weekly recreational hikes 
for the general public. I ask that testimony on this issue from the 
Guam Boonie Stompers be included in the record for today's hearing. I 
would appreciate the attention of the U.S. Fish and Wildlife Services 
Headquarters to the issue of public access hours at the Guam National 
Wildlife Refuge. I would hope the Administration's budget request for 
Fiscal Year 2007 would budget accordingly to allow for the hours at the 
Guam National Wildlife Refuge to be more conducive to the public 
interest in Guam.
    Thank you for the opportunity to present these issues at today's 
hearing.
                                 ______
                                 
    [A letter submitted for the record by Mrs. Bordallo from 
David T. Lotz, President, Guam Boonie Stompers, follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    Mr. Gilchrest. Thank you very much.
    Mr. Hartwig, can you tell us when the compatibility study 
determined that--is it Shawangunk? Am I saying that right?
    Mr. Hartwig. Shawangunk.
    Mr. Gilchrest. Shawangunk. The compatibility determination, 
when was that made, as far as the model airplanes were 
concerned?
    Mr. Hartwig. In 2002.
    Mr. Gilchrest. In 2002. And you took over the site in what 
year?
    Mr. Hartwig. Well, I think, as it was talked about on the 
earlier panel without a lot of the detail, the refuge was 
established in 1999, after a GSA transfer, and it was a result 
of the BRAC closure. This was an area that was put up. And in 
that process, we took over 566 acres. There were additional 
acres that the community did get through the normal BRAC 
process. I think that was referred to by one of the other 
speakers.
    So the actual use for model airplanes was curtailed by the 
military prior to the transfer, four years prior to the 
transfer. So there was no use for the four years prior to when 
we operated it.
    Mr. Gilchrest. Is there any reason that the military 
canceled that use? Do you know what the reason was for it?
    Mr. Hartwig. I don't know the reason why they canceled the 
use. But I know that the use was not ongoing when we took over 
the land.
    Mr. Gilchrest. And the issue with the incompatibility 
determination is the airplanes, or the number of people on the 
site, or a combination of the two?
    Mr. Hartwig. Well, I think it is a combination. It is a 
fairly small site, 566 acres. It is a wet meadow area. As the 
usage of the runway has diminished, we are seeing the area 
wetter; which is better for what we are doing with the neotrop 
birds and others.
    There is a direct conflict between people who would like to 
go out there in a nice, quiet, pristine area and watch birds, 
as opposed to someone who would like to go out there and fly a 
model airplane, no matter how little noise it makes.
    Mr. Gilchrest. Do you have any idea of the type of 
neotropical birds that fly through?
    Mr. Hartwig. I can certainly provide a list. I don't happen 
to have that off the top of my head.
    Mr. Gilchrest. You said that 11 refuges are closed, 
permanently.
    Mr. Hartwig. Absolutely. Eleven refuges are closed because 
we do not have the authority to have the public set foot on the 
property.
    Mr. Gilchrest. Oh, those are the easements?
    Mr. Hartwig. Those are the easements.
    Mr. Gilchrest. Those are the easements. I see.
    Mr. Hartwig. Right.
    Mr. Gilchrest. OK. And that is because you purchased the 
easement, but the people still live there?
    Mr. Hartwig. Right. They are still farming in many cases, 
and so it is private land. We have the right to have that 
property not developed.
    Mr. Gilchrest. Right.
    Mr. Hartwig. And so they can continue to farm it.
    Mr. Gilchrest. What is the budget for that in the Refuge 
System, every year.
    Mr. Hartwig. For--?
    Mr. Gilchrest. For purchasing easements. Is there a line 
item for that?
    Mr. Hartwig. We don't have a line item for it. It comes out 
of the Migratory Bird Conservation Fund.
    Mr. Gilchrest. I see.
    Mr. Hartwig. About in the neighborhood of 50 percent of the 
annual receipts in the Migratory Bird Conservation Fund go to 
the waterfowl production area of the United States, which is in 
the north-central part: western Minnesota; northwest Iowa; 
North, South Dakota; and Montana. And I would say approximately 
a third to a half of those funds go into purchase of easements. 
It is a very robust program that we have there in the 
easements.
    Mr. Gilchrest. I see. The two islands in the Caribbean that 
we were talking about, Desecheo and Navassa----
    Mr. Hartwig. Right.
    Mr. Gilchrest. Are these pretty well determined to remain 
closed? Is there an ongoing study or determination of the 
possibility of opening part of them for the ham operators?
    Mr. Hartwig. Well, I think there is always a possibility. I 
think Desecheo, the situation we have, as you can see here, is 
as soon as the military has this location come up to its top of 
the list, where they are able to provide the funding to clean 
the area up so that we can in fact have the public arrive 
there, then my feeling is that we would certainly want to go 
through that compatibility determination again. And I would 
suspect that activities that we have heard about today would 
probably have a much better opportunity of doing that. I can't 
determine that today.
    Mr. Gilchrest. Who is responsible, from your understanding, 
for cleaning up the unexploded ordnance on Desecheo?
    Mr. Hartwig. That is the Corps of Engineers, the military.
    Mr. Gilchrest. The Corps of Engineers.
    Mr. Hartwig. Yes. Yes, sir.
    Mr. Gilchrest. So then it would be likely that they 
wouldn't do it unless they received a specific appropriation 
for the island?
    Mr. Hartwig. My understanding of how they do their cleanup 
is they have a list, from top to bottom, most important to 
least important. And this is fairly low on their list. If it 
were moved to the top of the list, I am sure they would clean 
it up sooner than later. But like all government agencies, they 
are limited in funding.
    Mr. Gilchrest. Right.
    Mr. Hartwig. And they only clean up so many per year.
    Mr. Gilchrest. Do you have any other pictures of Desecheo?
    Mr. Hartwig. Yes, we do. You can see the nice rugged 
coastline; makes it kind of fun landing a boat. OK, here is 
Navassa. And this is the underwater coral reef area, which is 
very robust and something we are very concerned about making 
sure is there in the future.
    Here is another picture of Navassa. It shows the landing 
site, if you can see it.
    Mr. Gilchrest. Yes.
    Mr. Hartwig. It is kind of right in the middle, where there 
is a sheer rock cliff there.
    Mr. Gilchrest. Couldn't you put some ropes, and people 
could climb up those ropes to get to the top of those cliffs?
    Mr. Hartwig. Well, actually, you can see right here they 
are coming off the boat on a cable that is hooked up.
    Mr. Gilchrest. Oh, is that how they dock?
    Mr. Hartwig. Yes, until--the cable is now gone, actually, 
today. But my understanding is that is how people had to get 
onto the island, was via that.
    Mr. Gilchrest. That is how the ham operators got onto the 
island? That is fascinating. I guess they were all former 
Marines or Navy SEALS.
    Well, Mr. Hartwig, thank you very much. Oh, there is 
another.
    Mr. Hartwig. Well, we are moving out to the Hawaiian 
Islands.
    Mr. Gilchrest. I see.
    Mr. Hartwig. And we are showing you a little bit of Midway. 
And incidentally, if the Chair would beg some indulgence here, 
I do want to address just very briefly some of the----
    Mr. Gilchrest. You want me to beg indulgence? Or how does 
that work? I'm sorry. Please.
    Mr. Hartwig. If you would, sir. I just wanted to explain an 
offer to the committee recent photographs and descriptions of 
all of the historic preservation activities that we have 
undertaken in recent years since we have been there.
    You can see how difficult this area is. This was, of 
course, essentially a town of 5,000, in the middle of the 
ocean; which is now basically uninhabited, except by bird life 
and other wildlife.
    There in the background, there is certainly a historic gun 
emplacement, but also one of the memorials, which we keep up, 
and keep up the sidewalk around it. And when our visitors next 
week come off of the Princess Line, they will go over and take 
a look at this area, and see that it is maintained in good 
stead.
    There is one of our guardians. You can see that the area 
has changed. It doesn't look the same as it might have looked 
in the 1940s, when planes were taking off and people were 
scurrying around, doing lots of things. Birds are now there. 
And our mission is to do both the historic preservation and our 
wildlife mission, and we believe we are doing both.
    Mr. Gilchrest. Thank you very much, Mr. Hartwig.
    Mr. Pallone.
    Mr. Pallone. Just a few more questions. It appears that the 
public access status of these remote Pacific island refuges has 
recently been changed to closed for public use. That is getting 
back to what I was asking before. When was that change made, 
and was it made after the completion of a comprehensive 
conservation plan? And what factors led the Service to conclude 
that these refuges must now be closed?
    Mr. Hartwig. Most of the changes from open to closed--and 
you have heard some discussion earlier by panels--were made 
after the 1997 Improvement Act, and after the GAO report, and 
after the lawsuit that we had that told us that we had 
somewhere in the neighborhood of 10,000 to 20,000 incompatible 
uses that had to cease and desist.
    And so these were areas where we wanted to make sure we do 
the CCP, to fully analyze the activity, as they weren't 
ongoing, regular activities. And so each of these activities 
will be addressed, as those CCPs are completed. In most cases, 
the CCPs have not been completed.
    Mr. Pallone. And then, according to Mr. Farrell and Mr. 
Allphin, ham radio operators have a fairly long history of 
using refuges for training broadcast expeditions. And just for 
the record, have you any knowledge of any instance where a ham 
radio group operating under a permit was found in violation of 
any permit condition?
    And again for the record, has the Service compiled any 
evidence demonstrating, or even indicating, that ham radio 
operations have harmed wildlife?
    Mr. Hartwig. I certainly have not received any evidence on 
either of those points. Our concern, certainly, on Desecheo was 
the safety concern. It had nothing to do with their activity 
being compatible or not; it was unsafe.
    Mr. Farrell in his Powerpoint presentation went over many 
of those points--skipped over the one on safety, incidentally. 
But that is a major concern of ours with the public. We do not 
want to invite the public to an area that is unsafe, and we 
know it is unsafe.
    Mr. Pallone. And then, last, you know, I had mentioned 
budget constraints. And obviously, they limit the ability of 
the Service to provide coverage at all refuges. Could you 
please tell us what strategies you have been taking to overcome 
the lack of operating resources? And how has that affected law 
enforcement within the refuge system?
    Mr. Hartwig. We are trying to the best of our ability to 
take the available dollars that the Administration and Congress 
give us, to apply those most equitably where we have the 
greatest demand by the public for entrance. And that is why 
many of these remote areas in fact are closed to the public; 
because they are very difficult to get to, they are very 
expensive to maintain staffing there. And so we have 
concentrated in areas where they are closer to the public and 
there is more public demand for their access.
    Mr. Pallone. So I mean, the answer is, obviously, it is 
difficult to enforce. I mean, your lack of resources has 
affected the law enforcement within the refuges. That is some 
of the reasons why you are not keeping a lot of them open.
    Mr. Hartwig. That is correct. Our law enforcement 
capability is not as large as we would like to have it. It is 
as large as we can afford to have it. We do, in fact, have in 
the neighborhood of 40,000 volunteers that do help us to keep 
some areas open, where we are unable to have staffing there on 
a permanent basis or to have those hours extended.
    Mr. Pallone. What about these private enterprises, like was 
mentioned with Midway? Is that looked at in any kind of 
comprehensive way as a way of supplementing?
    Mr. Hartwig. We have very few private enterprise activities 
in the National Wildlife Refuge System. Many of our friends 
groups are private non-profits; are in fact doing some of this 
activity. But we have very few relations with private profit-
making organizations.
    Mr. Pallone. And is that the way you like it? I mean, I am 
just asking. I am not taking a view on it.
    Mr. Hartwig. It is fairly new for us. We certainly prefer 
to manage the areas for the public, to make sure that what 
public access is available--and as I said, most of our refuges, 
there is public access--that that public access is free and 
open to all.
    Most of these ventures with private entities do entail some 
public funding. That usually does not come at no cost to the 
government. And so we have to consider those activities along 
with other activities that we are funding as well.
    Mr. Pallone. All right, thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Hartwig, thank you for your patience and indulgence 
here this morning. We enjoyed your testimony and your pictures.
    And to all of the other witnesses that came, we appreciate 
your voice, as well. And we would like to continue to 
communicate with all of you, as we find a resolution to this 
issue.
    Mr. Hartwig. Thank you, Mr. Chairman.
    Mr. Gilchrest. I would like to ask unanimous consent that 
Chairman Richard Pombo's statement be included in the record.
    I would also ask that Dr. Robert Schmieder's statement be 
included in the record; and Mr. Eric Hilding, that his 
statement be included in the record.
    [The prepared statement of Mr. Pombo follows:]

        Statement by The Honorable Richard W. Pombo, Chairman, 
                         Committee on Resources

    I want to compliment the Gentleman from Maryland, Chairman 
Gilchrest, for conducting this oversight hearing on public access 
within the National Wildlife Refuge System.
    Since coming to Congress, I have supported the passage of the 
historic National Wildlife Refuge System Improvement Act of 1997, 
served as a member of the Refuge Centennial Commission and have 
consistently worked for increased funding for both refuge operations 
and backlog maintenance.
    The American people deserve the finest Refuge System in the world. 
After all, they paid for those Federal lands with their hard-earned tax 
dollars. It is my firm belief that every effort should be made to allow 
the American people to visit and recreate within the 545 units of the 
system.
    In fact, I wholeheartedly agree with the Fish and Wildlife Service 
that reminds us that: ``Refuges belong to the American people. Each of 
us has an ownership of these public lands''. From this hearing, I hope 
to have a better understanding of why nearly 90 refuges are closed to 
the public and what is the likelihood that some of these units will be 
open in the future.
    Furthermore, there are a number of Americans who are being denied 
special use permits to visit a particular wildlife refuge or denied the 
opportunity because their recreational activity is not one of the six 
wildlife-dependent uses. As someone who was actively involved in the 
drafting of the organic act, I can state without hesitation that 
neither the letter nor the spirit of that law was designed to limit 
visitation to hunting, fishing, wildlife observation and photography or 
environmental education and interpretation. These six were given 
priority but they are not an exclusive list of permitted activities.
    In fact, the author of P.L. 105-57, Chairman Don Young, stated on 
the House Floor that: ``this bill neither mandates nor prohibits such 
non-wildlife dependent activities such as grazing, jet skiing, or oil 
and gas development''.
    While no one is suggesting we abandon the conservation of refuge 
fish and wildlife, or ignore compatibility determinations, the Fish and 
Wildlife Service should make every effort to facilitate legitimate 
recreational activities. It is frankly wrong that World War II veterans 
are unable to visit the Battle of Midway National Memorial, or that 
model airplane enthusiasts can no longer, after 30 years, fly their 
noiseless free-flight planes at the Galeville Airport, or amateur radio 
operators cannot obtain a special use permit to broadcast from the 
Desecheo, Southeast Farallon and Navassa Island National Wildlife 
Refuges. These ham operators have indicated that they are willing to 
agree to almost any reasonable stipulation established by the Fish and 
Wildlife Service. Yet, their requests have been repeatedly denied.
    To again quote the Fish and Wildlife Service: ``Refuges belong to 
the American people''. I believe it is time we let them into more of 
the System!
    I look forward to hearing from our distinguished witnesses and 
hopefully I will hear a commitment from the Fish and Wildlife Service 
that they will be more willing to facilitate greater refuge visitation 
in the future. As President Theodore Roosevelt, the father of the 
Refuge System, once said: ``It is not what we have that will make us a 
great nation, it is the way in which we use it.''
                                 ______
                                 
    [The list of National Wildlife Refuge System units closed 
to the public submitted for the record by Chairman Pombo 
follows:]




<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    [The statement of Eric Hilding submitted for the record 
follows:]

      Statement submitted for the record by Eric R. Hilding, K6VVA

    My name is Eric Hilding. I am a United States Citizen and Military 
Veteran Honorably Discharged from completion of service in the U.S. 
Army Security Agency. I am a member of Rotary International, The 
Audubon Society, and have a great love of the outdoors and wildlife as 
did both of my deceased parents. One of my Uncles was Superintendent of 
a National Forest before his retirement. I am 61 years old, and have 
been a licensed Amateur Radio operator for 48 years, holding an ``Extra 
Class'' license designation. I also carry a valid ``Emergency Responder 
ID Card'' for Emergency Services in the Santa Clara County (California) 
Operational area.
    Public Service has been an important part of my life, and my 
contributions started as a young teenage ``Ham'' radio operator in the 
late 1950's. I volunteered many after school hours to run ``phone patch 
traffic'' for overseas Military personnel, enabling them to talk 
directly with their families and loved ones without incurring the then 
high costs of overseas telephone calls.. It was a great privilege to 
have been able to do this with my low-powered Amateur Radio station for 
the troops in Thule (Greenland), various bases in Antarctica, and many 
of the Pacific Islands such as Midway Island, Johnston Island, Wake 
Island, the Marshall Islands, Guam and others.
    My specific area of interest within the Amateur Radio hobby was 
International contacts with fellow ``Ham'' operators around the globe, 
or what we termed ``DX'' (for ``distance''). Before taking a lengthy 
hiatus from the ``DX bands'' in the 1970's, I had contacted every major 
Island and country in the world except Iraq, which had no Amateur Radio 
activity permitted for many years.
    While the newspapers, nightly television newscasts and politicians 
were perpetually focusing upon ``doom and gloom'' during the infamous 
Cold War era, the majority of the public were unaware that many 
thousands of U.S. Amateur Radio operators were contacting fellow Ham 
operators in the former U.S.S. R. and other ``Iron Curtain'' countries 
on a daily basis developing and maintaining friendships. I distinctly 
recall one Russian Ham operator telling me ``Congratulations on the 
successful flight of USA Astronaut John Glenn.'' Yes, Amateur Radio has 
always been a primary source of International Goodwill and Friendship, 
and is one reason for our proposed brief, several day only, mission-
specific Amateur Radio operation from the presently human inhabited 
SouthEast Farallon Island. A copy of Special Use Permit proposal is in 
your folders.
    The image of America around the world has taken a serious beating. 
This has been partially due, of course, to all of the misinformation 
campaigns by our enemies including terrorist groups. All the more 
reason why the Farallon Islands Amateur Radio ``Project NA-178'' 
International Goodwill IOTA Endeavor is in the highest best interests 
of the United States of America. Since Mexico, Australia and other 
countries have granted access permits to similar wildlife habitat 
Islands for these special brief IOTA ``Expeditions'', the FWS access 
denials do not reflect well upon American policies.
    The IOTA (``Islands On The Air'') program, under the auspices of 
the Radio Society of Great Britain, is International in scope with 
approximately 20,000 serious participating Ham operators. Quite often 
the small teams of operators activating Islands are Multi-National and 
Multi-Cultural in composition, thus furthering the processes of 
International cooperation. As of May, 2005, The Farallon Islands are 
now in the Top 10 most needed Island entities out of approximately 
1,200 in the program.. About two-thirds of the Top 500 IOTA enthusiasts 
needing a two-way, interactive contact with NA-178 (The Farallon 
Islands IOTA designation), are in European countries.
    A copy of IOTA Chairman Martin Atherton's ``To Whom It May 
Concern'' letter submitted to FWS in August, 2004, is in your folders. 
As correctly noted in paragraph 3 therein:
        We have never heard of any problems related to wildlife 
        disturbance and numerous radio operations have successfully 
        taken place from wildlife habitats, islands, reserves and sites 
        of scientific interest in North America, Europe and 
        Australasia.
    A great misconception has been that Ham operators are all a bunch 
of ``geeks and nerds''. I consider it a privilege to be in a hobby 
where my peer group includes people such as former U.S. Senator Barry 
Goldwater, respected television personality Arthur Godfrey, TV news 
anchor Walter Cronkite, former Prime Minister of India Rajiv Gandhi, 
U.S. Vice-Admiral Scott Redd, former Astronaut and Chief Scientist at 
NOAA Kathy Sullivan, former King of Spain Juan Carlos, Governor George 
Pataki, as well as Hugh Downs, Marlon Brando, Burl Ives, Chet Atkins, 
Ronnie Milsap, Andy Devine and other well known personalities and Heads 
of State, including former King Hussein of Jordan. After 48 years as a 
Ham Radio operator, my only regret is that I passed up an amazing 
opportunity to join a group of fellow ham operators who went to Jordan 
at the invitation of former King Hussein, to operate in an 
International Amateur Radio event years ago.
    Unfortunately, many one-sided media stories have been perpetuating 
a gross misinformation campaign by environmentalists that have misled 
the public into believing that a Special Use Permit grant for Ham Radio 
IOTA mission to The Farallon Islands would result in some catastrophic 
upset of the ecological balance of the Universe. It does not take a 
rocket scientist to see that many non-profit environmentalist groups 
have capitalized on the situation for fundraising purposes.
    Intelligent decisions can only be made by careful analysis of 
facts. I applaud the diligent efforts of House Resources Committee 
Chairman Richard Pombo, Fisheries Subcommittee Staff Director Harry 
Burroughs and his associates for their investigations to get the real 
facts about human activity on The Farallon Islands as pertains to 
Public Access.
    In correspondence from FWS Director Williams to Chairman Pombo 
dated November 18, 2004, we see an entirely different picture of 
reality pertaining to human activity on The Farallon Islands than what 
others have tried to depict as some kind of totally sanctimonious 
habitat. A copy of the correspondence is in your folders. The response 
to question #1 yields some startling statistics about human access and 
activity on the alleged ``pristine'' habitat. During 2002, 2003 and 
2004, a total of 44 ``permittees'' and approximately 97 ``other'' 
individuals were physically on SouthEast Farallon Island (which 
included plumbers, contractors and other workers). FWS also indicated 
``We do not maintain a log of people who have visited the Island'', 
which presumably includes those ``individuals involved with Refuge 
management or support (e.g., [boat] skippers bringing supplies) for 
very short, closely supervised visits.''
    Regarding the existing structures on SouthEast Farallon Island 
listed in response to question #9, it seems paradoxical that while 
financially challenged families of six are forced to live in tiny 900 
square foot apartments in the San Francisco Bay Area, that a handful of 
researchers enjoy the benefits of a ``2,500 square foot residence'' 
building on what is supposed to be a ``pristine'' wildlife habitat. And 
then there are the existing 8 communications antennas on SouthEast 
Farallon as explained in question #11, which a U.S. Coast Guard 
Lighthouse, power generation station and other buildings.
    In further correspondence from FWS in response to Chairman Pombo's 
letter dated March 3, 2005, is mention of ``bird strikes'' and 
communications towers. All such studies generally involve AM Radio and 
other major commercial communications towers and structures in excess 
of 200 feet in height. I would like to direct your attention to 
correspondence material from the Massachusetts Audubon Society and 
MTechnology in your folders, as well as Exhibit 6 to our PROJECT NA-178 
proposal to FWS. There is no evidence to suggest that less than 200 
foot typical amateur radio antennas and towers of a permanent nature 
constitute a major problem to birds.
    Our proposed temporary antennas are of portable design in nature, 
mostly ``verticals'' or special ``dipoles'' of slim, lightweight 
aluminum 1.5' or less in diameter, including any support poles. Any 
antennas would be 30 feet or less in height, either self-supporting, or 
possibly guyed with ``Dacron'' material lines (vs. ``guy wire''). 
Considering the fact that birds are routinely ``trapped'' in nets on 
SouthEast Farallon Island for banding and research purposes, we do not 
believe any serious threat exists during a limited three day 
operational period from such minuscule antennae. Our objective, of 
course, would be to arrive at a mutually workable solution with FWS.
    As set forth in Exhibit 4 of our PROJECT NA-178 access request 
application, the self-imposed and very stringent ``Proposed Terms & 
Conditions of the Special Use Permit clearly demonstrated a concern and 
sensitivity for the environment on SouthEast Farallon Island, and 
willingness to adhere to FWS Supervisory restrictions while on the 
Island. At The same time, a realistic understanding of the degree of 
existing human activity there.
    FWS reference to the brief Amateur Radio operation which took place 
on SouthEast Farallon Island in September, 1992, made no mention of any 
adverse impact on wildlife or bird kills, because there was none. 
Similarly, we anticipate none. What did result were donations and 
membership subscriptions to the wildlife research group with permanent 
staff involved on SouthEast Farallon. Indeed, a positive outcome.
    One of the reasons given by FWS for denial of access permission was 
allegedly that the Secretary would not allow any new uses. For your 
information, all wireless communication, whether cell phones, marine 
radio or Amateur Radio are similar use and governed under Title 47 CFR. 
A cell phone is really a miniature, low-power transmitter-receiver 
similar to Amateur Radio ``Transceivers'' which we would utilize (and 
had been used by the previous Ham operator on SouthEast Farallon Island 
in 1992). The FWS objection was invalid, and entirely without merit.
    The PROJECT NA-178 SUP proposal specifically indicated an ancillary 
aspect of the activity would be Global promotion for the wildlife 
research programs at the Farallon NWR via various means, which pursuant 
to Exhibit 4, would include photographs and videos. This aspect of the 
mission is clearly one of ``The Big Six'' uses FWS claims they only 
need to cater to, yet still refused to acknowledge and grant a Special 
Use Permit. The law does NOT give FWS authority to exclude other bona 
fide public access purposes.
    Just as many Amateur Radio operators are, or have been, heads of 
State and Internationally recognized figures, many are also wildlife 
enthusiasts. Our planned photographic and video documentary aspects of 
the IOTA Expedition to The Farallons is clearly a ``Big Six'' category 
permitted use. It is a documented fact that financial contributions to 
wildlife research involving The Farallons resulted from the very brief 
Amateur Radio operation there in 1992. I refer you again the letter 
from IOTA Chairman Martin Atherton, where he specifically states:
        There is considerable scope for education and fundraising as 
        the expedition operators will send small postcards to confirm 
        each radio contact made. These postcards contain information 
        about the island, and where appropriate, an appeal for funding 
        for the nature reserve.
    As an additional ``media'' source, the World Wide Web provides the 
ability share photographs and even streaming video. Our intentions are 
to distribute a CD or DVD video (``Photographic'') documentary to key 
Amateur Radio clubs and groups around the globe for presentation at 
International, Regional and local Ham Radio conventions. As a speaker 
at the International ``DX Convention'' last month, I gave a PowerPoint 
presentation ``Progress Report'' on our efforts to obtain permission to 
operate from SouthEast Farallon Island at the IOTA meeting. I also 
asked how many other Amateur Radio operators in attendance had ever 
sought to obtain access permission for an IOTA Expedition at The 
Farallons over the years and were denied. Approximately 20 to 25 hands 
were raised, and most were told ``no'' via an initial telephone inquiry 
to FWS.
    A rationale given by FWS was that the granting of an Amateur Radio 
related Special Use Permit could possibly ``open the floodgates'' of 
additional requests from the public at large. We can understand the 
concern, but also believe FWS has overreacted in thought processes. The 
majority of the public will have no interest in physically going to The 
Farallon Islands. Considering FWS statistics that during 2002, 2003 and 
2004 only a total of 35 permission requests were formally submitted for 
access to The Farallon Islands (9 of which were denied), this thinking 
is somewhat like having a mechanical problem with an automobile, but 
avoiding a trip to the repair shop to solve the specific problem out of 
fear of possibly having to replace every other part in the vehicle.
    In the PROJECT NA-178 application proposal, it was clearly stated 
that once IOTA specific mission had been completed successfully, it 
would be ``most unlikely that another Amateur Radio IOTA team would 
have interest in operating from The Farallons again for perhaps two to 
three years or more.'' Aside from the IOTA program, in my opinion there 
is no reason for any other type of Amateur Radio activity to take place 
on The Farallons, with the exception of emergency needs. Suggestions 
have been made to FWS as to a possible set of guidelines to be utilized 
in review and approval of any subsequent IOTA-specific requests in the 
future. On a limited and controlled basis with strict guidelines, I 
believe IOTA-specific Amateur Radio operations can be structured to be 
a ``win-win'' situation for the Amateur Radio Community, FWS and any 
wildlife research organization involved. IOTA-specific access 
guidelines should be incorporated into the Farallon NWR CCP.
    The documented facts are that human beings and wildlife currently 
co-exist on SouthEast Farallon Island. Last week, 12 members of the 
media visited SouthEast Farallon Island with no adverse effects 
resulting to our knowledge.
    All members of our PROJECT NA-178 team are U.S. Military Veterans. 
We served country to help insure that we would, in fact, have ``Public 
Lands''. The Farallon Islands are Public Lands, and we do not 
appreciate being treated as ``2nd Class Citizens'' behind the media who 
frequently visit The Farallon Islands. In light of America's current 
image in the International Geo-Political arena, we believe we have a 
significant contribution to make in furthering International Goodwill 
and Friendship, which is in the highest best Interests of the United 
States of America. Every U.S. Citizen, in my opinion, has a 
responsibility to contribute and as Amateur Radio operators, we have 
the ability to do this. What is required is for the FWS to expand its 
thought processes to include a Global Perspective.
    For the reasons set forth herein, I find FWS denials of Special Use 
Permits for specialized Amateur Radio ``IOTA Expeditions'' to The 
Farallon NWR arbitrary and capricious misinterpretations of the intent 
and ``Spirit'' of both the National Wildlife Refuge Administration Act 
of 1966 and the National Wildlife Refuge System Improvement Act of 
1997. Respectfully submitted, (VIA E-Mail) Eric R. Hilding, K6VVA P.O. 
Box 1700 Morgan Hill, CA 95038 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d030c5c5a552d065b1b1b0c430e0200">[email&#160;protected]</a>
    [Letters attached to Mr. Hilding's statement follow:]


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

    
                                 ______
                                 
    [A statement submitted for the record by Evan Hirsche, 
President, National Wildlife Refuge Association, follows:]

                 Statement of Evan Hirsche, President, 
                  National Wildlife Refuge Association

    Mr. Chairman and Members of the Subcommittee:
    My name is Evan Hirsche, and I am the president of the National 
Wildlife Refuge Association (NWRA). On behalf of the NWRA and its 
membership comprised of current and former refuge professionals and 
members of the more than 200 refuge ``Friends'' group organizations 
throughout the United States, thank you for the opportunity to testify 
on the issue of access to America's national wildlife refuges.
    The National Wildlife Refuge System is the only network of Federal 
lands managed for the conservation of fish, wildlife, plants and their 
habitat. President Theodore Roosevelt created the first national 
wildlife refuge in 1903 on Florida's Pelican Island to protect brown 
pelicans as well as egrets and herons from commercial hunting. Today, 
the Refuge System, administered by the U.S. Fish and Wildlife Service 
(FWS), consists of 545 refuges in all 50 states and the territories.
    Fewer than 10 years ago, Congress passed, and the president signed, 
the National Wildlife Refuge System Improvement Act of 1997 
(Improvement Act). The Act builds upon the National Wildlife Refuge 
System Administration Act (NWRSAA) by providing an ``organic'' act for 
the Refuge System, a basic statute providing a mission for the System, 
and policy and management guidance for all units of the System. 
According to the House Resources Committee, the Improvement Act's 
``principal focus is to establish clearly the conservation mission of 
the System, provide clear Congressional guidance to the Secretary for 
management of the System, provide a mechanism for unit-specific refuge 
planning, and give refuge managers clear direction and procedures for 
making determinations regarding wildlife conservation and public uses 
of the System and individual refuges.''
    According to the Improvement Act, the mission of the National 
Wildlife Refuge System is:
        to administer a national network of lands and waters for the 
        conservation, management, and where appropriate, restoration of 
        the fish, wildlife, and plant resources and their habitats 
        within the United States for the benefit of present and future 
        generations of Americans.
    Prior to the Improvement Act, numerous incompatible uses took place 
on national wildlife refuges. In 1992, the National Wildlife Refuge 
Association, along with several other organizations, sued the Secretary 
of the Interior for authorizing secondary uses on refuges without 
ensuring that these uses were compatible with those refuges. As a 
result, the FWS agreed to terminate secondary uses unless it determined 
the uses were compatible with the purposes of the refuge on which they 
occurred. The Improvement Act was written with the intent of remedying 
compatibility issues on refuges and to avoid similar litigation in the 
future.
    The Improvement Act clearly requires that public use of a refuge 
may be allowed only where the use is compatible with the mission of the 
Refuge System and the purpose of the individual refuge. The Refuge 
Association strongly supports this requirement.
    More specifically, the Act defines a compatible use as ``a 
wildlife-dependent recreational use or any other use of a refuge that, 
in the sound professional judgment of the Director, will not materially 
interfere with or detract from the fulfillment of the mission of the 
System or the purposes of the refuge.'' In choosing the term ``sound 
professional judgment,'' the Committee intended for the refuge manager 
to consider the biological resources and, based upon available science, 
whether they can sustain reasonable use. Moreover, the manager must 
determine if available resources, such as funding, personnel and 
infrastructure, are adequate to support the proposed use.
    The Act provides clear and explicit guidance on compatibility 
determinations for refuges. The law plainly states that compatibility 
determinations must be in writing and involve extensive public review 
and comment. In fact, the Improvement Act was written with the intent 
of increasing the opportunities for public participation. According to 
the committee report that accompanied the Improvement Act, 
``incompatible uses are to be eliminated or modified as expeditiously 
as possible.''
    Further, the Improvement Act establishes compatible wildlife-
dependent recreational uses as the priority general public uses of the 
Refuge System. The law lists six priority wildlife-dependent 
recreational uses for refuges: hunting, fishing, wildlife observation 
and photography, and environmental education and interpretation. These 
activities are found to be directly related to the mission of the 
Refuge System and the purpose of many refuges because they rely on 
healthy wildlife populations.
    None of the activities discussed during this hearing on public 
access within the National Wildlife Refuge System are wildlife-
dependent uses as defined by Congress.
Ham Radio Use
    Ham Radio operators are actively working to gain access to a number 
of national wildlife refuges, island refuges in particular. Currently, 
there is legislation in Congress to allow access to two specific island 
refuges, Desecheo NWR in Puerto Rico and Navassa NWR in the Caribbean.
    Desecheo NWR was established as a refuge for the purpose of 
protecting historic breeding grounds for seabirds, including red-footed 
boobies, white-bellied boobies, royal terns, bridled terns, and 
laughing gulls. The refuge was closed to public access in 1992 due to 
the presence of unexploded ordnance (UXO) on the refuge. In addition, 
illegal aliens and drug traffickers frequent the island. Because the 
island is ringed by steep, rocky cliffs, access to the refuge is 
perilous. The FWS found public access incompatible in 1998 in response 
to a request by amateur radio operators due to UXO, a lack of law 
enforcement ability and other safety concerns. According to the 
Improvement Act, the Secretary of the Interior must determine that the 
use is not only compatible, but it must be consistent with public 
safety.
    Navassa NWR was established as a refuge for the purpose of 
protecting the unique ecosystem of Navassa Island, the adjacent coral 
reefs and marine waters. The island is an important nesting location 
for seabirds, with thousands of breeding pairs of boobies, frigate 
birds and tropicbirds. Navassa also contains some extremely rare 
plants, such as the Navassa palm, whose only living specimen is found 
on the island. Navassa was described as a unique preserve of Caribbean 
biodiversity during a U.S. Geological Survey-led scientific expedition 
in 1998. The FWS found public access to the island for wildlife-
dependent recreation incompatible in 1999, due to biological impacts to 
terrestrial and marine plant and animal species, and a lack of law 
enforcement capabilities due to the area's remoteness.
    The NWRA believes the Service's compatibility determinations for 
Desecheo and Navassa that find the use of the refuges by ham radio 
operators incompatible are reasonable and justified.
Model Airplane Enthusiasts
    Model airplane enthusiasts have tried to gain access to the 
Shawangunk Grasslands NWR for many years. A compatibility determination 
by the FWS found that model airplane flying at the refuge is not 
compatible with its mission and purposes and those of the Refuge 
System.
    The purpose of the Shawangunk Grasslands refuge is to ``carry out 
the national migratory bird management program,'' with a primary 
management objective to ``provide large expanses of undisturbed 
grasslands so that birds may nest, incubate their eggs, rear their 
young, rest, and feed.'' Many grassland bird species inhabit the 
refuge, including: northern harrier; upland sandpiper; short-eared owl; 
horned lark; bobolink; grasshopper; Henslow's; and vesper sparrows. In 
addition, fifty-eight bird species are found to nest on the refuge.
    Model airplane flying--and associated activities such as plane 
retrieval--in no conceivable way complements the mission or purposes of 
Shawangunk Grasslands NWR or the broader Refuge System. This use would 
clearly serve as an obstacle to species recovery efforts on the refuge 
and it is not a wildlife-dependent public use. The NWRA supported the 
FWS' compatibility determination that found model airplane use on the 
refuge incompatible during the public decision process and we continue 
to support that decision today.
Midway Atoll
    As described earlier, the Improvement Act defines a compatible use 
as ``a wildlife-dependent recreational use or any other use of a refuge 
that, in the sound professional judgment of the Director, will not 
materially interfere with or detract from the fulfillment of the 
mission of the System or the purposes of the refuge.''
    Located northwest of Hawaii in the Pacific, Midway Atoll NWR was 
established as a national wildlife refuge for multiple purposes. One of 
the established purposes requires the FWS to ``recognize and maintain 
the historic significance of the Midway Islands''.'' As such, public 
access to the refuge, especially by veterans of the historic battles 
fought at Midway during World War II, is clearly compatible with the 
establishing purposes of the refuge.
    The NWRA supports visitation to Midway NWR. Unfortunately, the 
limited budget of the National Wildlife Refuge System is insufficient 
to maintain the landing field located on the island. In the absence of 
the funds necessary to operate and maintain the airstrip and carry out 
the other purposes of the refuge, the FWS cannot afford to accommodate 
high numbers of visitors. Funding is the primary reason veterans groups 
and others, such as bird watchers and wildlife enthusiasts, have had 
recent difficulty accessing the Midway Atoll NWR.
    Rather than transfer management of the entire island to another 
agency, as recommended by groups like the International Midway Memorial 
Foundation, the NWRA urges Congress instead to facilitate an 
appropriate allocation of costs for airfield operations and maintenance 
among those Federal agencies and other entities that currently use or 
depend on this airfield.
    The National Wildlife Refuge System is the crown jewel of wildlife 
conservation in America. Prior to the National Wildlife Refuge 
Improvement Act of 1997, many inconsistencies and incompatible uses 
were present on national wildlife refuges. However, thanks to this 
committee's leadership and that of Congress, along with an impressively 
diverse group of stakeholders, organic legislation was enacted that 
addressed these issues and shifted refuges from a collection of 
disparate units to a true National Wildlife Refuge System. The NWRA 
urges Congress to continue to stand behind this vital law when 
assessing questions of public access.
                                 ______
                                 
    Additional background information was submitted for the 
record by Chairman Pombo follows:

    A letter to Steven Williams, Director, U.S. Fish and 
Wildlife Service, submitted for the record by Chairman Pombo 
follows:]

                           September 23, 2004

Mr. Steven A. Williams
Director
U. S. Fish and Wildlife Service
1849 C Street, N. W.
Washington, D. C. 20240

Dear Director Williams:

    Last week, several members of my Committee staff met with Mr. Bill 
Hartwig, the Chief of the National Wildlife Refuge System, to discuss 
the Fish and Wildlife Service's ongoing efforts to deny U.S. citizens 
access to the Desecheo and Navassa National Wildlife Refuges. In 
addition, Mr. Hartwig was provided with information indicating that 
certain amateur radio operators are also being denied access to the 
Farallon National Wildlife Refuge.
    Mr. Director, you should know that the fundamental reason that I 
supported the National Wildlife Refuge System Improvement Act of 1997 
was because it helped to ensure access to our national wildlife refuge 
units. The taxpayers of this nation paid for the acquisition of these 
lands and unless there are extraordinary circumstances they should be 
permitted to utilize those lands. Regrettably, it appears there is a 
growing pattern by the Fish and Wildlife Service to deny access and the 
latest examples of this policy are reflected at Descheo, Navassa and 
Farallon National Wildlife Refuges.
    In terms of the Farallon National Wildlife Refuge, I have a number 
of questions that I would like the Fish and Wildlife Service to answer 
in a complete and expedited manner. Please categorize the information 
by year, organization and purpose where appropriate.
    The questions are:
     (1)  Since January 1, 1996, excluding Fish and Wildlife and Coast 
Guard personnel, how many different individuals have been physically 
allowed on the Farallon Islands?
     (2)  Since January 1, 1996, how many individual requests for 
access permission has the Fish and Wildlife Service received for the 
Farallon National Wildlife Refuge?
     (3)  Since January 1, 1996, how many Special Use Permits have been 
granted involving access permission to the Farallon NWR? How many have 
been denied and what was the justification?
     (4)  How many days per year are one or more individuals physically 
at the Farallon NWR?
     (5)  Who owns the structure adjacent to the United States Coast 
Guard Lighthouse, and do the Point Reyes Bird Observatory, Fish and 
Wildlife Service or other personnel have access to it?
     (6)  What criteria are utilized by the Fish and Wildlife Service 
to evaluate the Point Reyes Bird Observatory activities at the Farallon 
NWR or any other group or organization?
     (7)  Has there ever been ingress/egress to the Farallon NWR by 
means other than the main ``crane'' on Southeast Farallon Island (SEFI) 
or by way of a Coast Guard helicopter?
     (8)  Does the official Farallon National Wildlife Refuge also 
include: Noonday Rock, North Farallon Island, Isle of St. James, Middle 
Farallon Island, Maintop Island and Seal Rock?
     (9)  How many buildings or structures exist at the Farallon 
National Wildlife Refuge? Please provide the total number by type, the 
square footage of each structure, how and by whom are they utilized and 
are there currently vacant structures?
    (10)  How do Fish and Wildlife Service and Point Reyes Bird 
Observatory (PRBO) personnel communicate from the Farallon NWR?
    (11)  Are there communication antennas or antennas of any type 
located at the Farallon NWR? If yes, who owns them and for what 
purpose?
    (12)  Do PRBO personnel transmit and/or receive any type of radio, 
satellite, cell phone, or direct television transmissions at the 
Farallon NWR?
    (13)  How much rent does the PRBO pay for utilizing federal 
property at the Farallon NWR?
    (14)  Does the Fish and Wildlife Service provide any transportation 
for personnel, supplies or any services for PRBP or other organizations 
that may utilize the Farallon NWR? What is the cost of those services 
and what is the reimbursement policy?
    (15)  What has been the total number of PRBO personnel or other 
groups that have spent time at the Farallon NWR?
    (16)  During annual maintenance, are any non-governmental 
individuals or volunteers given access to the Farallon NWR?
    (17)  Does NOAA still maintain weather service or other equipment 
at the Farallon National Wildlife Refuge? If so, how is data 
transmitted?
    (18)  Are there any other federal or state agencies that have 
equipment or structures of any type at the Farallon National Wildlife 
Refuge? Please elaborate.
    Mr. Director, I look forward to obtaining responses to these 
questions in the very near future. Should you have any questions, 
please do not hesitate to contact Todd Willens or Harry Burroughs of my 
staff at 225-2761. I want to thank you for your assistance in this 
important matter.

                               Sincerely,

                            RICHARD W. POMBO

                                Chairman

                                 ______
                                 
    [Mr. Williams' response to Chairman Pombo's letter 
follows:]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

 Response to September 23, 2004 House Committee on Resources Questions 
   on Ham Radio Operator Access to Farallon National Wildlife Refuge

Background
    The Farallon National Wildlife Refuge was established in 1909 by 
President Theodore Roosevelt, ``as a preserve and breeding ground for 
native birds.'' The original Executive Order included only the Middle 
and North Farallons and Noonday Rock, since the Lighthouse Service 
maintained a lighthouse and support personnel on South Farallon 
Islands. South Farallon Islands were added to the Refuge in 1969.
    One of the goals of the Refuge is to restore the historic abundance 
of wildlife. History has shown that the most important management 
action we can take is to protect them from disturbance. This management 
strategy is successful. These small rocky islands now support the 
largest seabird breeding colonies south of Alaska. The current seabird 
breeding population on South Farallon Islands is estimated at around 
200,000 birds of 12 different species (up from 30,000 birds in the 
early 1900s). These populations have recovered slowly. It took over 100 
years for elephant seals and northern fur seals to begin breeding again 
once they were extirpated. Common murres have increased from the low 
point of 6,000 in 1959 to a current estimated population of nearly 
150,000--still far from their historic population of 400,000.
    The wildlife remains vulnerable to human disturbance. Virtually 
every portion of the Refuge is used by some breeding bird or mammal 
species. Murres and cormorants nest on rocky areas and cliffs. They 
flush when humans on foot, boat or aircraft, approach too closely. An 
entire colony can be lost when human disturbance flushes adults from 
their nests, leaving chicks or eggs exposed. Pigeon guillemots and 
petrels nest in rock crevices, and auklets burrow into the soft soil on 
the marine terraces. Their burrows are difficult to see and can be 
easily crushed. This kills the birds during the breeding season, and 
destroys habitat even when the burrows are not occupied. Chaos results 
when seals and sea lions are disturbed on their haul-out areas--small 
pups can be crushed in the mad dash to escape into the ocean.
    When South Farallon Islands were added to the Refuge in 1969, the 
number of people allowed on the island at any one time was reduced to 
the minimum number needed to monitor and protect wildlife, and maintain 
facilities. Most of the South Farallon Islands, including all important 
breeding areas, were made off-limits to even the few island residents. 
The Refuge worked closely with the Coast Guard to limit helicopter 
access (needed to maintain their lighthouse) to the non-breeding season 
and established a flight path for landings and take-offs that would 
avoid seabird colonies and marine mammal haul-outs.
    While the purpose of the Refuge can only be fulfilled by limiting 
human access, we also want to provide an opportunity for the public to 
experience and appreciate the Refuge. As directed by the National 
Wildlife Refuge System Improvement Act of 1997, our focus is on 
wildlife-dependent uses. We provide limited opportunities for reporters 
and photographers to visit the Farallon NWR under Special Use Permits 
and television documentaries, news segments, magazine, and newspaper 
articles have all been published over the years. Visits are carefully 
supervised--an island resident must accompany the visitor at all times. 
The general public can also experience the Refuge's wildlife by taking 
a day-long boat tour. Boats that tour around the Farallon Islands are 
often able to show visitors better views of the Refuge's wildlife 
species and colonies that are located on rocky cliffs and hidden from 
view on land. In addition, since many of the Refuge's species are 
nocturnal, or nest underground or on inaccessible cliffs, they are not 
easily observed from the Refuge itself and are better observed at sea.
    Logistics and safety are additional reasons for limiting public 
access. Access is very difficult. The islands are rocks rising sharply 
from the Pacific Ocean. The area is characterized by heavy fog, drastic 
fluctuations in water level (swell), high winds, and sudden changes in 
ocean state. These all combine to make boat landings hazardous and 
often impossible. There is no dock facility on the island; cargo and 
personnel are unloaded by use of a derrick, and a labor-intensive 
transfer from a shuttle boat to a personnel lifting device. The 
transfer operation requires a minimum of 3 island personnel to operate 
the equipment, and a boat landing typically takes a minimum of 6-8 
hours staff time to prepare for and complete. Because only certain 
weather and sea conditions permit a safe landing, many scheduled 
landings are canceled, often after considerable staff time has been 
spent in preparation, and sometimes after the boat has traveled 5 hours 
or more from the mainland. Any visitor (e.g., media, contractors, 
researchers) not familiar with the island must be under the strict 
supervision of resident staff from Point Reyes Bird Observatory (PRBO), 
to prevent crushing of seabird burrows or flushing of wildlife. Because 
the number of island personnel is limited to minimize disturbance, 
resident staff may not be available to accommodate additional visitors 
who are not providing support to the Refuge.
Response to Specific Questions
(1)  Since January 1, 1996, excluding Fish and Wildlife and Coast Guard 
personnel, how many different individuals have been physically allowed 
on the Farallon Islands?
    We do not maintain a log of people who have visited the island. 
However, we went back through our maintenance records, contracts, 
Special Use Permits, and other documents in our Farallon files for the 
past 3 years. In 2004, 14 permittees and approximately 38 other 
individuals (contractors, cooperators involved in habitat restoration, 
and other government employees) visited the island to work on Refuge 
projects. In 2003, 13 permittees and approximately 27 other individuals 
visited the island to work on Refuge projects. In 2002, 17 permittees 
and approximately 32 other individuals visited the island to work on 
Refuge projects.
    In addition, we have a Cooperative Agreement with the PRBO which 
requires them to staff the island with sufficient personnel to conduct 
biological monitoring and caretaking duties. One to 2 paid staff and 2 
to 6 interns are on the island at any one time, and the shift of any 
one individual ranges from 1 to 3 months. We estimate 25-35 individuals 
are involved in accomplishing the work outlined in the cooperative 
agreement over a 1-year period. Also, the Cooperative Agreement allows 
the PRBO to land individuals involved with Refuge management or support 
(e.g., skippers bringing supplies) for very short, closely supervised 
visits.
(2)  Since January 1, 1996, how many individual requests for access 
permission has the Fish and Wildlife Service received for the Farallon 
National Wildlife Refuge?
    We do not keep a log of such requests. However, in reviewing our 
letters and e-mail files for the past 3 years, we received 14 written 
requests in 2004, 10 requests in 2003, and 11 in 2002. (Note that we do 
not have e-mail records of all requests from 2002.)
    We do not tabulate the number of people who contact us by phone 
about access to the Farallon NWR. Most people who call are interested 
in seeing wildlife on the Refuge, and since the birds, marine mammals, 
geology, and other features of the Refuge are more easily and reliably 
viewed from a boat than from the Refuge itself, they are given 
information on Farallon Natural History Tours that operate out of the 
San Francisco Bay area. Over the last 4 years, the number of people 
touring the Refuge by boat has averaged 3,350 per year.
(3)  Since January 1, 1996, how many Special Use Permits have been 
granted involving access permission to the Farallon NWR? How many have 
been denied and what was the justification?

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    Permits were denied because they did not meet the Refuge's primary 
or secondary criteria for access as determined by Compatibility 
Determinations required by law. There are two primary criteria: 1) 
research or study that is focused on Refuge resources, the results of 
which can aid in refuge management; or 2) media coverage of a unique 
aspect of Refuge resources that will reach the general public in 
newspaper, magazine, or television.
    Secondary criteria include: 1) the activity will not interfere with 
any ongoing studies or Refuge operations; 2) the research is not 
intrusive or manipulative; 3) a research proposal following the format 
described in Refuge Manual is submitted and approved; 4) disturbance to 
wildlife and habitat can be minimized; and 5) the permittee can work 
out the logistics of getting from mainland to island (sometimes this 
involves chartering a boat).
(4)  How many days per year are one or more individuals physically at 
the Farallon NWR?
    Our Cooperative Agreement requires PRBO to maintain staff on the 
refuge 365 days per year for wildlife protection and safety purposes.
(5)  Who owns the structure adjacent to the United States Coast Guard 
Lighthouse, and do Point Reyes Bird Observatory, Fish and Wildlife 
Service or other personnel have access to it?
    The structure you refer to is actually part of the Lighthouse and 
it is owned by the U.S. Coast Guard (USCG). PRBO and the Service have 
access to it.
(6)  What criteria are utilized by the Fish and Wildlife Service to 
evaluate the Point Reyes Bird Observatory activities at the Farallon 
NWR or any other group or organization?
    PRBO must submit a research proposal for any studies that go beyond 
the monitoring data the Service requires them to collect per the terms 
of the Cooperative Agreement. Proposals are evaluated per the criteria 
listed in the response to Question 3.
(7)  Has there ever been ingress/egress to the Farallon NWR by means 
other than the main ``crane'' on Southeast Farallon Island (SEFI) or by 
way of a Coast Guard helicopter?
    Yes. There is an ``alternate'' landing site on the north side of 
the island which is accessible only during certain tidal and weather 
conditions. However, there is increased disturbance to Stellar sea 
lions when this site is used.
(8)  Does the official Farallon National Wildlife Refuge also include: 
Noonday Rock. North Farallon Island, Isle of St. James, Middle Farallon 
Island, Maintop Island and Seal Rock?
    Yes.
(9)  How many buildings or structures exist at the Farallon National 
Wildlife Refuge? Please provide the total number by type, square 
footage of each structure, how and by whom are they utilized and are 
there currently vacant structures?



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    All the structures are on Southeast Farallon Island. There are no 
vacant structures.
(10)  How do Fish and Wildlife Service and Point Reyes Bird Observatory 
(PRBO) personnel communicate from the Farallon NWR?
    The Service and PRBO personnel communicate via VHS (Marine Radio), 
Radio-Phone, and e-mail.
(11)  Are there communication antennas or antennas of any type located 
at the Farallon NWR? If yes, who owns them and for what purpose?
    There are eight antennas. Three are owned by the USCG for 
lighthouse communications, three are owned by the Service for radio/
phone communications, and two are owned by UC Berkeley for transmission 
of seismographic data and e-mail.
(12)  Do PRBO personnel transmit and/or receive any type of radio, 
satellite, cell phone, or direct television transmissions at the 
Farallon NWR?
    PRBO personnel use radio transmissions as per answer 10, but no 
direct TV, although there is a TV with ``rabbit-ears'' antenna. Cell 
phone reception is poor and seldom used.
(13)  How much rent does PRBO pay for utilizing federal property at the 
Farallon NWR?
    Per the terms of our cooperative agreement, the Service furnishes 
housing to the PRBO staff conducting the monitoring, protective 
services, and maintenance duties required of them.
(14)  Does the Fish and Wildlife Service provide any transportation for 
personnel, supplies or any services for PRBO or other organizations 
that may utilize the Farallon NWR? What is the cost of those services 
and what is the reimbursement policy?
    No. PRBO and other organizations are responsible for arranging 
their own transportation.
(15)  What has been the total number of PRBO personnel or other groups 
that have spent time at the Farallon NWR?
    See response to Question 1.
(16)  During annual maintenance, are any non-governmental individuals 
or volunteers given access to the Farallon NWR?
    On occasion, volunteers with particular skills have accompanied 
Service staff to accomplish maintenance tasks on the Refuge. For 
example, plumbers have helped repair our water system, electricians 
have worked on our generators, and individuals with carpentry skills 
have helped build various structures.
(17)  Does NOAA still maintain weather service or other equipment at 
the Farallon National Wildlife Refuge? If so, how is data transmitted?
    Yes. NOAA has a small wind meter and small box with some 
instruments. PRBO personnel collect weather data from these devices 
daily and phone the results to the National Weather Service via our 
radio-phone.
(18)  Are there any other federal or state agencies that have equipment 
or structures of any type at the Farallon National Wildlife Refuge? 
Please elaborate.
    Yes. UC Berkeley Seismology Laboratory has two small (approximately 
2 square feet each) instruments that record the Earth's vertical and 
horizontal movement. Also, see the response to Question 5.
                                 ______
                                 
    A letter to Steve Thompson, Operations Manager, California/
Nevada Operations Office, U.S. Fish and Wildlife Service, 
submitted for the record by Chairman Pombo follows:]

                             March 3, 2005

Mr. Steve Thompson
Operations Manager
California/Nevada Operations Office
U. S. Fish and Wildlife Service
2800 Cottage Way
Sacramento, California 95825

Dear Steve:

    As you are aware, my Committee is continuing to investigate various 
allegations that citizens are being denied legitimate opportunities to 
engage in various activities within units of the National Wildlife 
Refuge System.
    In an effort to assist me, I would like responses to the following 
list of questions:
     (1)  Are there currently any seabird islands on the West Coast 
that allow public access? If there are, please list them and describe 
the uses?
     (2)  Has the U.S. Fish and Wildlife Service in the California/
Nevada region ever experienced a problem with an employee or volunteer 
of a non-governmental organization on the Farallon NWR? What was the 
outcome and circumstances surrounding those cases?
     (3)  According to Director Steve Williams, there are currently 
eight radio antennas located on the Farallon NWR. Are these licensed by 
the Federal Communications Commission? What are the terms and length of 
the licenses? When do they expire and have they been previously 
renewed?
     (4)  What frequencies have been used by the Point Reyes Bird 
Conservancy during``the last four years for communications?
     (5)  Please describe specifically how the Point Reyes Bird 
Conservancy staff on the Farallon NWR insures wildlife protection and 
safety?
     (6)  For what purpose does UC Berkeley require ``email'' 
communications from the Farallons, and how frequently are UC Berkeley 
personnel on Southeast Farallon?
     (7)  Are you aware of any examples where radio antennas, cell 
phones or emails have adversely affected the seabird populations on the 
Farallon NWR? If there are examples, what were the impacts? If that is 
the case, why then are these transmissions still taking place?
     (8)  Are the Farallon Islands NWR so fragile and unique that the 
Fish and Wildlife Service has contemplated banning all human activity 
and presence on the Islands?
     (9)  In your professional judgement, is the Farallon Islands NWR 
more fragile and environmentally sensitive than the Galapagos Islands 
that received 90,533 human visits in 2003 and has built a commercial 
infrastructure including visitor accommodations?
    (10)  In Director Williams' response of November 18, 2004, he 
indicated that there are a number of existing structures in the 
Farallon Islands NWR including office/lab, powerhouse, carpenter's 
shop, living quarters, north landing boathouse and others. Could you 
please provide for me pictures of each of these structures, if they are 
available, or at least a diagram of where each of these facilities are 
located in the refuge?
    Steve, I would appreciate complete responses to these important 
questions and hope that you can make every effort to expedite this 
process. Should you have any questions or require clarification, please 
feel free to contact either Todd Willens or Harry Burroughs on my 
Committee staff at (202) 225-2761. I look forward to hearing from you 
soon.

                               Sincerely,

                            RICHARD W. POMBO

                                Chairman

                                 ______
                                 
    [Mr. Thompson's response to Chairman Pombo's letter 
follows:]

                United States Department of the Interior

                       FISH AND WILDLIFE SERVICE

                  California/Nevada Operations Office

                     2800 Cottage Way, Room W-2610

                   Sacramento, California 95825-1846

                             April 5, 2005

Honorable Richard W. Pombo
Chairman, Committee on Resources
U.S. House of Representatives
Washington, D.C. 20515

Dear Congressman Pombo:

    Thank you for your March 3, 2005, letter regarding activities at 
the Farallon NWR. Based on your request that we provide an expedited 
response to the questions posed in your letter, the following responses 
are based on the best information available at this time:
1.  Are there currently any seabird islands on the West Coast that 
        allow public access? If there are, please list them and 
        describe the uses.
    California: There are approximately 500 rocks and islands off the 
California coast that contain nesting seabirds. Included in this figure 
are small islets off larger islands. The vast majority of these 
islands/islets are administered by the Bureau of Land Management as the 
California Coastal National Monument. The National Park Service manages 
some seabird nesting islands as part of the Channel Islands National 
Park in southern California, and as part of Point Reyes National 
Seashore in northern California. Some seabird nesting islands are 
within the California State Park System (e.g., Ano Nuevo Island, 
Mendocino Headlands), and at least one nesting island is privately 
owned. Besides the Farallon Islands, USFWS also manages Castle Rock 
NWR. We are aware of public access on 6 of these islands: San Miguel, 
Santa Rosa, Santa Cruz, Anacapa, and Santa Barbara (part of the Channel 
Islands National Park), and on the privately owned and managed Santa 
Catalina Island. On the Channel Islands, public access consists of day 
use, hiking, guided interpretive walks, and overnight camping. These 
islands are large in comparison to the Farallon Islands, and seabird 
nesting occurs on a relatively small portion of the islands. Trail 
systems route people away from nesting cliffs and seasonal closures 
keeps the public away from other nesting areas. Seabird populations are 
small on Santa Catalina Island; public access occurs on the main 
island, while the small seabird population is mostly concentrated on 
the offshore islets.
    Oregon\1\: USFWS manages 1,853 rocks, reefs and islands, along the 
Oregon coast as part of Oregon Islands National Wildlife Refuge. All of 
the rocks, reefs and islands are included as the Oregon Island 
Wilderness except Tillamook Rock. The USFWS also manages Three Arch 
Rocks NWR on the Oregon north coast and this 15-acre refuge includes 9 
rocks and islands and is also a wilderness area (Three Arch Rocks 
Wilderness). Not all these locations host sea bird colonies. Some serve 
as haul out and breeding sites for marine mammals. There is no public 
access on any of the 1,862 rocks, reefs and islands. Two active 
research projects are currently being conducted by the Oregon 
Department of Fish and Wildlife and NOAA-Fisheries through Special Use 
Permits and are related to the recovery program for the threatened 
Steller sea lion. The researchers are allowed to access a limited 
number of sites under conditions of the SUP. The refuge also has an 
active, on-going Leach's storm-petrel research project, but public 
access to the site is prohibited. Seabird surveys conducted by USFWS 
normally rely on surveys conducted by boat, on the mainland by viewing 
from a distance using scopes and through the use of aerial photography 
taken at high altitude. Access to any of the 1,862 rocks, reefs and 
islands by USFWS staff is very rare.
    Washington\2\: USFWS manages 600 to 800 rocks, reefs and islands 
along the outer coast of Washington encompassing 60-acre Copallis NWR, 
125-acre Flattery Rocks NWR and 300-acre Quillayute Needles NWR. The 
other islands range in size from less than one acre to about 36 acres, 
and most drop abruptly into the sea. There is no public access to these 
rocks, reefs and islands though occasional trespass has been reported. 
These rocks, reefs and islands serve as habitat for 14 species of 
nesting seabirds. Marine mammals---sea lions, harbor and fur seals, sea 
otters and whales occur around the island. Destruction Island hosts the 
largest, breeding rhinoceros auklet colony outside of Alaska. All of 
the islands except Destruction Island are designated wilderness areas. 
Surveys conducted by USFWS normally rely on data obtained through 
aerial flyovers and related aerial photography. Other access to these 
protected areas by USFWS staff is very rare.
    USFWS manages 83 of the approximately 700 rocks, reefs and islands 
along the inner coast of Washington scattered throughout the San Juan 
Islands of northern Puget Sound. The 83 islands making up the San Juan 
Islands NWR total almost 450 acres. They were set aside primarily to 
protect colonies of nesting seabirds, including pigeon guillemots, 
puffins, auklets, double-crested and pelagic cormorants. In order to 
help maintain the natural character of these islands, all the refuge 
islands, except Matia and Turn Islands, are closed to the public. The 
latter islands, which do not support colonies of nesting seabirds, are 
managed under a long-term agreement with Washington State Parks. 
Moorage and camping are allowed on Turn Island and on a 5-acre 
designated campground on Matia Island, which also has 1 mile of 
wilderness trail.
    Lastly, Protection Island is located in the Strait of Juan de Fuca 
and serves as nesting habitat for 70-75% of Puget Sound seabirds. It 
hosts the second largest rhinoceros auklet population outside Alaska, 
the largest colony of glaucous-winged gulls in Washington, and one of 
the last two nesting colonies of tufted puffins in the Puget Sound 
area. Forty-eight acres was purchased by the Washington Department of 
Fish and Wildlife (WDFW) in 1975 and designated the Zella M. Schultz 
Seabird Sanctuary. It is managed by the USFWS and the WDFW under a 
memorandum of understanding. The remainder of the island was acquired 
in the 1980's by the USFWS and designated Protection Island NWR. Its 
acquisition came with some limited easements to existing owners/
residents. There is one lifetime user, and 3-4 users with 25-year 
leases that are due to expire soon. They are permitted limited walking 
access to a beach in the winter and the use of their lots and access 
roads to the lots. There are some structures on Protection Island 
associated with previous and present landowners. In addition, there are 
two research programs currently active on Protection Island being 
implemented under terms of Special Use Permits by Andrew's University 
and Walla Walla College. There are also occasional USFWS-sponsored 
habitat management work parties to Protection Island in the non-
breeding season to clean-up beach debris.
2.  Has the U.S. Fish and Wildlife Service in California/Nevada region 
        ever experienced a problem with an employee or volunteer of a 
        non-governmental organization on the Farallon NWR? What was the 
        outcome and circumstances surrounding those cases?
    Yes. There are two incidents of which we are aware. During October 
2003 an employee of PRBO brought a media person onto South East 
Farallon Island (SEFI) without a Special Use Permit (SUP), which 
violated one of the terms of our Cooperative Agreement. When PRBO's 
executive director became aware of the incident, she immediately 
informed the Refuge Manager and Project Leader, and a decision was made 
to remove the employee from SEFI that day (PRBO chartered a helicopter 
at their expense). The employee was fired as a result of the incident. 
The media person, an employee of Times Warner Inc., had obtained a 
Refuge SUP in August 2003 for the stated purpose of writing a series of 
magazine articles on Farallon seabirds. Unbeknownst to the Refuge at 
that time, her true motive for gaining access to the island was to 
write a book on white shark tagging research, which occurred during 
September-October. We understand that the book, which includes details 
of the October 2003 incident, as well as another time she was on the 
island without a permit but with the knowledge of the same PRBO 
employee (in 2001 or 2002), will be published by Random House in May, 
2005. The Refuge terminated the permitting of boat-based shark research 
from the Farallon Islands partially as a result of this incident.
    In a second incident in September, 1992, an individual was issued a 
SUP to collect insects and soil samples. Although he was told by the 
Refuge Manager that he did not have permission to do so the individual 
brought his ham radio onto the island, and broadcast from the island.. 
While not a violation of the cooperative agreement, the PRBO staff 
person in charge of the island should have contacted the Refuge Manager 
when the permittee began broadcasting. As a result, the permittee was 
sent a letter saying that he had violated the terms of his SUP and was 
banned from doing future scientific work on the island.
3.  According to Director Steve Williams, there are currently eight 
        radio antennas located on the Farallon NWR. Are these licensed 
        by the Federal Communications Commission? What are the terms 
        and lengths of the licenses? When do they expire and have they 
        been previously renewed?
    The antennas are too small to require FCC licensing. However, 
licensing details for the radios and other communication equipment that 
these antennas support are given in the table below. The National 
Telecommunications Information Administration (NTIA), rather than the 
FCC, is the agency responsible for licensing communications for 
government purposes. PRBO has a station license from the FCC to operate 
a marine radio. UC Berkeley data transmissions take place in the 
unlicenced band of the spectrum.
    We have taken the following steps in locating and designing these 
antennas in order to minimize birdstrike hazards: 1) Several antennas 
are co-located on the same pole, such that only 3 poles are needed to 
support all of these antennas; 2) Antennas are mounted at the base or 
side of existing buildings so that the length of antenna protruding 
above the roofline is no more than 5-6 feet; 3) Some antennas are used 
for multiple purposes (e.g., operation of a radio/telephone; 
transmitting seismology and e-mail data). Also, we are in the process 
of installing a wireless phone/internet system, which will eliminate 
the need for antennas #1, #2, and #7 on the table below. During the 
Comprehensive Conservation Planning (CCP) process for the Farallons, we 
will re-evaluate the bird strike issue and identify additional actions 
we can take to remove antennas, poles and other infrastructure that 
pose hazards to wildlife. 



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


4.  What frequencies have been used by Point Reyes Bird Conservancy 
        during the last four years for communications?
    PRBO operates on VHF Marine Radio Channels 16, 22, 68, and 80. They 
also use the field station's radio/phone, operating on the 411.7 
Megahertz frequency.
5.  Please describe specifically how the Point Reyes Bird Conservancy 
        staff on the Farallon NWR insures wildlife protection and 
        safety?
    PRBO Conservation Science, founded as Point Reyes Bird Observatory 
in 1969, is a scientific organization that employees highly trained and 
skilled scientists and field technicians to conduct research and long 
term monitoring on birds and marine ecosystem functions. They have 
partnerships with many federal and state agencies to collect biological 
data and implement projects that benefit wildlife. Specifically, on the 
Farallon Islands under the terms our Cooperative Agreement, PRBO is 
required to: 1) staff the island 365 days per year, 2) monitor seabird/
marine mammal population sizes and breeding, 3) implement safety and 
fire plans, 4) provide protective services for wildlife, promptly 
notifying the USFWS of any violation or infringement of Refuge 
regulations; 5) supervise/escort visitors under Special Use Permits 
(for example, media), so that they don't crush nesting burrows, flush 
seabirds or pinnipeds, or otherwise disturb wildlife; 6) organize the 
volunteer Farallon (boat) Patrol to deliver provisions and equipment to 
the island; 7) perform other caretaking duties such as preventative 
maintenance of equipment/facilities and invasive weed control.
    Some specific examples of how PRBO staff has insured wildlife 
protection are:
    <bullet>  PRBO maintains a human presence on the island that deters 
trespassers and minimizes wildlife disturbance. PRBO island staff 
routinely hail boaters or pilots that approach the island too closely 
and are in danger of scaring wildlife.
    <bullet>  PRBO staff documents and reports violations of USFWS 
regulations and the California Fish and Game Code to appropriate 
enforcement personnel.
    <bullet>  PRBO collects biological data that the USFWS relies on to 
implement management programs that protect wildlife, and allows us to 
assess the effectiveness of our management actions.
    <bullet>  PRBO research on the Farallon Islands has contributed to 
the establishment of 3 National Marine Sanctuaries, a state law 
protecting California's great white sharks, and fishing regulations to 
protect seabirds.
    <bullet>  PRBO shares Farallon data through numerous scientific 
publications, and with National Marine Fisheries Service, Gulf of the 
Farallones National Marine Sanctuary, University of California, and 
other institutions involved in developing policies and implementing 
actions to understand and conserve marine resources.
    <bullet>  PRBO reports observations of oiled wildlife to the Oil 
Spill Prevention and Response Division of CA Department of Fish and 
Game. This has resulted in the discovery and cleanup of sunken, leaking 
vessels such as the SS Luckenbach in 2002, and apprehension of parties 
responsible for oil spills.
    In addition, the following are specific examples of how PRBO staff 
insures human safety on Farallon NWR:
    <bullet>  PRBO reports malfunctions, and troubleshoots, and repairs 
navigational lights at the U.S. Coast Guard maintained automated 
lighthouse on Southeast Farallon Island, contributing to general 
maritime safety. They also report vessels in distress to USCG Search 
and Rescue office.
    <bullet>  PRBO collects Farallon Island weather data four times 
daily and sends it to the National Weather Service where it is used in 
marine and coastal weather forecasting.
    <bullet>  PRBO communicates current weather and sea conditions 
daily to fishermen and other boaters planning boat trips offshore, 
enhancing public boater safety.
    <bullet>  PRBO staff are trained to operate the Refuge's boat, 
which transfers people (including Refuge staff, contractors, Special 
Use Permittees) from the transit vessel to the island via the crane and 
personnel lifting device. This is a difficult task that requires 
specialized training and experience in reading/evaluating dynamic sea 
and weather conditions.
    <bullet>  PRBO staff escort Special Use Permittees around the 
island, ensuring that they avoid terrain or paths which are 
treacherous, and keep a safe distance from wildlife (e.g., elephant 
seals) which look ``friendly'' but can be inflict injury.
6.  For what purposes does UC Berkeley require ``email'' communications 
        from the Farallons, and how frequently are UC Berkeley 
        personnel on Southeast Farallon?
    UC Berkeley Seismology Lab has two small instruments on Southeast 
Farallon Island (SEFI) which are part of a worldwide earthquake 
prediction and warning system. (SEFI is a critical location for this 
seismographic equipment because it is situated on the Pacific Plate.) 
The wireless data link that transmits seismographic information from 
SEFI to the mainland also has e-mail capabilities. Although e-mail 
communication is not required by UC Berkeley, it was installed with 
their data link as a way to reduce the frequency that UC Berkeley 
personnel would need to visit SEFI to fix problems. E-mail facilitates 
field station personnel being able to maintain, operate and 
troubleshoot the seismographic equipment. UC Berkeley personnel visit 
SEFI on average about once every other year for a stay of 1 or 2 days. 
Visits are authorized by Special Use Permit (SUP) after UC Berkeley 
submits a request (with sufficient justification) in writing. The e-
mail is also an important communication link between FWS Refuge 
personnel on the mainland and personnel stationed at this remote island 
field station, and is considered essential to safe operations.
7.  Are you aware of any examples where radio antennas, cell phones, or 
        emails have adversely affected the seabird populations on the 
        Farallon NWR? If there are examples, what were the impacts? If 
        that is the case, why then are these transmissions still taking 
        place?
    The birdstrike hazard of communication towers and antennas is a 
national, well-documented bird conservation concern. The U.S. Fish and 
Wildlife Service (USFWS) estimates at least five million birds and as 
many as 50 million birds are killed annually in collisions with 
communications towers in the U.S. Birds die when they collide with 
towers, their guy wires and related structures, and the ground. A 
recent report that summarized 149 papers dealing with this birdstrike 
hazard over the last 50 years found that 230 species of birds have been 
documented as being killed in collisions with antennas and 
communication towers--they included both land and water birds\3\.
    We are aware of no studies documenting the effect of antennas on 
seabirds specifically. However, personnel stationed on Southeast 
Farallon Island (SEFI) have witnessed many incidents of seabirds 
colliding with objects, including poles, antennas, wires, buildings and 
other structures. The ``impacts'' that have resulted include: 1) 
immediate death of the individual bird from the collision; 2) the bird 
being stunned or disoriented, falling to the ground and falling prey to 
predatory gulls which nest on the island; or; 3) bird is temporarily 
stunned and disoriented, but is able to resume flight and return to its 
nesting burrow. The nocturnal, smaller seabirds such as auklets and 
storm-petrels are most prone to collisions. They return to the island 
to feed their young (which live in underground burrows or crevices) 
under the cover of darkness to avoid predation by gulls. They have 
evolved in an environment free of manmade objects, and are either 
unable to see, or are not able to avoid such objects.
    Since SEFI was added to the Farallon NWR in 1969, the Refuge has 
been working to eliminate the number of human structures on the island 
to the extent practicable, and as funding permits. As noted in the 
response to Question #3 above, we plan to eliminate 3 radio antennas 
this year. In 1998 we converted to solar power, which eliminated the 
need for approximately 1,000 feet of pipe. In 2002 and 2003 we worked 
with the U.S. Coast Guard to remove several hundred additional feet of 
unneeded water piping, a concrete containment berm which was a bird 
entrapment hazard, and a large wooden boom. During the 1980s and 1990s 
numerous buildings, light poles, wires, and other objects left over 
from previous human occupation have been removed. We cover all windows 
at night because we have observed that nocturnal seabirds collide with 
lighted windows.
    We have chosen not to eliminate the remaining antennas because they 
provide communications essential to human safety, such as our radio and 
phone system, and the seismographic equipment, but we have tried to 
reduce their impact on wildlife as much as possible. As mentioned in 
the response to Question 3, antennas are co-located on the same poles, 
and with other structures so that their profile is reduced to the 
greatest extent possible. The birdstrike issue will be re-evaluated 
during the CCP process and we will consider removing additional 
antennas or other infrastructure.
8.  Are the Farallon Islands so fragile and unique that the Fish and 
        Wildlife Service has contemplated banning all human activity 
        and presence on the Islands?
    We have considered this possibility, both for wildlife protection 
and budgetary purposes. Based on concerns for impacts due to 
uncontrolled trespass without a human presence as well as the need to 
monitor the status of seabird nesting colonies and to manage nesting 
habitat, we chose not to ban all human activity on the Farallon NWR. 
However, this management alternative may receive more formal 
consideration during the CCP process, which is currently in the 
preliminary planning stages.
9.  In your professional judgment, is the Farallon NWR more fragile and 
        environmentally sensitive than the Galapagos Islands that 
        received 90,533 human visits in 2003 and has built a commercial 
        infrastructure including visitor accommodations.
    Yes. The nesting seabird populations on the Farallon Islands are 
more sensitive to human disturbance because of several factors. First, 
the land area of the Galapagos Islands is much larger, and the seabird 
nesting density is much less, so that visitors can be managed to avoid 
areas where sensitive wildlife would be disturbed. The Farallon Islands 
total 211 acres and support 300,000 nesting seabirds (amounting to 
1,422 birds per acre). The Galapagos Island total roughly 2 million 
acres (8000 km2) and support an estimated 750,000 nesting seabirds 
(0.42 birds per acre). The Farallon Islands are 3,000 times more 
densely populated with nesting seabirds than the Galapagos. In the 
Galapagos, many areas of land are unoccupied by nesting seabirds, 
making it possible for humans to access the islands without getting too 
close to nesting colonies and causing disturbance. This is not the case 
on the Farallon Islands.
    Secondly, there are behavior differences between the seabird 
species nesting on the Galapagos and those nesting on the Farallon 
Islands. Boobies, tropicbirds, and albatross that nest on the Galapagos 
are very tolerant of humans approaching closely on foot. In contrast, 
the murres, cormorants and puffins that nest on the Farallons are 
frightened from their nests--usually an entire colony en masse--if a 
human walks near their nest. When the birds flush, their eggs are 
exposed to predatory gulls, or roll away and are subsequently abandoned 
by the birds when they return.
    Marine mammals such as the Galapagos fur seal have evolved without 
land predators, do not recognize humans as a threat, and hence are very 
approachable. One of the Farallon breeding marine mammal species, the 
northern elephant seal, is fairly tolerant of humans. However, the 
majority of marine mammals on the Farallon Islands, including the 
threatened Steller's sea lion, stampede quickly into the water in 
response to human activity, sometimes crushing small pups in the way.
10.  In Director Williams' response of November 18, 2004, he indicated 
        that there are a number of existing structures in the Farallon 
        NWR including office/lab, powerhouse, carpenter's shop, living 
        quarters, north landing boathouse, and others. Could you please 
        provide me pictures of these structures, or a diagram of where 
        they are located?
    We hope this letter is responsive to all your concerns. If you have 
questions or need clarification, please contact me at (916) 414-6464.




<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

References & Citations:
    \1\  Personal communication with Roy Lowe, Project Leader of Oregon 
Coast National Wildlife Refuge Complex, on March 7, 2005.
    \2\  Personal communication with Kevin Ryan, Project Leader of 
Washington Maritime National Wildlife Refuge Complex, on March 7 and 
March 28, 2005.
    \3\  Shire, G.G., K. Brown, G. Winegrad. 2000. Communication 
Towers: A Deadly Hazard to Birds. Document on Internet: http://
www.abcbirds.org/policy/towerkillweb.PDF
                                 ______
                                 
    The following information submitted for the record has been 
retained in the Committee's official files:
    <bullet>  Catherwood, Leslie, Wildlife Refuge Program 
Associate, The Wilderness Society, Testimony submitted for the 
record;
    <bullet>  Garcia, Frank S. Gonzalez, President, Puerto 
Rican Ornithological Society, Letter Submitted for the record;
    <bullet>  McLaughlin, Eileen, Project Director, Wildlife 
Stewards, Letter submitted for the record;
    <bullet>  Schaffner, Fred C., Lajas, Puerto Rico, Letter 
submitted for the record; and
    <bullet>  Schmieder, Robert W. Letter submitted for the 
record.
                                ------                                

    Mr. Gilchrest. Thank you all very much. And we will be 
submitting follow-up questions from both sides. Thank you very 
much. The hearing is adjourned.
    [Whereupon, at 1:13 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
